<html>
<title> - OPPORTUNITIES AND CHALLENGES FOR IMPROVING TRUCK SAFETY ON OUR HIGHWAYS</title>
<body><pre>[Senate Hearing 113-627]
[From the U.S. Government Publishing Office]




                                                        S. Hrg. 113-627

OPPORTUNITIES AND CHALLENGES FOR IMPROVING TRUCK SAFETY ON OUR HIGHWAYS

=======================================================================

                                HEARING

                               before the

                 SUBCOMMITTEE ON SURFACE TRANSPORTATION
                 
                  AND MERCHANT MARINE INFRASTRUCTURE,
                  
                          SAFETY, AND SECURITY

                                 of the

                         COMMITTEE ON COMMERCE,
                         
                      SCIENCE, AND TRANSPORTATION
                      
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 29, 2014

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation


                                    ______

                      U.S. GOVERNMENT PUBLISHING OFFICE 

94-253 PDF                     WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001




        SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

            JOHN D. ROCKEFELLER IV, West Virginia, Chairman
BARBARA BOXER, California            JOHN THUNE, South Dakota, Ranking
BILL NELSON, Florida                 ROGER F. WICKER, Mississippi
MARIA CANTWELL, Washington           ROY BLUNT, Missouri
MARK PRYOR, Arkansas                 MARCO RUBIO, Florida
CLAIRE McCASKILL, Missouri           KELLY AYOTTE, New Hampshire
AMY KLOBUCHAR, Minnesota             DEAN HELLER, Nevada
MARK BEGICH, Alaska                  DAN COATS, Indiana
RICHARD BLUMENTHAL, Connecticut      TIM SCOTT, South Carolina
BRIAN SCHATZ, Hawaii                 TED CRUZ, Texas
EDWARD MARKEY, Massachusetts         DEB FISCHER, Nebraska
CORY BOOKER, New Jersey              RON JOHNSON, Wisconsin
JOHN E. WALSH, Montana
                    Ellen L. Doneski, Staff Director
                     John Williams, General Counsel
              David Schwietert, Republican Staff Director
              Nick Rossi, Republican Deputy Staff Director
   Rebecca Seidel, Republican General Counsel and Chief Investigator
                                 ------                                

      SUBCOMMITTEE ON SURFACE TRANSPORTATION AND MERCHANT MARINE 
                  INFRASTRUCTURE, SAFETY, AND SECURITY

RICHARD BLUMENTHAL, Connecticut,     ROY BLUNT, Missouri, Ranking 
    Chairman                             Member
BARBARA BOXER, California            ROGER F. WICKER, Mississippi
MARIA CANTWELL, Washington           MARCO RUBIO, Florida
MARK PRYOR, Arkansas                 KELLY AYOTTE, New Hampshire
CLAIRE McCASKILL, Missouri           DEAN HELLER, Nevada
AMY KLOBUCHAR, Minnesota             DAN COATS, Indiana
MARK BEGICH, Alaska                  TIM SCOTT, South Carolina
BRIAN SCHATZ, Hawaii                 TED CRUZ, Texas
EDWARD MARKEY, Massachusetts         DEB FISCHER, Nebraska
CORY BOOKER, New Jersey              RON JOHNSON, Wisconsin
JOHN E. WALSH, Montana

                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on July 29, 2014....................................     1
Statement of Senator Blumenthal..................................     1
Statement of Senator Blunt.......................................     2
Statement of Senator Booker......................................    67
Statement of Senator Fischer.....................................    69
Statement of Senator Ayotte......................................    71
Statement of Senator Scott.......................................    74

                               Witnesses

Hon. Anne S. Ferro, Administrator, Federal Motor Carrier Safety 
  Administration.................................................     4
    Prepared statement...........................................     5
Joan Claybrook, Co-Chair, Advocates for Highway and Auto Safety..    10
    Prepared statement...........................................    13
Major David Palmer, Past President, Commercial Vehicle Safety 
  Alliance.......................................................    32
    Prepared statement...........................................    33
William G. ``Jack'' Dawson, on behalf of International 
  Brotherhood of Teamsters.......................................    43
    Prepared statement...........................................    45
David J. Osiecki, Executive Vice President and Chief of National 
  Advocacy, American Trucking Associations.......................    51
    Prepared statement...........................................    53

                                Appendix

Response to written questions submitted to Hon. Anne S. Ferro by:
    Hon. John D. Rockefeller IV..................................    87
    Hon. Richard Blumenthal......................................    88
    Hon. John Thune..............................................    90
    Hon. Deb Fischer.............................................    91
Response to written questions submitted by Hon. John D. 
  Rockefeller IV to:
    Major David Palmer...........................................    93
    William G. ``Jack'' Dawson...................................    97
Response to written questions submitted by Hon. John Thune to:
    Commercial Vehicle Safety Alliance, on behalf of Major David 
      Palmer.....................................................    98
    David J. Osiecki.............................................   102

 
                      OPPORTUNITIES AND CHALLENGES

                       FOR IMPROVING TRUCK SAFETY

                            ON OUR HIGHWAYS

                              ----------                              


                         TUESDAY, JULY 29, 2014

                               U.S. Senate,
         Subcommittee on Surface Transportation and
           Merchant Marine Infrastructure, Safety, and Security,   
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 3:10 p.m. in 
room SR-253, Russell Senate Office Building, Hon. Richard 
Blumenthal, Chairman of the Subcommittee, presiding.

         OPENING STATEMENT OF HON. RICHARD BLUMENTHAL, 
                 U.S. SENATOR FROM CONNECTICUT

    Senator Blumenthal. Good afternoon, everyone. I am going to 
call the hearing to order and apologize, first of all, for a 
little late start. We just finished a vote, and I am sure we 
will be joined by other colleagues for this very important 
hearing.
    Today, this subcommittee is focused on safety, particularly 
as it relates to trucks on our Nation's roads and highways. 
This issue is something that I have cared about deeply 
throughout my career, and I appreciate Senator Blunt's 
commitment as well. I know he has been very, very focused on 
issues relating to safety.
    There may be some issues that divide us but there is so 
much more that we have in common, and that is why we are having 
this hearing. That is why we are joined by witnesses who are 
really experts on this topic from across a wide spectrum of the 
Administration, safety advocacy, law enforcement, the trucking 
industry, and the men and women who drive trucks.
    I am eager to hear their testimony and decide what we can 
do to reduce the fatalities and the injuries on our roads.
    There have been a lot of headlines lately, and you have 
probably seen about Tracy Morgan, who was seriously injured in 
a crash in early June involving a large truck, which also 
severely injured a Connecticut resident, but this hearing today 
is not about one person, Tracy Morgan, or anyone else.
    It is about the 4,000 people who are killed each year in 
truck crashes and nearly 100,000 each year who are injured, and 
there are reasons to be concerned. According to NHTSA, truck 
crash injuries increased by 40 percent from 2009 to 2012.
    So, the rules that have recently been implemented are front 
and center. I support these rules. I believe they are a step in 
the right direction, and I believe we should keep them in 
place, because as one 2005 study conducted by FMCSA 
demonstrated, under the old rules, 65 percent of drivers 
reported feeling drowsy while driving, and 48 percent admitted 
to falling asleep while driving at the same point during the 
previous year.
    If we are going to make any changes, they ought to be with 
the proper facts and review of this committee. I strongly 
caution against discarding years of careful analysis in 
addition, while doing it on a strictly spending bill.
    The 2013 rules were designed to prevent truck drivers from 
being forced to work too many hours, becoming exhausted and 
endangering themselves and other drivers on the road. That has 
to be our continuing goal.
    I am open to hearing the views of my colleagues as well as 
the experts before us, and I think what we share here is a 
common commitment to safety. The best way of doing it is the 
path that we ought to choose, and for now, I would stay with 
the rules that we have before us, which seem to be working, and 
we should allow to work before we consider changing or 
appealing them.
    With that, thank you to Senator Blunt for being here, the 
Ranking Member, and I turn to him.

                 STATEMENT OF HON. ROY BLUNT, 
                   U.S. SENATOR FROM MISSOURI

    Senator Blunt. Well, thank you, Chairman. Thank you for 
holding this hearing today, since I think the first hearing we 
had was on intermodal freight transportation, as you stepped up 
and became Chairman of this subcommittee.
    You and I both, I think, have a complete commitment to 
doing the best we can to ensure that our transportation system 
is the best one for safety on the highway, the best one to let 
our economy prosper, to let people have jobs and job 
opportunities, make all of that work in the best way, all those 
things on trains, trucks, ports, all are important parts of 
what we are talking about here.
    We are glad to have this panel here. Ms. Ferro, thank you 
for your service. This may be the last time you appear in this 
particular job, but your commitment both in Maryland and now at 
the Federal level have been significant, and thanks for the 
dedication you brought to this job.
    Certainly, as the Chairman mentioned, the safety of the 
truck traffic and all our traffic has gotten a lot of attention 
in recent days. Senator Collins on the Appropriations Committee 
did offer an amendment that was approved in a bipartisan vote 
that would suspend restrictions on the ability of drivers to 
restart their weekly on duty time under hours-of-service rules.
    I think the best argument to be made there is it puts more 
people on the road during the daylight hours, and maybe the 
second best argument to be made is I am not sure the proper 
research was ever done to think of the other implications of 
those new rules, but I am sure we will be talking about those 
rules today.
    The new restart provisions state that ``A restart period 
must include two back to back periods from 1 a.m. to 5 a.m.'' 
Now, I am not a 1 a.m. to 5 a.m. guy. My mom and dad were dairy 
farmers. I am a 5 a.m. to whatever time it takes after that to 
get things done.
    Not everybody is best suited for every job. That is maybe 
one of the things we need to consider. Just because I would not 
want to be on the road from 1 to 5 a.m., it is not the busiest 
time on the road. Some people may choose to decide that is the 
best time to do the work that they need to do and they want to 
do.
    The bipartisan amendment that was in the Transportation 
Housing and Urban Development provision merely suspends the two 
restrictions on the restart time until FMCSA could adequately 
study the effects of what both of these restrictions are.
    Certainly, we want to look at the testimony today. We want 
to listen to the testimony and ask the questions that we need 
to ask to be sure that our safety rules really do provide more 
safety, that they are reasonable, that families and individuals 
whose lives are lost, families whose lives are always impacted, 
are getting the most protection that we can give with the 
safety rules that we have.
    Clearly, we are talking a lot right now as we finish up 
this particular week in the Congress about transportation 
funding, how important it is that we meet our obligations. It 
is one of the things that from the very start the Federal 
Government was thought to be an important partner in, one of 
the things specifically mentioned in the Constitution--road 
building, Post Offices, and Post roads.
    We want to be sure that we are doing that in the best way 
we can, and one of the best ways to do that is to have hearings 
and ask questions and try to see that legislation follows up on 
the information that we achieve.
    Again, Chairman, you have been particularly vigorous in 
pursuing the potential for this subcommittee, and I am glad to 
be working on it with you, Senator Booker and others.
    Thank you.
    Senator Blumenthal. Thank you very much, Senator Blunt. I 
am going to introduce the witnesses and then ask them to make 
their opening statements.
    We are very grateful to Anne Ferro for being here today. 
She is the Administrator of the Federal Motor Carrier Safety 
Administration. In fact, the longest serving administrator in 
its history. She was appointed by President Obama in 2009.
    I join Senator Blunt in expressing my regret that this is 
probably your last appearance before this committee, and wish 
you well in your future work.
    Joan Claybrook is a witness who really needs no 
introduction. She is Co-Chair for Advocates for Highway and 
Auto Safety, and a frequent participant in our work and 
hearings. She is the former President of Public Citizen. Prior 
to becoming President of Public Citizen in 1982, she was 
Administrator of the National Highway Traffic Safety 
Administration in the Department of Transportation.
    We are honored also to have David Palmer, Major David 
Palmer, of the Texas Department of Public Safety. Major Palmer 
is the former President and Board Member of the Commercial 
Vehicle Safety Alliance, which is an international organization 
that enforces commercial motor vehicle safety laws, and he is 
currently a major with the Texas Department of Public Safety, 
where he oversees Texas Highway Patrol Division's Highway 
Safety Operations Center.
    Mr. William ``Jack'' Dawson is a freight driver with UPS. 
Mr. Dawson is a professional truck driver in Dallas, Texas, 
where he drives for UPS. He has been a professional driver for 
32 years, and he is currently a member of Teamsters Local 745. 
He trains new employees in areas of safety precautions and 
driver improvement.
    Dave Osiecki is the Senior Vice President of Public Policy 
and Regulatory Affairs at the American Trucking Associations, 
and he has been in that position since January 2010.
    He served as Vice President for Safety, Security and 
Operations at the American Trucking Associations, and he is 
instrumental in working with the ATA Safety Taskforce to 
develop a progressive 18 point agenda to further improve safety 
on our Nation's highways.
    We are honored and grateful that all of you are with us 
today. We will begin with Ms. Ferro, Administrator Ferro.

        STATEMENT OF HON. ANNE S. FERRO, ADMINISTRATOR, 
          FEDERAL MOTOR CARRIER SAFETY ADMINISTRATION

    Ms. Ferro. Mr. Chairman, Ranking Member Blunt, thank you 
both for your kind recognition of my service and for the 
opportunity to be here today to talk about the progress that we 
have made in raising the bar for truck safety.
    The primary mission of FMCSA is to reduce crashes, 
injuries, and fatalities involving large trucks and buses. It 
is a mission our employees, our law enforcement partners, and 
stakeholders across the Nation engage in and strive to achieve 
every single day.
    We know that one life lost is one too many, and the more 
than 4,000 people who die each year on our roads due to truck 
and bus related fatalities is unacceptably high.
    One of the most important steps this agency has taken has 
been to implement a new hours-of-service rule for truck 
drivers. While most drivers and carriers put safety as their 
number one priority, the fact remains that some are subject to 
exceptionally demanding work schedules, especially compared to 
working limits of the average American and compared to working 
limits in some other transportation safety sectors.
    For truck drivers, our rule took common sense and 
reasonable steps to put limits on the most extreme schedules. 
Most important is that this rule is projected to save lives and 
prevent approximately 1,400 crashes and over 500 injuries. Even 
if we use modest estimates of fatigue as a factor in crashes, 
this rule is expected to assist in saving over 400 lives per 
year.
    Now, some have said the rule is causing harm to trucking 
companies, and yet the truth is we have not seen documentation 
of that. In fact, truck tonnage is at an all time high. Since 
2009, freight shipments in the for-hire trucking industry have 
increased 30 percent, and trucking profitability is on par for 
record setting profits this year.
    When I became administrator nearly 5 years ago, I set the 
foundation for a safe operating environment for trucking, 
starting with a performance based enforcement platform that we 
call ``Compliance Safety Accountability'' or CSA, moving to a 
ban on truck and bus drivers texting or talking on handheld 
cell phones, an improved hours-of-service rule, and measures 
that close loopholes that allow unsafe drivers and unsafe 
companies to avoid being held accountable to important safety 
standards.
    All of this work was done in partnership with stakeholders 
that are at this very table, and using the best available data.
    Our work has been greatly enhanced by MAP-21, which added 
clear requirements for electronic logging devices, improved 
hours-of-service compliance through those logging devices, a 
clearinghouse for drivers who test positive for drugs and 
alcohol, and a strengthened registry of certified medical 
examiners.
    While these steps are important to improving safety, we 
need to recognize that the economic pressures on trucking 
companies and drivers often reward the ones that push the 
limits. That is why we have been researching two closely 
related issues, the impact of driver detention time and driver 
compensation on safety outcomes.
    Many drivers, in fact most drivers' compensation is tied to 
the number of miles they drive, and excessive waiting times 
associated with loading and unloading can negatively impact a 
driver's schedule, their earning potential, and certainly 
interfere with the driver's ability to complete deliveries and 
complete that pay cycle.
    In short, it creates an economic incentive for drivers to 
drive beyond the legal limits, drive beyond their physical 
limits, and in some cases, drive tired when they are least 
safe.
    For FMCSA, it comes back to safety. In fact, the dedicated, 
well-trained professionals who are operating commercial 
vehicles across our country deserve to be fairly compensated 
for all the hours they are working, not just when the wheels 
are in motion.
    That is why the GROW AMERICA Act includes a proposal to 
ensure that drivers are compensated for all on duty time.
    Mr. Chairman, again, I want to thank you for the 
opportunity to join you today for this important subject. In 
our view, achieving safety every trip, every time, takes all of 
us. For that, I am looking forward to answering any questions 
you might have today. Thank you.
    [The prepared statement of Ms. Ferro follows:]

Prepared Statement of Hon. Anne S. Ferro, Administrator, Federal Motor 
    Carrier Safety Administration, U.S. Department of Transportation
    Mr. Chairman, Ranking Member Blunt, and Members of the 
Subcommittee, thank you for inviting me to testify today on the 
importance of safety in the trucking industry. At the Federal Motor 
Carrier Safety Administration (FMCSA) we are committed to reducing the 
number of crashes, injuries and fatalities involving commercial motor 
vehicles (CMV). The number of lives lost in large truck-and bus-related 
crashes has decreased 26 percent since 2000, from 5,620 to 4,183, in 
2012. Injuries decreased from an estimated 166,000 to 126,000 during 
that same time period. While this represents significant progress, we 
must do more to bring these numbers down.
FMCSA's Safety Mission
    We have identified several serious truck safety trends that drive 
up these numbers, and we are concerned with all of them. Our data show 
that almost one-fifth of these fatalities were truck occupants. In many 
of these crashes, the truck driver was not wearing a seat belt. Working 
together to educate drivers and the motoring public, we can encourage 
them to engage in safer driving behaviors. We want all drivers and the 
people with whom they share the road to get home safely, and companies 
want their employees to operate safely. To do that, we must make the 
industry safer.
    FMCSA oversees the safety operations of more than 500,000 
interstate motor carriers, as well as the estimated 4 million active 
commercial driver's license (CDL) holders who operate hundreds of 
billions of combined miles each year. The vast majority of these 
operations are crash-free. Mr. Chairman, it is our obligation to focus 
on those operators that present the highest risk on our roads. To 
accomplish this, we depend heavily on our State partners supported 
through our grant programs and collaboration with the motor carrier 
industry and safety advocacy groups, in adherence with our three core 
principles: raise the bar to enter the motor carrier industry; require 
high safety standards to remain in the industry; and remove high-risk 
carriers, drivers, and service providers from operation. As I will 
elaborate in my testimony today, the Agency's implementation of the 
Moving Ahead for Progress in the 21st Century Act (MAP-21) aligns well 
with these priorities. To date, the Agency has implemented more than 
twenty provisions of MAP-21, which gave the Agency important tools to 
improve CMV safety and remove unsafe operators from the Nation's 
highways. We have promulgated a number of rules that allow us to take 
action against drivers and companies that violate our safety rules.
Investment in Crash Avoidance Technologies
    One way to achieve increased safety is to invest in crash avoidance 
technologies. FMCSA and our colleagues at the National Highway Traffic 
Safety Administration (NHTSA) and the Department's Intelligent 
Transportation Systems Joint Program Office have worked closely 
together to research and evaluate new technologies to help large trucks 
and buses avoid crashes. Technologies such as Electronic Stability 
Control (ESC) systems prevent crashes and save lives. NHTSA estimates 
these systems could prevent 40 to 56 percent of untripped rollover 
crashes and 14 percent of loss-of-control crashes. The NHTSA proposal 
to require ESC on heavy vehicles would prevent as many as 2,300 
crashes, nearly 900 injuries, and up to 60 fatalities.
Compliance, Safety, Accountability
    Compliance, Safety, Accountability (CSA) is FMCSA's compliance 
model to improve CMV safety and reduce large truck and bus crashes, 
injuries, and fatalities on our Nation's highways. MAP-21 included 
statutory revisions and additional authorities needed to improve the 
CSA model. For example, MAP-21 provided the Agency with flexibility to 
allow an investigator to formally request records in writing without 
the previous restriction of having to display credentials in person. 
This clarifies FMCSA's authority to conduct off-site enforcement 
interventions--to formally demand that a motor carrier provide records 
without having to travel to the motor carrier's business location. This 
has been vital to expanding FMCSA's and our State partners' enforcement 
efforts to include off-site reviews and investigations, increasing our 
ability to provide effective safety oversight on a larger portion of 
the industry than before.
    Additionally, we are focusing on a number of improvements to the 
Safety Measurement System (SMS) to strengthen the identification of 
unsafe companies and prioritizing them for enforcement interventions. 
Launched in December 2010 as part of the Agency's CSA program, SMS uses 
roadside inspection and investigation data to prioritize high risk 
motor carriers for interventions before crashes occur. Recently, we 
released a new study that confirmed that the SMS is more effective at 
identifying both truck and bus companies for targeted enforcement than 
the system it replaced. In this study, FMCSA compared the crash rates 
of those carriers identified for intervention with those without 
identified compliance and safety problems. Companies that the SMS 
identified as high-risk for future crashes had a future crash rate of 
more than double the national average. Going forward, FMCSA will use 
this data to flag companies for interventions by the Agency--which 
include roadside inspections, warning letters and onsite 
investigations--that will lead to improved safety and fewer crashes.
    FMCSA continues to improve how SMS works in order to identify motor 
carriers posing the greatest risk to safety. Our responsiveness to 
industry, safety advocates, oversight agencies and Congress brings 
about new policies, reports, and changes to the SMS. Recently, we 
announced changes to how we handle adjudicated violations. For 
inspections occurring on or after August 23, 2014, motor carriers and 
drivers will be able to request updates to their data to reflect when 
the driver or carrier is found not guilty or a violation is changed or 
dismissed in court. These changes are part of our continued effort to 
improve the quality of our violation data.
    We expect to complete our ``crash weighting'' research soon, which 
will address several questions on the feasibility of determining the 
role of the carrier in the crash. The study looks not only at the 
process to conduct this type of evaluation, but also the ultimate 
impact on the information on the Agency's ability to identify carrier's 
at risk of future crashes. Additionally, we are working towards 
publication of a proposed rule on Safety Fitness Determination that 
would increase the use of inspection data in making safety fitness 
determinations for motor carriers.
Passenger Carrier Safety
    FMCSA continues to use its MAP-21 authorities to strengthen the 
safety of passengers who ride buses throughout our Nation. In 2013, as 
part of an overall motorcoach safety initiative, we dispatched more 
than 50 specially trained investigators to conduct in-depth reviews of 
the safety management practices of the 250 most at-risk motorcoach 
companies during ``Operation Quick Strike.'' As a result, we removed 52 
unsafe bus companies and 340 vehicles from the road. During the second 
phase of the initiative FMCSA investigators visited more than 1,300 
carriers with minimal inspection history or data with the Agency. As a 
result, we identified more than 240 for follow-up investigations. Now 
we train all investigators to use the enhanced investigative techniques 
employed during Operation Quick Strike, and we have conducted 
evaluations and gap analyses with an eye toward how best to maintain an 
intensified level of oversight on the passenger carrier industry.
National Registry of Certified Medical Examiners
    Another aspect of our safety program is our newly implemented 
National Registry of Certified Medical Examiners. As of May 21 of this 
year, only medical examiners listed on the National Registry can 
conduct physical examinations of commercial drivers. This ensures that 
these drivers can operate safely and be healthy while on the road. To 
be listed on the registry, medical examiners must complete a training 
course and pass an exam to show that they understand our medical 
standards and understand the physical demands of driving a CMV when 
certifying a driver's health.
    Currently, there are more than 32,000 certified medical examiners 
on the Registry with many more scheduled to take the exam. We expect to 
have more than 40,000 certified by the end of the year. The National 
Registry builds on FMCSA's 2008 final rule merging the medical 
certification process with the Commercial Driver's License (CDL) 
issuance and renewal process, requiring that CDL holders provide proof 
of their medical qualifications to the State licensing agencies.
Obstructive Sleep Apnea
    Another issue of concern in the area of driver health is 
obstructive sleep apnea (OSA). FMCSA plans to address OSA through a 
formal rulemaking process, but only after collecting and analyzing the 
necessary data and research. Presently, we are gathering data, but have 
no immediate plans to move forward with a rulemaking. At this time, a 
sleep apnea test is NOT required to obtain or renew a medical 
certificate. The Agency has asked our Motor Carrier Safety Advisory 
Committee and our Medical Review Board to provide recommendations to 
address sleep apnea, but that is just one part of what will be an 
extensive data-gathering process.
Hours of Service Rules and Fatigue Management
    Fatigue is a leading factor in large truck crashes and a 
significant safety issue overall. The hours-of-service (HOS) 
regulations for truck drivers were updated in 2013 based on extensive 
research and data to ensure that drivers have the off-duty time they 
need to be alert behind the wheel. There is also an education component 
to preventing fatigue associated with drivers' activities when they are 
off-duty and the irregular schedules they are subjected to in order to 
meet the demands of shippers and receivers.
    In recognition of the impact of fatigue on highway safety, FMCSA 
and its Canadian counterparts led a consortium of government, 
insurance, and motor carrier agencies in developing the North American 
Fatigue Management Program (NAFMP). The NAFMP is designed to address 
the issue of driver fatigue among CMV operators and contains valuable 
information and tools that can be applied across all modes of 
transportation. The program contains information on fatigue management 
education for drivers and their families, carriers, shippers, and 
receivers. It contains additional information on sleep disorder 
screening and treatment, trip scheduling, and fatigue management 
technologies. Available in English and French, the NAFMP allows for 
more effective fatigue countermeasures and a comprehensive fatigue 
management approach.
    The revised hours-of-service (HOS) rules for truck drivers went 
fully into effect on July 1, 2013. This revised rule includes two 
modest changes to the optional 34-hour restart--first, limiting the 
restart to once a week, and second, requiring a driver to have two 
overnight periods off duty from 1 a.m. until 5 a.m. Only those drivers 
working more than 60 hours in 7 days or 70 hours in 8 days are affected 
by the changes, by having their work limited to a maximum average of 70 
hours per week. This is still nearly double the national standard of a 
40-hour work week. The once a week limit is designed to prevent 
cumulative fatigue in drivers working the maximum number of hours week 
after week, and the 2-overnight periods recognize that a 34 hour break 
with just one overnight period does not provide adequate opportunity 
for restorative sleep. Both provisions were well supported by 
scientific research. The rule improves safety by reducing driver 
fatigue.
    Public input was a major part of this rule. Before it became final, 
FMCSA held 6 public listening sessions and carefully considered 
approximately 21,000 formal docket comments, many submitted by the CMV 
industry, particularly drivers and carriers. This was after years of 
research and public input from industry and safety advocates. The rule 
in place today lists 80 sources of scientific research and data the 
Agency reviewed and considered, all of this on top of hundreds of 
studies regarding fatigue and hours of work that were considered in 
past HOS rulemakings, including research on the appropriateness and 
value of a ``restart.'' In August 2013, the U.S. Court of Appeals for 
the District of Columbia Circuit upheld the new HOS rules (except for 
the application of the 30-minute rest break requirement for short-haul 
drivers), after twice overturning previous versions.
    As noted, the 2011 final rule included two changes to the 34-hour 
restart, which impacts less than 15 percent of drivers who work the 
most extreme schedules of up to 70-hours per week. The changes limit 
use of the restart to once every 168 hours (or seven days) and require 
that the restart include two nighttime periods from 1-5 a.m. when 
science tells us our bodies demand sleep the most. We based this 
requirement on the extensive body of research that shows the 
consequences of long work hours on driver health and the correlation 
between long weekly work hours and a higher risk of sleep loss and 
crashes. Scientific review concluded generally that long work hours 
were associated with poorer health, increased work-related and non-work 
related injury rates, increased illness, a greater risk of unhealthy 
weight gain, cardiovascular disease, and other ailments.
    Mr. Chairman, let me emphasize that a driver is never required to 
use the 34-hour restart. Drivers have always been required to cease 
operations when they run out of time. Such a restart is necessary only 
if a long-haul truck driver wants to work longer than 60 hours in 7 
days or 70 hours in 8 days. Less than 15 percent of long-haul truck 
drivers--those who work the most extreme schedules--are impacted by the 
current rule. Those averaging 70 hours per week or less are NOT 
affected by the changes to the restart because they would never work 
the number of hours that would require them to use the restart. 
However, any carrier that previously allowed or required its drivers to 
average up to 82 hours per week, an amount allowed under the previous 
rule, must now cease this practice.
    We have heard criticism that the new rule discriminates against 
nighttime drivers and forces them to drive during the day and in prime 
rush hours. We have seen no evidence to support this claim. The rule 
does not prevent carriers and drivers from setting their own schedules, 
nor does it restrict drivers from being on the road during any time of 
the day. Whatever the limits on driving and work hours may be, if the 
motor carrier and driver plan their schedule so tightly that the driver 
can barely complete the run legally, then problems with completing runs 
inevitably will occur. That fact cannot support any rollback of the 
current rule.
    Independent studies have shown that daytime sleep is less 
beneficial than nighttime sleep, and that drivers who have two 
overnight rest periods are more alert and safer than drivers who get 
just one overnight period. Largely for this reason, we are concerned 
about legislative efforts to increase, even temporarily, the number of 
hours a truck driver could work from the 70-hour maximum on the books 
today. Removing the rest requirements could expose the public to 
greater risk every time they are on the road. The final rule would save 
19 lives and prevent approximately 1,400 crashes and 560 injuries each 
year--a significant safety benefit.
HOS Field Study
    Due to the importance of driver fatigue as a safety risk, we 
continue to research several issues related to hours-of-service. 
Following the MAP-21 mandate, FMCSA completed the Hours-of-Service 
Field Study, which examined the effectiveness of the new HOS rule, 
including the modified 34-hour restart provision. Released to Congress 
earlier this year, the results show that having at least two nighttime 
rest periods from 1-5 a.m. helps to lessen fatigue. Specifically, this 
naturalistic field study found that drivers whose weekly duty cycles 
were preceded by a restart break with one nighttime period as compared 
to a restart break with two or more nighttime periods--had more lapses 
of attention, reported greater sleepiness and showed increased lane 
deviation.
Detention Time and Split Sleep
    We are researching two other issues closely related to driver hours 
of service: driver detention time and split sleep. Most of us agree 
that detention time, or excessive waiting times associated with loading 
or unloading cargo, can negatively impact a driver's schedule and 
interfere with that driver's ability to complete deliveries within the 
hours-of-service regulations. We have completed phase 1 of the study, 
which will provide us with a better understanding of the scope of 
detention times throughout the industry. Meanwhile, we are continuing 
with phase 2, which will look closely at the safety impacts of 
detention time.
    During many of the listening sessions we held for the hours of 
service rulemaking, we heard that drivers desire greater flexibility on 
some of the hours of service provisions, such as split sleep, which 
divides the 10-hour off-duty period into two separate rest periods. As 
a result, later this year, we will begin a pilot program to collect 
data on the impacts of split sleep. The field study will measure the 
impact of split sleep periods on driver alertness and sleep quantity. 
We have begun discussions with our colleagues from the American 
Trucking Associations, the National Association of Small Trucking 
Companies, the Owner Operator Independent Drivers Association (OOIDA), 
and potential technology providers for this study effort.
Electronic Logging Devices
    Closely related to HOS is our electronic logging device rulemaking, 
another MAP-21 requirement. In March, we announced our proposal to 
require motor carriers to use electronic logging devices to improve the 
quality of logbook data and improve compliance with HOS rules. This 
proposed rule would address how the Agency ensures that the use of ELDs 
does not result in increased driver harassment by carriers to break the 
law, help businesses cut unnecessary paperwork, and increase efficiency 
for law enforcement personnel and inspectors who review drivers' 
logbooks. Analysis shows that electronic logging devices would help 
reduce crashes by improving compliance with HOS rules. The comment 
period ended on June 26, and we are currently reviewing more than 1,700 
comments that we received. We also received more than 11,300 letters 
from individuals who signed The AnnaLeah & Mary Stand Up for Truck 
Safety Petition. A copy of the petition is included in FMCSA's 
rulemaking docket concerning electronic logging devices: http://
www.regulations.gov/#!documentDetail;D=FMCSA-2010-0167-1177. We are 
working to finalize this important rule as expeditiously as possible.
Drug and Alcohol Clearinghouse
    To further prevent crashes, we must ensure that drivers are 
healthy, sober and drug-free. We published the Notice of Proposed 
Rulemaking (NPRM) on the Drug and Alcohol Clearinghouse (Clearinghouse) 
to implement the MAP-21 provision on this subject. The Clearinghouse 
would require truck and bus companies (and other entities responsible 
for managing drug & alcohol testing programs) to report verified 
positive drug and alcohol test results, test refusals, negative return-
to-duty test results and follow-up testing. This information would 
populate a repository with positive drug and alcohol tests by CDL 
holders. Once implemented, employers would be required to conduct pre-
employment searches in the repository for all new CDL drivers and 
annual searches on current drivers. The comment period for the rule 
closed on May 21.
Minimum Training Requirements for Entry-Level CMV Operators
    MAP-21 directed the Agency to issue final regulations to require 
training for entry level CDL applicants. The Agency's rulemaking must 
address knowledge and skills for safe operation and other issues. Last 
year, the Agency held public listening sessions on this issue. These 
sessions provided the Agency with substantial information about 
training for entry level CDL applicants. The Agency will soon engage 
the services of a convener to assess the feasibility of conducting a 
negotiated rulemaking to implement this important MAP-21 provision.
Coercion Rule
    On May 13, FMCSA published an NPRM to adopt regulations that 
prohibit motor carriers, shippers, receivers, or transportation 
intermediaries from coercing drivers to operate CMVs in violation of 
certain provisions of the Federal Motor Carrier Safety Regulations--
including drivers' HOS limits and the CDL regulations and associated 
drug and alcohol testing rules--or the Hazardous Materials Regulations. 
In addition, the NPRM would prohibit anyone who operates a CMV in 
interstate commerce from coercing a driver to violate the commercial 
regulations. This NPRM includes procedures for drivers to report 
incidents of coercion to FMCSA and rules of practice the Agency would 
follow in response to allegations of coercion and describes penalties 
that may be imposed on entities found to have coerced drivers. This 
proposed rulemaking is authorized by section 32911 of MAP-21, amending 
the Motor Carrier Safety Act of 1984. The comment period closes on 
August 11.
GROW AMERICA
    In May, President Obama and Secretary Foxx proposed the GROW 
AMERICA Act--a four-year, $302 billion transportation bill that will 
help us tackle our infrastructure deficit while improving safety and 
providing the reliability that our partners at the State and local 
level need. Our plan will ensure the solvency of the Highway Trust Fund 
and will boost funding for highways, transit, and rail. It will invest 
$5 billion in four more years of our TIGER grant program, which 
supports innovative, sustainable, multimodal solutions to regional 
transportation challenges. At FMCSA, GROW AMERICA would help us 
streamline our grants processes to improve the efficiency of our 
grantees.
    One of our biggest Agency goals in GROW AMERICA is to address 
driver compensation. Many over-the-road truck and bus drivers are 
compensated by the mile or on a fixed-rate per load. As a result, they 
are not paid for extended periods of time spent on-the-clock when they 
are detained by waiting for shipments to be loaded or unloaded at 
shippers' or receivers' facilities. Similarly, over-the-road motorcoach 
drivers are often compensated in a manner other than an hourly wage. 
Truck and bus drivers deserve to earn at least the Federal minimum fair 
hourly wage for all on-duty time. Failing to pay them for time they 
spend working, but are detained waiting for shipments may increase the 
pressures they face, thereby, jeopardizing their safety and the safety 
of others by speeding and driving tired or beyond the hours of service 
as a matter of economic necessity. Furthermore, these dedicated, well-
trained professionals deserve to earn a livable, hourly wage and be 
compensated fairly for their time and contributions to the vitality of 
the American economy.
    Finally, we propose allowing for the criminal prosecution of a 
person who knowingly and willfully violates an imminent hazard out-of-
service order and operates after FMCSA has shut them down.
    We hope these changes will make it easier for all of our 
stakeholders, from drivers and carriers to enforcement partners to work 
together toward our shared safety goals.
Conclusion
    Thank you, Mr. Chairman, Ranking Member Blunt, and members of the 
Subcommittee, for allowing me to speak to you today on these important 
issues relating to truck safety. We must all work together to create 
the safest trucking industry possible. Together we can make a 
difference for safety.

    Senator Blumenthal. Thank you. Ms. Claybrook?

 STATEMENT OF JOAN CLAYBROOK, CO-CHAIR, ADVOCATES FOR HIGHWAY 
                        AND AUTO SAFETY

    Ms. Claybrook. Thank you very much, Mr. Chairman. It is a 
pleasure to be here with you and the Subcommittee. I have my 
full statement which I would like to submit for the record, 
along with some other documents.
    Senator Blumenthal. Without objection.
    Ms. Claybrook. Thank you very much. I am representing today 
Advocates for Highway and Auto Safety, which is a coalition of 
insurance companies and consumer organizations. I serve as the 
Co-Chair.
    Advocates has been involved in the issue of motor carrier 
safety for 25 years, and for good reasons. Truck crashes are 
serious, deadly, and costly problems to families, our health 
care system, and to our economy.
    Government data and statistics illustrate the emotional and 
economic toll that large truck crashes take on the American 
public. They killed 3,921 people and injured another 100,000 
people in 2012 at a cost of more than $99 billion, and truck 
crash deaths and injuries are climbing.
    The death toll caused by truck crashes is equivalent to a 
major airline crash, every single week in this country, and we 
know that Congress would not put up with a major airline crash 
every single week in this country.
    So, we think you need to take some steps to improve truck 
safety. The death toll caused by truck crashes and the 
transportation crisis that results should never be tolerated by 
our elected leaders or by the Department of Transportation. And 
for the public, it is a nightmare.
    In almost all truck/car crashes, it is the car occupants 
who are killed or severely injured 96 percent of the time. 
These victims reside in every state across the country.
    I would like to take a minute to introduce two parents and 
a young woman to this committee who are here to personally 
support improving truck safety. Larry Liberatore's teenage son, 
Nick, was killed on June 9, 1997 on his way to Six Flags Great 
Adventure in New Jersey. A tired trucker ran over his car when 
he was on the shoulder of the highway. Larry is a Board Member 
of Parents Against Tired Truckers.
    Marchelle Wood's daughter, Dana, and a girlfriend were 
returning to college on October 15, 2002 on I-95, and swerved 
to avoid hitting a deer, coming to a stop in the right lane. 
They were killed moments later by a tired trucker who ran over 
their car, even though no one was in the left-hand lane.
    Morgan Lake is a truck crash survivor. Last July, she was 
on the Chesapeake Bay Bridge and was hit from behind by a 
distracted driver. The impact pushed her car over the bridge 
railing, and it plunged into the water. She freed herself from 
the car and swam to a bridge pillar, and thankfully, she is 
here to tell us the story of surviving this horrific crash.
    My testimony this afternoon will focus on three campaigns 
that would jettison truck safety and undermine progress in 
reducing truck crashes, deaths and injuries. First, they 
include the attack on safety reforms incorporated by the Obama 
administration in the 2011 hours-of-service rule.
    Second, the ongoing problems with the credibility and 
reliability of the DOT comprehensive truck size and weight 
study, and third, special interest legislation to preempt 
states and force them to allow longer combination trucks.
    Another concern is the weakening of important motor carrier 
truck safety provisions in the Administration's GROW AMERICA 
Act, explained in detail in my written statement.
    First, fatigue. Truck driving is one of the most dangerous 
occupations in the United States, and truck driver fatigue is a 
major factor. Commercial drivers are exempt from maximum hours 
and overtime requirements of the Fair Labor Standards Act, 
amazingly, since 1938, governing compensation for all other 
employees working more than 40 hours a week.
    In 2003, the Federal Motor Carrier Safety Administration 
changed the hours-of-service rules. However, rather than 
addressing driver fatigue for better working conditions, the 
rule dramatically increased working and driving hours.
    This was accomplished by allowing a so-called ``restart 
provision,'' which permits drivers to restart their 60 to 70 
hour driving limit at any point during the work week by taking 
34 hours off duty.
    The trucking industry enthusiastically embraced this change 
because it increased the maximum work week to an amazing 82 
hours and reduced the off duty rest time available for drivers 
to one day and 10 hours.
    The startling decline in driver sleep and increase in 
driver fatigue was documented in a 2006 FMCSA survey of truck 
drivers. It showed that nearly two-thirds of the drivers 
surveyed, 65 percent, admitted to driving while tired, and 
nearly half, 48 percent, reported they actually fell asleep 
behind the wheel while driving in the previous year.
    However, the safety reforms were finally adopted by FMCSA 
after 9 years of consumer and safety litigation. In 2011, the 
HOS rules, which were only implemented a year ago, in 2013, had 
two positive changes that included an once per week limit on 
the use of the 34-hour restart. That is you could not use it 
every 5 days, you had to wait 7 days, on average, reducing the 
maximum work week from 82 hours to 70 hours. These changes were 
reasonable.
    Also, the agency adopted a requirement for two consecutive 
overnight off-duty periods between 1 and 5 a.m. to assure the 
rest will contain two nighttime periods to permit a driver to 
obtain the most restorative type of sleep, and these changes 
ensure driver flexibility to meet the demands of the freight 
business while preparing for the rigors of driving these long 
hours. This applies, I want to emphasize, only to those drivers 
who have maxed out on their 70 hours. So, this provision 
applies not to all drivers, but just to a small percentage of 
drivers.
    Unfortunately, even these minimal common sense safety 
improvements are under attack, and as we have already heard, 
Senator Collins offered an amendment which would remove these 
rules by the appropriations bill.
    That is opposed by Advocates, consumer health and safety 
groups, law enforcement, labor, truck crash victims, as well as 
several large trucking companies and DOT.
    Instead, we strongly support an amendment that strips the 
Collins' amendment rule change in the bill that is sponsored by 
Senator Cory Booker of New Jersey. We thank you so much, 
Senator, for doing that. It is supported by a number of other 
Senators, including the Chairman and Senators Boxer, Durbin, 
Brown, Feinstein, Gillibrand, Hirono, Menendez, Markey, Murphy, 
Rockefeller, Schatz, Schumer, and Warren.
    Second, another large truck issue that threatens public 
safety is the relentless and aggressive push by corporate 
trucking and shipping interests to increase truck size and 
weights, and it is unending. They stand alone in their support 
for bigger, longer, heavier trucks, because the American public 
certainly does not.
    Attached to my testimony is a public opinion poll series 
over the last 19 years that show consistent and strong 
opposition.
    In MAP-21, Congress required the Secretary of 
Transportation to conduct a comprehensive study of truck size 
and weight issues including safety performance and 
infrastructure impact of trucks that would be bigger or heavier 
than the current size and weight configurations.
    This critical study will influence Federal and state 
transportation policy for years to come. It will affect working 
conditions for truck drivers, law enforcement, national freight 
and intermodal investments, clean air, fuel economy, and the 
public health and safety of our families.
    Criticisms by Advocates and others were recently validated 
and endorsed by a 51 page report issued in March by the Peer 
Review Committee of the National Academy of Sciences on the 
initial phase of the DOT study, and a summary is attached to my 
testimony.
    The NAS complains that the study relies on selective 
voluntarily supplied data from the trucking industry that has a 
clear economic interest in the outcome, but ignores significant 
earlier DOT studies that show increased crash risks associated 
with these trucks.
    This study plans to extrapolate the operation and 
performance of big rigs in sparsely populated rural states to 
evaluate trucks in congested urban areas as well, which does 
not make any sense.
    Furthermore, DOT is basing the entire national bridge 
analysis on an unpublished study by the District Government 
here in Washington on truck size and weight, not peer reviewed 
and hardly representative of bridges throughout America.
    Because these and many other flaws are so significant and 
the study lacks adequate transparency, at this time we 
recommend that the study be stopped until Congress and the 
public are assured that corrections are made, the findings are 
unbiased, unimpeachable, and unchallengeable, and we appreciate 
the assistance of you, Mr. Chairman, and other Senators, 
including Senator Booker, on this effort.
    Finally, longer truck trailers. I would like to state our 
absolute opposition to any proposal which would dramatically 
overturn and alter existing national freight policy by forcing 
states to allow 33 foot trailers, which segments of the 
trucking industry are pushing. It will result in longer and 
more dangerous double or tandem rigs exceeding 85 feet in 
length or with three trailers, 115 feet in length. These are 
trains on our highways. Currently, 39 states do not allow these 
longer trailers, and they should not be forced to pay for 
wasteful infrastructure and upgrades to accommodate them.
    So, Mr. Chairman, we deeply appreciate your having this 
hearing. Truck deaths and injuries are climbing, and we need 
action. Thank you very much.
    [The prepared statement of Ms. Claybrook follows:]

 Prepared Statement of Joan Claybrook, Co-Chair, Advocates for Highway 
                            and Auto Safety
    Good afternoon Chairman Blumenthal, Ranking Member Blunt, and 
Members of the Surface Transportation and Merchant Marine 
Infrastructure, Safety, and Security Subcommittee of the Senate 
Committee on Commerce, Science and Transportation. Thank you for 
inviting me to testify before you today. I am Joan Claybrook, Consumer 
Co-Chair of Advocates for Highway and Auto Safety (Advocates) and 
former Administrator of the National Highway Traffic Safety 
Administration.
    Founded in 1989, Advocates is a coalition of consumer, health and 
safety groups and major insurance companies working together to promote 
safety on our roads and highways by advocating for laws and regulations 
that prevent crashes, save lives and reduce injuries. Advocates is a 
unique coalition dedicated to improving traffic safety by addressing 
motor vehicle crashes as a public health issue. One of our major safety 
priorities is the unnecessary and unacceptable death and injury toll 
caused by truck crashes. I appreciate being invited to testify before 
you today on the opportunities and challenges for improving truck 
safety on our highways.
Introduction
    Advocates has been involved in the issue of motor carrier safety 
and truck driver hours of service regulations for 25 years, and with 
good reason. Truck crashes are a serious, deadly and costly problem to 
families, our health care system, and to the economy. Government data 
and statistics illustrate the emotional and economic toll of large 
truck crashes on the public. Large truck crashes killed 3,921 people 
and injured another 104,000 in 2012.\1\ Over the past decade (based on 
the most recent available data from 2003 through 2012), large truck 
crashes have claimed, on average, the lives of over 4,000 people and 
injured nearly 100,000 each year.\2\ This is equivalent to a major 
airplane crash every week all year long. In the past ten years a total 
of 44,204 people have been killed and nearly one million people have 
been injured in crashes involving large trucks.\3\ Despite declines in 
the overall fatality and injury statistics during the 2008-2009 
recession, fatalities and injuries in large truck crashes have 
experienced increases every year since 2009. The fatality total has 
increased by 16 percent and the number of people injured has increased 
by 40 percent since the low point in 2009.\4\ Of the people killed in 
crashes involving large trucks in 2012, 73 percent were occupants of 
other vehicles, 18 percent were occupants of large trucks, and 10 
percent were non-occupants (pedestrians, pedal cyclists, etc.).\5\ The 
annual cost to society from crashes involving commercial motor vehicles 
is estimated to be over $99 billion.\6\
---------------------------------------------------------------------------
    \1\ Traffic Safety Facts 2012 Data: Large Trucks, DOT HS 811 868, 
NHTSA (May, 2014).
    \2\ NHTSA Traffic Safety Facts, Large Truck fact sheets 2003 
through 2012.
    \3\ Id.
    \4\ Id.
    \5\ Traffic Safety Facts 2012 Data: Large Trucks, op cit.
    \6\ 2014 Pocket Guide to large Truck and Bus Statistics, FMCSA (May 
2014).
---------------------------------------------------------------------------
    Advocates is gravely concerned with the recent increases in truck 
crash deaths and injuries as these numbers continue their march toward 
a return to pre-recession levels. Unfortunately, several deeply flawed 
U.S. Department of Transportation (DOT) initiatives as well as adoption 
of special interest rollbacks in safety regulations will only 
contribute to the mounting death and injury toll unless changes and 
course corrections are implemented. My testimony this afternoon 
addresses several of these major issues related to commercial motor 
carrier regulation and truck safety policy, including the attack on the 
safety reforms incorporated in the 2011 hours of service rule, the on-
going problems with the credibility and reliability of the DOT 
Comprehensive Truck Size and Weight Limits Study and the weakening of 
important motor carrier and truck provisions in the Generating Renewal, 
Opportunity, and Work with Accelerated Mobility, Efficiency, and 
Rebuilding of Infrastructure and Communities throughout America Act, 
known as the GROW AMERICA Act, recently released by the Administration 
and introduced in the House of Representatives as H.R. 4834.
Safety Reform of the 34-Hour Restart Rule Under Attack by Special 
        Trucking Interests
    Driving a commercial motor vehicle (CMV) is a challenging, 
exhausting and dangerous occupation; extremely long work weeks are just 
one of many factors contributing to this reality. Truck driving 
continues to be identified as one of the most dangerous occupations in 
the United States.\7\ Nearly 600 drivers of large trucks were killed in 
2012 and another 21,000 were injured in truck crashes.\8\ More fatal 
work injuries resulted from transportation incidents than from any 
other event in 2012.\9\ Roadway incidents alone accounted for one out 
of every four fatal work injuries.\10\ Despite these facts, CMV drivers 
are exempt from the maximum hours and overtime requirements of the Fair 
Labor Standards Act \11\ which govern compensation for employees 
working more than 40 hours a week. Since 1938, CMV drivers have been 
limited to driving within the first 60 or 70 hours of their work week 
(depending on their schedule). Prior to the 2003 final rule, a truck 
driver who used all 60 or 70 driving hours was not allowed to drive 
again until their 7 or 8 day work week was over and a new work week 
began. This ensured that drivers were provided a full weekend off-duty 
to rest and recover from the arduous driving schedule.
---------------------------------------------------------------------------
    \7\ National Census of Fatal Occupational Injuries in 2012 
(Preliminary Results), USDL-13-1699, Bureau of Labor Statistics, (Aug. 
22, 2013).
    \8\ Traffic Safety Facts 2012, DOT HS 812 032, NHTSA (2014).
    \9\ Census of Fatal Occupational Injuries Charts, 1992-2012 
(revised data), available from http://www.bls.gov/iif/oshcfoi1.htm.
    \10\ Census of Fatal Occupational Injuries Charts, 1992-2012 
(revised data)
    \11\ 29 United States Code Sec. 213(b)(1).
---------------------------------------------------------------------------
    The 2003 Hours of Service (HOS) final rule, however, instituted the 
34-hour restart which allows drivers to restart their 60 or 70 hour 
driving limit at any point during the work week by taking just 34 hours 
off duty; this is in comparison with the normal weekend of about 60 
hours off for people working a 9-to-5 job. The trucking industry 
embraced this change because it increases the average maximum work week 
to 82 hours; more than double the time the average American works. This 
increase in driving and work hours enabled the industry to realize a 
huge cost savings by using fewer drivers to move the same amount of 
freight and eliminating 48,000 trucking jobs.\12\ Many drivers are paid 
by the mile, meaning that if the truck isn't moving, the driver isn't 
earning. Aside from encouraging truck drivers to drive as long and as 
fast as possible, the complete opposite motivation from what is needed 
from a safety viewpoint, this also means that drivers viewed the 
restart as a way to increase their paychecks. In short, the 
unrestricted 34-hour restart, as implemented in the 2003 final rule, 
was a giveaway to the industry that allows motor carriers to cut their 
bottom line, overwork drivers even more, and in the process convince 
drivers that it was all for their benefit.
---------------------------------------------------------------------------
    \12\ Regulatory Impact Analysis and Small Business Analysis for 
Hours of Service Options, FMCSA, Dec. 2002.
---------------------------------------------------------------------------
    Advocates opposed the unfettered use of the 34-hour restart since 
it was first adopted in the 2003 HOS final rule.\13\ The reason is that 
the restart provision allows long-haul truck drivers to drive and work 
more hours, and therefore get less off-duty rest, each week than was 
permitted before the 2003 HOS rule was adopted. The startling decline 
in driver sleep and increase in driver fatigue was documented in the 
results of an anonymous 2006 survey of truck drivers sponsored by the 
Federal Motor Carrier Safety Administration (FMCSA) which reported:
---------------------------------------------------------------------------
    \13\ Hours of Service of Drivers; Driver Rest and Sleep for Safe 
Operations, Final Rule, 68 FR 22456 (Apr. 28, 2003).

        About 38 percent of the drivers said they sometimes and 6.7 
        percent said they often had trouble staying awake while 
        driving. About 13 percent reported that they often or sometimes 
        fall asleep while driving; 47.6 percent said they had fallen 
        asleep while driving in the previous year. Although only 23.4 
        percent said they often or sometimes felt fatigued while 
        driving, 65 percent reported that they often or sometimes felt 
        drowsy while driving. A third of the drivers reported that they 
        became fatigued on a half or more of their trips.\14\
---------------------------------------------------------------------------
    \14\ Hours of Service of Drivers, NPRM (2010 NPRM), FMCSA, 75 FR 
82170 (Dec. 29, 2010), citing Dinges, D.F. & Maislin, G., ``Truck 
Driver Fatigue Management Survey,'' FMCSA (May 2006), FMCSA-2004-19608-
3968.

    The survey was conducted after the 2003 HOS final rule was 
implemented and the unrestricted 34-hour restart provision went into 
effect. The survey showed that nearly two-thirds of truck drivers 
surveyed (65 percent) admitted to driving while tired and nearly half 
(48 percent) reported that they actually fell asleep behind the wheel 
while driving in the previous year.\15\ These self-reports, which most 
likely underestimate the true extent of the fatigue problem, indicate 
that many truck drivers were operating vehicles while tired or fatigued 
under those HOS rules.
---------------------------------------------------------------------------
    \15\ Id.
---------------------------------------------------------------------------
    Equally troubling is the fact that truck drivers reportedly 
obtained far less than 7 hours of sleep each night, well below the 7 to 
8 hours of sleep the agency had found drivers needed to be alert and to 
perform the driving task safely. According to the FMCSA:

        The studies of restricted sleep show that over days of mild, 
        moderate, or severe sleep restriction (1) alertness and 
        performance degrade as cumulative sleep debt rises; (2) even 
        mild sleep restriction (loss of less than 1 hour of sleep a 
        day) degrades performance over days. Seven to 8 hours of 
        consolidated night-time sleep in each 24 hours appear to 
        sustain performance over multiple days, if not longer, for most 
        people.\16\
---------------------------------------------------------------------------
    \16\ 2010 NPRM, 75 FR 82175 (citations omitted). The FMCSA NPRM 
went on to state that the Virginia Tech Transportation Institute (VTTI) 
naturalistic driving study of CMV drivers operating under the 2003 
rule, measured sleep averaged 6.15 to 6.28 hours (the average includes 
both work days and days off); the average on work days was 5.6 hours. 
See Hanowski, R.J., Hickman, J., Fumero, M.C., Olson, R.L. & Dingus, 
T.A., ``The Sleep of Commercial Vehicle Drivers Under the 2003 Hours 
of-Service Regulations,'' Accident, Analysis and Prevention, Vol. 39, 
No. 6, November 2007, pp. 1140-1145. FMCSA-2004-19608-3977.

    This scientific finding about the dangers of restricted sleep is 
troubling because truck drivers were found to get less than 7 hours of 
sleep each day.\17\ This fact is supported by other research that has 
shown that adults in the general population who reported getting an 
average of less than 7 hours of sleep a day were more than twice as 
likely to report nodding off or falling asleep while driving in the 
previous 30 days compared to adults who received more than 7 hours of 
sleep.\18\ Lack of sleep among truck drivers explains the high levels 
of driver fatigue and fatigue-related crashes that occur. Advocates has 
opposed allowing the unrestricted use of a 34-hour restart because the 
unrestricted 34-hour restart permits drivers to maximize their work 
hours, up to 82 hours of work and driving on average each week, and 
contributing to driver fatigue.
---------------------------------------------------------------------------
    \17\ 2010 NPRM, 75 FR 82176 (``In the Virginia Tech Transportation 
Institute (VTTI) naturalistic driving study of CMV drivers operating 
under the 2003 rule, measured sleep averaged 6.15 to 6.28 hours (the 
average includes both work days and days off); the average on work days 
was 5.6 hours.'' Citing Hanowski et al.).
    \18\ ``Unhealthy Sleep-Related Behaviors--12 States, 2009,'' 
Centers for Disease Control and Prevention, MMWR vol.60/No.8, p. 236 
(March 4, 2011); Adults who reported obtaining less than an average of 
7 hours of sleep per 24-hour period also showed a 39 percent increase 
in the likelihood that they would unintentionally fall asleep during 
the day at least once in the prior 30 days compared to adults who 
obtained more than an average of 7 hours of sleep.
---------------------------------------------------------------------------
    Advocates favored rescinding unfettered use of the 34-hour restart 
because rather than provide workers with needed rest, it in fact 
increases the hours they can drive and work from 70 to 82 hours a week. 
However, since the 34-hour restart has not been rescinded, Advocates 
supports the safety reforms adopted by the FMCSA in the 2011 HOS final 
rule which were only implemented one year ago in 2013. The reforms 
included three adjustments to the prior HOS rules: the implementation 
of a half hour rest break within 8 hours of reporting for duty, and two 
limitations on the use of the 34-hour restart. Prior to the 2011 final 
rule, drivers were able to restart their weekly driving hour limits by 
taking an abbreviated 34-hour off-duty period at any point in their 
schedule. The unfettered use of the restart enabled drivers to work and 
drive an average maximum work week of 82 hours. The 2011 final rule 
modified the 2003 HOS rule by requiring that at least 168 hours (7 
days) elapse from the start of one 34-hour restart before the next 
restart can be taken. The other safety reform requires that each 34-
hour restart include two time periods between 1 a.m. and 5 a.m. Both of 
these reforms to the restart option ensure that long-haul truck drivers 
have additional opportunities to rest and recover from their prior work 
week of 60 or 70 hours of driving, and additional hours of other work, 
before getting behind the wheel for the start of their next long work 
week.
    The FMCSA included an explanation of the necessity and benefits of 
these changes in the 2011 final rule:

        Because research has shown that long weekly work hours are 
        associated with a higher risk of crashes, sleep loss, and 
        negative health effects, the rule also limits the use of the 
        restart to once a week, which, on average, will cut the maximum 
        work week from 82 to 70 hours. The provision allows drivers to 
        work intensely for one week, but will require them to 
        compensate by taking more time off in the following week. 
        Research has long demonstrated that daytime sleep is shorter in 
        duration and lower in quality than nighttime sleep. The rule 
        requires any driver working long enough to need a restart to 
        take off at least 34 consecutive hours that include 2 periods 
        between 1 a.m. and 5 a.m., the window of circadian low. This 
        provision will give those drivers who both routinely work at 
        night and put in very long work weeks an opportunity to 
        overcome the chronic fatigue that can build up when working 
        nights.\19\
---------------------------------------------------------------------------
    \19\ Hours of Service of Drivers, Final Rule, FMCSA, 76 FR 81134; 
81135. (2011 Final Rule).

    Driver fatigue plays a significant role in a substantial number of 
truck crashes. In the 2011 HOS final rule, the FMCSA relied on the 
estimate that 13 percent of large truck crashes were due to fatigue. 
The Agency supported this estimate in its response to comments during 
the regulatory process when it identified that the Regulatory Impact 
Analysis (RIA) for the 2000 Notice of Proposed Rulemaking (NPRM) used a 
15 percent estimate. The RIAs for the 2003 and 2007 rules also used a 
15 percent estimate in the sensitivity analyses. Furthermore, the 
National Transportation Safety Board (NTSB) observed that ``truck 
driver fatigue may be a contributing factor in as many as 30 to 40 
percent of all heavy truck accidents.'' \20\
---------------------------------------------------------------------------
    \20\ 2011 Final Rule, 76 FR 81169.
---------------------------------------------------------------------------
    The FMCSA's estimate is based on an analysis of the Large Truck 
Crash Causation Study (LTCCS) in which it found that truck driver 
fatigue was coded as a factor in 13 percent of all crashes.\21\ In 
2012, there were 317,000 police reported motor vehicle crashes 
involving large trucks, including 3,464 fatal crashes, 73,000 injury 
crashes, and 241,000 property damage only crashes.\22\ At 13 percent 
involvement rate (one in eight crashes), fatigue was likely a factor in 
as many as 41,000 crashes. This is likely a conservative estimate 
considering that fatigue is notoriously hard to identify short of a 
confession or direct observation of a sleeping driver, something the 
agency acknowledged in the final rule when it noted that ``fatigue is 
difficult to determine after the fact''.\23\ Because their jobs are on 
the line, drivers will rarely acknowledge they were sleeping or 
fatigued when driving. Regardless, the sheer scale of the problem is 
clear evidence of the impact improvements in driver fatigue can have on 
safety and saving lives.
---------------------------------------------------------------------------
    \21\ Hours of Service Rule, Regulatory Impact Analysis, FMCSA, 
(Dec., 2011).
    \22\ 2014 Pocket Guide to large Truck and Bus Statistics, FMCSA 
(May, 2014).
    \23\ 2011 NPRM, 75 FR 82176.
---------------------------------------------------------------------------
    Moreover, at the direction of Congress in section 32301 of the 
Moving Ahead for Progress in the 21st Century Act (MAP-21), Pub. L. 
112-141, the FMCSA recently completed a field study of the restart 
provisions in the 2011 final rule. The findings of the study were 
conclusive that restarts with two or more nighttime periods, as 
required under the 2011 HOS final rule, helped to mitigate fatigue when 
compared with restarts with only a single nighttime period as had 
previously been allowed. The study found that drivers using 34-hour 
restarts with only one-nighttime period:

  <bullet> Exhibited more lapses of attention, especially at night.

  <bullet> Reported greater sleepiness, especially toward the end of 
        their duty cycles.

  <bullet> Showed increased lane deviations at night and in the morning 
        and afternoon.

  <bullet> Slept predominantly during the day.

  <bullet> Worked predominantly during the night.

  <bullet> Drove longer hours and typically at night.\24\
---------------------------------------------------------------------------
    \24\ Field Study on the Efficacy of the New Restart Provision for 
Hours of Service, FMCSA (Jan., 2014).

    In summary, the once-per-week limit on the use of the 34-hour 
restart, on average, cuts the maximum work week from 82 to 70 hours. 
This is still a lengthy work week which is nearly double the total work 
hours of the average American. The provision also still enables drivers 
to alternate extended work weeks with shorter work weeks, providing 
truck drivers with the flexibility necessary to meet the demands of 
today's freight industry. Similarly, the requirement to take two 
overnight off-duty periods between 1 a.m. and 5 a.m. ensures that if a 
driver uses the 34-hour restart to extend the work week beyond the 60- 
or 70-hour driving limit (depending on their work schedule) the rest 
period will contain two night-time periods to permit the driver to 
obtain the most restorative type of sleep. A minimum of two night-time 
periods is needed to prepare him/her for the rigors of the extended 
work week and the demanding job of safely operating a commercial motor 
vehicle weighing 80,000 lbs. on our highways shared with other 
motorists.
    On June 5, 2014, the Senate Committee on Appropriations held a 
Markup of the Transportation, Housing and Urban Development (THUD) 
Appropriations Act for 2015,\25\ during which Senator Susan Collins (R-
ME) introduced an amendment which prohibits the DOT from enforcing the 
safety reforms adopted by the FMCSA in the 2011 HOS final rule.\26\ The 
amendment passed despite opposition from Advocates and child, truck and 
highway safety groups, labor, truck crash victims, law enforcement, 
consumer, medical and public health organizations as well as several 
large trucking companies and U.S. DOT. The Collins Amendment, Section 
133 of the THUD bill, would not only undermine the safety reforms to 
the 34-hour restart that the expert agency, the FMCSA, has determined 
improve public safety on our highways, but it would also usurp the 
jurisdiction of the authorizing body, the Commerce Committee and this 
Subcommittee, by legislating a substantive change in Federal law on an 
appropriations bill. We oppose Section 133 of the Senate THUD bill on 
both safety and jurisdictional grounds and support the Booker Amendment 
which would retain a study of the 34-hour restart and strike the anti-
truck safety provisions from the Senate THUD bill. This amendment, 
which was introduced by Senator Cory Booker (D-NJ) on the Senate Floor 
on June 18, 2014, is co-sponsored by Senators Richard Blumenthal (D-
CT), Barbara Boxer (D-CA), Sherrod Brown (D-OH), Richard Durbin (D-IL), 
Dianne Feinstein (D-CA), Kirsten Gillibrand (D-NY), Mazie Hirono (D-
HI), Edward Markey (D-MA), Robert Menendez (D-NJ), Christopher Murphy 
(D-CT), Jay Rockefeller (D-WV), Brian Schatz (D-HI), Charles Schumer 
(D-NY) and Elizabeth Warren (D-MA). The THUD bill was pulled from 
consideration on the Floor on June 19, 2014.
---------------------------------------------------------------------------
    \25\ Transportation and Housing and Urban Development, and Related 
Agencies Appropriations Bill, 2015, S. 2438.
    \26\ Section 133 would temporarily suspend enforcement of the hours 
of service regulation related to the restart provisions that went into 
effect on July 1, 2013 and directs the Secretary to conduct a study of 
the operational, safety, health and fatigue aspects of the restart 
before and after July 1, 2013. S. Rep. 113-182 (June 5, 2014).
---------------------------------------------------------------------------
    Opponents of the recent changes to the HOS restart provisions have 
claimed that the new limitations force drivers to take a break when 
they aren't tired and then, following the break, force them back on the 
road all at the same exact time. These assertions are patently false 
and have no factual basis. First, the HOS rules do not govern sleep, 
but merely ensure that carriers must provide drivers with ample time 
for drivers to obtain needed rest. Second, the HOS provisions do not 
specify when a restart must be taken or when a driver must return to 
duty following a restart. The rule requires only that any restart taken 
must end no earlier than 5:00 a.m. at the end of the 34-hour restart 
period, but the rule does not require or suggest that a driver must 
start operating at that exact moment.
    Furthermore, the rule does not state in any way, shape, or form 
that drivers must all take their restarts at the exact same time on the 
exact same day. Restarts occur on different days of the week. If the 
claims of the rule's opponents were accurate, that would mean that all 
5.6 million commercial motor vehicle drivers operating in the U.S., 
across the myriad of industries they serve, would all be maximizing the 
use of their hours, would all be on the exact same schedule, and would 
all be returning to duty at the same time and same day of the week all 
year long. This just does not happen; this is not the way the system 
works. The fact is the restart limitations only affect a relatively 
small percentage of drivers, those operating on the most extreme 
schedules, and it is those drivers who need and benefit from the 34-
hour restart safety reforms in order to be able to perform their jobs 
properly and to drive their long hours safely.
    Due to the high levels of fatigue self-reported by truck drivers 
since the 34-hour restart was adopted, the increasing number of truck 
crashes, deaths and injuries that are occurring as the economy 
recovers, and the increasing level of freight tonnage being shipped by 
truck, the reasonable safety reforms to curb the negative impact of the 
34-hour restart are essential to protect the travelling public and the 
safety of truck drivers on our highways. No other mode of freight 
transportation comes close to causing the mortality and morbidity toll 
of truck crashes. It is not acceptable, agreeable or reasonable that 
special trucking interests are asking the public, professional truck 
drivers and lawmakers to accept these enormous losses as a cost of 
doing business in moving freight by trucks across our country.
Serious Problems Plague the Credibility and Reliability of the DOT 
        Comprehensive Truck Size and Weight Limits Study
    The American people are clearly opposed to having larger trucks on 
the highways besides them. A May 2013 public opinion poll by Lake 
Research Partners found that 68 percent of Americans oppose heavier 
trucks and 88 percent of Americans do not want to pay higher taxes for 
the damage caused by heavier trucks.\27\ Attached to my testimony is a 
summary of public opinion polls that show the high-levels of opposition 
to bigger, heavier trucks that the American public has steadily 
maintained over the past 19 years. I request that this document be 
placed in the hearing record. In MAP-21, Congress required the 
Secretary of Transportation to conduct a comprehensive study of truck 
size and weight issues (Study) including the safety performance of 
trucks that would be bigger or heavier (or both) than current truck 
size and weight configurations.\28\ This Study is intended to advise 
Congress and the American people about whether allowing larger trucks 
on the highway is a wise policy choice. That is why we are so concerned 
about the incredibly inadequate manner in which this Study has been 
conducted to date. The Study has run into serious problems in its 
approach and methodology; these issues cannot be ignored and must be 
resolved before the Study is completed.
---------------------------------------------------------------------------
    \27\ Memo Re: Increasing the legal weight for trucks in the U.S., 
Lake Research Partners (May 7, 2013), available at http://
www.trucksafety.org/images/sts2013/sts2013-lr-memo-tsc
.pdf.
    \28\ Section 32801, Pub. L. 112-141 (Jul. 6, 2012).
---------------------------------------------------------------------------
    The Study is being conducted by the Federal Highway Administration 
(FHWA), a modal Administration within the DOT. The Study ran into 
problems from the outset when the FHWA did not publish a public bid 
notice or issue an open public request for proposals (RFP), but rather 
sent the contract terms and solicitation to a select group of just four 
contracting companies. While not exactly a ``no-bid'' contract, the 
letting of the contract and restricting the pool of consultants was not 
a transparent transaction. Moreover, the contractor selected through 
this closed bid process came with a built-in bias against existing 
truck size and weight limits. The general contractor selected has 
previously performed studies for several states and, in each and every 
instance, found that the states could and should increase truck size or 
weight limits, or both, on state roads. The contractor's reports also 
promoted and encouraged increases in Federal size and weight 
limits.\29\ The prior history and record of the contractor on these 
specific issues should have immediately raised red flags. The 
contractor's clear track record of support for increases in truck size 
and weight at the state level should have disqualified the company from 
consideration as the general contractor for the Study.
---------------------------------------------------------------------------
    \29\ Study of Impacts Caused by Exempting the Maine Turnpike and 
the New Hampshire Turnpike from Federal Truck Weight Limits, June 2004; 
Northern Minnesota/Northwestern Wisconsin Regional Freight Plan, Nov. 
2009; I-15 Corridor System Master Plan Freight: Trucks, June 2011; I-70 
Dedicated Truck Lanes Feasibility Study Phase 2 Report, High 
Productivity Vehicle (HPV) Scenario Guidance 2011.
---------------------------------------------------------------------------
    Criticism of the Study plan has also come from the National Academy 
of Sciences (NAS) Peer Review Committee on the Comprehensive Truck Size 
and Weight Limits Study. The NAS established a Peer Review Committee at 
the request of DOT after safety groups demanded an outside review of 
the DOT study plan and implementation of the Study. We believed it 
necessary to have an independent review of, and check on, the work 
performed by the Study contractor and the FHWA supervisory staff by 
outside experts. Then-Transportation Secretary Ray LaHood agreed. The 
NAS Peer Review Committee was asked to file two reports, one after the 
initial phase of the Study and another after the Study is completed but 
still in draft form.
    The report on the initial phase of the project was issued by the 
NAS Peer Review Committee in March 2014 and it critiqued the approach 
taken by FHWA and its contractor in the Study plans and literature 
searches (desk scans) in each of the five subject matter areas that are 
part of the Study.\30\ While such initial phase reports are usually 
only a few pages in length, the NAS Peer Review Committee issued an 
extensive 51-page report (NAS Report) on the initial phase of the Study 
finding numerous and serious problems and errors in the work 
performed.\31\ The entirety of the criticisms and problems found by the 
Peer Review Committee in the NAS Report are too extensive to list here. 
I will provide some examples taken from the NAS Report's review of the 
Highway Safety and Bridge subject matter areas. A more complete summary 
of all the NAS Report criticisms of the Study are attached to my 
testimony, which I also request be submitted for the hearing record.
---------------------------------------------------------------------------
    \30\ The five subject matter areas consist of: Highway Safety and 
Truck Crash, Bridge Structure, Pavement, Modal Shift, Enforcement and 
Compliance.
    \31\ Review of U.S. Department of Transportation Truck Size and 
Weight Study, First Report: Review of Desk Scans (NAS Report), National 
Academy of Sciences, Transportation Research Board (March 31, 2014).
---------------------------------------------------------------------------
    With regard to Highway Safety, the NAS Report pointed out that the 
Study plan and the desk scan for the Highway Safety area neglected, 
without any explanation, to include a number of pertinent and well-
known studies by credible researchers on truck crash severity and brake 
defects, including case-control studies that are the most valuable 
means of controlling for driver experience and driving records in 
analyzing crash risk.\32\ Moreover, the Study plans and desk scans also 
inexplicably ignored the FHWA's own previous study of truck size and 
weight issues conducted in 2000 which concluded that longer combination 
vehicles have a statistically significant (11 percent) higher crash 
rate than single-trailer trucks.\33\
---------------------------------------------------------------------------
    \32\ NAS Report, pp. 35-36.
    \33\ Comprehensive Truck Size and Weight Study (2000 DOT Study), 
FHWA-PL-00-029, vol. III, p. VIII-5, U.S. Department of Transportation 
(August, 2000).
---------------------------------------------------------------------------
    The NAS Report also pointed out that while the desk scans included 
references to regulations in foreign countries that permit longer 
combination vehicles (LCVs), ``the review of safety research does not 
cover studies of the effectiveness of such regulations in mitigating 
hazards associated with larger trucks.'' \34\ These are just a few of 
the criticisms raised in the NAS Report in the safety area. The Study 
plans and desk scans also failed to identify a more recent analysis 
that indicates that double-trailer trucks have about a 15 percent 
higher fatal crash rate than single-trailer combinations, and that 
single-trailer trucks with six or more axles have an extremely high 
fatal crash rate compared to the overall single-trailer truck fatal 
crash involvement rate.\35\ The type of omissions noted in the NAS 
Report indicates a distinct and seemingly deliberate pattern of 
overlooking safety information and data that show the negative aspects 
of longer, heavier trucks while including all information that might be 
considered favorable to longer, heavier trucks.
---------------------------------------------------------------------------
    \34\ NAS Report, p. 33.
    \35\ An Analysis of Truck Size and Weight: Phase I--Safety, 
Multimodal Transportation & Infrastructure Consortium (Nov. 21, 2013).
---------------------------------------------------------------------------
    Advocates has criticized the reliance of the Study on voluntary 
industry-supplied data provided by selected segments of the trucking 
industry because it introduces bias into the Study data analysis. 
Voluntary data and information cannot be independently verified and 
likely exclude unfavorable negative data and information that 
proponents of longer, heavier trucks may not wish to provide. Moreover, 
the source of the data and information is a stakeholder with a strong 
economic interest in the outcome of the Study and therefore, the use of 
voluntary industry-provided data is unacceptable.
    In addition, Advocates is concerned with the use of a static 
``snapshot'' of freight tonnage, ignoring estimated future increases in 
truck freight shipments. This assumption allows the Study to conclude 
that heavier/larger trucks, which carry more freight, will make fewer 
trips and result in fewer trucks on the road. This is a false premise. 
The number of registered trucks in the U.S. has continually increased, 
including after each past increase in truck size and weight limits.\36\ 
FHWA confirms this trend documenting that the number of large trucks 
increased by nearly 42 percent between 1987 and 2002, and that the 
vehicle miles traveled (VMT) by large trucks increased by 50 percent 
over the same time period.\37\
---------------------------------------------------------------------------
    \36\ ``Bigger, Heavier Trucks Just Means More Trucks That Are 
Bigger and Heavier,'' Advocates for Highway and Auto Safety (Dec. 
2013).
    \37\ Freight Facts and Figures 2011, p. 32, Table 3-7, FHWA Office 
of Freight Management and Operations, FHWA-FOP-12-002 (Nov. 2011).
---------------------------------------------------------------------------
    For the Study, the FHWA has adopted a ``no forecasting policy'' 
with regard to future freight tonnage shipped by truck. This decision 
contradicts the FHWA's own estimate of a significant increase in 
shipments--a 63 percent increase in truck freight by 2040.\38\ 
Therefore, the Study is at complete odds with what will occur in the 
real world--there will be more large trucks, not fewer large trucks, 
carrying freight in the future, and that an appreciable percentage of 
those truck trips will be made by heavier and/or larger, longer truck 
combinations depending on the analysis of the Study. This fact cannot 
and should not be ignored in the analysis of the Study. In addition, 
since the estimated increases in freight demand also predict that 
trucking will be the predominant mode for most of the increases in 
freight movement--and trucking is, comparatively, the most dangerous 
mode from a safety standpoint--the shift to larger/heavier trucks may 
exacerbate the significant safety losses already incurred in trucking 
operations.
---------------------------------------------------------------------------
    \38\ Freight Facts and Figures 2012, p. 9, Table 2-1, FHWA Office 
of Freight Management and Operations, FHWA-FOP-13-001 (Nov. 2012).
---------------------------------------------------------------------------
    Failure to take expected growth of freight into account is 
unrealistic and objectionable and will severely damage the validity of 
the Study, limit its use as a policy tool, and provide misleading 
results to Congress.
    Additionally, the Study is using crash and operating data on LCVs 
currently conducted in sparsely populated, rural states and carried out 
under special controls and restrictions. This data cannot be readily 
transferred or extrapolated for application to more densely populated 
states and urban areas as the 2000 DOT Comprehensive Truck Size and 
Weight Study clearly pointed out.\39\ Yet, this is exactly what FHWA 
intends to do in the Study. The safety performance of extra-long double 
and triple-trailer trucks operating in a state like Wyoming should not, 
indeed cannot, be used to support conclusions about the safety 
performance of these gigantic rigs operating in densely populated, more 
urban states in the eastern United States.
---------------------------------------------------------------------------
    \39\ 2000 DOT Study, vol. III, p. VIII-6.
---------------------------------------------------------------------------
    The NAS Report also identifies many other problems in its review of 
the bridge structure desk scan, and validates criticisms made by 
Advocates and many others that the methods employed in the Study are 
not objective or comprehensive. For example, the NAS Report:

  <bullet> Points out that the bridge desk scan ``does not include a 
        comparative evaluation of alternative methods of assessing 
        bridge costs of changes in size and weight limits[,]'' \40\ and 
        ``does not review the results of past studies of the effects of 
        changes in truck traffic on bridges.'' \41\
---------------------------------------------------------------------------
    \40\ NAS Report, p. 11.
    \41\ Id.

  <bullet> Concludes that the references supplied in the desk scan 
        ``appear to be primarily those that are necessary to support a 
        predetermined plan of analysis'' \42\ rather than a search for 
        pertinent and related data and information on bridge 
        structures.
---------------------------------------------------------------------------
    \42\ Id.

  <bullet> States that the ``principal risk of changes in [weight] 
        limits is that the bridge inventories will decay more rapidly 
        than expected[,]'' \43\ yet the bridge desk scan ``does not 
        identify methods or data sources to support estimates of the 
        impacts of changes in [weight] limits on bridge barriers, 
        medians barriers, or railings.'' \44\
---------------------------------------------------------------------------
    \43\ Id., p. 12.
    \44\ Id.

    It appears that the Study authors do not feel the need to review or 
document how they plan to estimate bridge deterioration costs that 
result from any specific change in truck weight limits. Perhaps they 
have a preconceived view which is not supported in the desk scan or 
maybe they are making it up as they go along. The lack of transparency 
in the process prevents us from knowing the answer to this conundrum.
    The final example I will mention of the problems in the bridge desk 
scan critiqued in the NAS Report is the fact that the Study authors 
plan to base the entire national bridge analysis on the 2010 District 
of Columbia Department of Transportation (DCDOT) truck size and weight 
study. However, as the NAS Report points out, that particular study is 
unpublished. It is unknown just how the analysis performed for an urban 
jurisdiction with fewer than 300 bridges will apply to and affect the 
national bridge inventory of over 600,000 bridges. Since the DCDOT 
truck size and weight analysis is unpublished, it is unknown if the 
methodology used in that analysis, even with modifications, has been 
tested and would be successful at producing an accurate analysis and 
national estimate. In short, it is ludicrous for a national, and 
supposedly comprehensive, truck size and weight study to rely on a 
bridge study conducted in an urbanized city and an unpublished and 
unverified means of analysis for a critical and essential portion of 
the Study.
    The NAS Peer Review Committee Report made the following over-
arching points about deficiencies of the Study:

  <bullet> The available methods of analysis for use in the Study have 
        ``significant weakness'' which have not been addressed.\45\ The 
        use of these compromised methods will impact the ability of the 
        study to predict the results of changes in truck size and 
        weight regulations and the Study conclusion will be of limited 
        use in crafting future policy.
---------------------------------------------------------------------------
    \45\ Id., p. 2.

  <bullet> The Study has been conducted in a backwards fashion, with 
        the Study plans and methods of analyses determined before the 
        desk scan review of available research and information was 
        performed, stating that ``in most cases the selection of 
        methods appears not to have been a consequence of the desk 
        scans.'' \46\ This calls into question the bias on the part of 
        the Study team to rely on pre-determined methods.
---------------------------------------------------------------------------
    \46\ Id., p. 1.

  <bullet> Each of the five desk scans, which are supposed to be the 
        foundation of the Study, was lacking in at least one of three 
        main elements; survey of current methods and synthesis of state 
        of the art, identification of data needs and data availability, 
        and synthesis of past results. ``None of the desk scans fully 
        provides all three of these elements.'' \47\
---------------------------------------------------------------------------
    \47\ Id., pp. 1-2.

  <bullet> Inadequate time to complete needed evaluation and 
        development of appropriate methods and data. ``The constrained 
        schedule imposed by the congressional study charge may have 
        precluded a more systematic approach to evaluation and 
        selection of methods.'' \48\
---------------------------------------------------------------------------
    \48\ Id., p. 1.

    In summary, the FHWA should not complete the current truck size and 
weight Study, and Congress should not consider, debate or adopt any 
changes whatsoever in Federal truck size and weight laws, unless and 
until the DOT eliminates all known and inherent biases, implements 
major revisions in the approach and methodology, uses only 
statistically valid data, and adopts essential corrective actions that 
allow a thorough public review of all draft technical studies, reports 
and public comments. This Study will influence Federal and state 
transportation policy, working conditions for truck drivers and law 
enforcement, national freight and intermodal investments, clean air and 
fuel economy goals, and the public health and safety of our families 
for decades to come. Because the flaws are so significant and the 
process lacks adequate transparency, at this point in time Advocates 
recommends that the Study be stopped until Congress and the public are 
assured that corrections have been made, a new unbiased contractor has 
been selected to manage the Study, and that the findings are unbiased, 
unimpeachable and unchallengeable.
    Mr. Chairman, over the past year I have had the honor of being a 
member, appointed by Secretary of Transportation Ray LaHood, of the 
National Freight Advisory Committee (NFAC),\49\ which was established 
to assist in the development of a national freight strategic plan and 
which is comprised of representatives from the trucking, shipping, 
aviation, rail, labor, elected officials, academia, ports, 
environmental and safety communities. The NFAC was charged with making 
policy recommendations to the Secretary of Transportation concerning 
freight movement to advance safe and efficient freight transportation 
through intermodal solutions. As part of our deliberations, we 
highlighted, as a high priority, the need for research of future 
forecasting that considers changes in demographics, buyer behavior, 
manufacturing practices, and other factors that could restructure 
current freight supply and demand patterns. The complexity of players 
and stakeholders, as well as the interdependencies involved in modern 
supply chains was also fundamental to our considerations. Of utmost 
importance was the projected steep increase in freight demands expected 
to take place by 2040. Additionally, we stressed the need for 
improvements in data collection. In fact, in our recommendations 
submitted to Secretary Foxx on June 12, 2014, we wrote, ``The lack of 
sufficient funding and lack of access to industry raw or complete data 
has persistently undercut the timeliness and completeness of freight 
data as a basis for public and private sector decision-making.'' \50\ 
In contrast to the efforts of the Advisory Committee, the DOT appears 
content with using data in its analyses of freight issues that ignore 
real world conditions. In addition, DOT has taken few steps to upgrade 
its data systems and tear down the silos within DOT that could result 
in significant improvements in the coordinated use of transportation 
data, particularly with regard to freight policy.
---------------------------------------------------------------------------
    \49\ Notice of Establishment of National Freight Advisory Committee 
(NFAC or Committee) and Solicitation of Nominations for Membership, 78 
FR 11727 (Feb. 19, 2013).
    \50\ Recommendations to U.S. Department of Transportation for the 
Development of the National Freight Strategic Plan, NFAC, p. 15 (June 
12, 2014).
---------------------------------------------------------------------------
The DOT Reauthorization Bill, GROW AMERICA Act
    The Department of Transportation (DOT) surface transportation 
reauthorization legislation, the GROW AMERICA Act,\51\ introduced in 
the House as H.R. 4834, has a number of provisions related to motor 
carrier safety that Advocates supports including: Section 5102, Motor 
Carrier Operations Affecting Interstate Commerce, which clarifies the 
scope of out-of-service orders; Section 5104, High-Risk Carrier 
Reviews, which focuses enforcement on the highest risk motor carriers; 
and, Section 5302, Jurisdiction Over Brokers of Motor Carriers of 
Passengers, which extends certain aspects of the FMCSA's regulatory 
jurisdiction to brokers of carriers of passengers.
---------------------------------------------------------------------------
    \51\ Generating Renewal, Opportunity, and Work with Accelerated 
Mobility, Efficiency, and Rebuilding of Infrastructure and Communities 
throughout America Act (GROW AMERICA Act), DOT proposed reauthorization 
legislation, available at http://www.dot.gov/sites/dot.gov/files/docs/
DOT_surface_reauth-FINAL.pdf.
---------------------------------------------------------------------------
    Advocates also supports Section 5506 which would allow the DOT 
Secretary to determine whether to issue regulations to govern non-motor 
carrier contractors that exercise operating control over motor carrier 
operations. To the extent that non-motor carriers exercise control over 
motor carrier operations, they should be regulated and subject to 
violations, fines and penalties for failure to adhere to safety 
regulations, especially since contractors may have little or no 
experience regarding commercial motor vehicle operations. However, the 
provision as written, only states that the Secretary ``may'' issue such 
regulations while Advocates believes that the Secretary ``should'' be 
required to issue regulations to clarify that contractors are subject 
to the same safety and regulatory requirements when exercising control 
over motor carrier operations.
    I would like to focus my testimony on three important statutory 
changes that have been proposed by the U.S. DOT in the GROW AMERICA Act 
which Advocates opposes.
    First, Advocates opposes amending 49 U.S.C. Sec. 31144(g)(1)(A) and 
(g)(1)(B) to delete the mandatory requirement that new entrant motor 
carriers receive an initial safety review within a reasonable period of 
time. Just two years ago, Congress established the requirement in 
Section 32102 of the MAP-21 law to mandate that safety reviews of new 
operators must be conducted within 12 months for new freight motor 
carriers and within 120 days for new passenger-carrying motor carriers 
or intercity bus companies. There is an important public safety 
rationale for this requirement. While new entrant carriers should be 
permitted to enter the industry, since their safety performance is 
unknown, they should be subject to a timely safety review so that 
unsafe motor carriers are not able to operate for extended periods of 
time without any safety review. The National Transportation Safety 
Board (NTSB) has expressed concerns with delays in new entrant safety 
audits for more than a decade.\52\ The NTSB has raised this concern as 
recently as two years ago in a report of a crash which killed four 
people and injured 58 when it stated:
---------------------------------------------------------------------------
    \52\ Highway Accident Report: Collision of a Greyhound Lines, Inc. 
Motorcoach and Delcar Trucking Truck Tractor-Semitrailer Loraine, Texas 
June 9, 2002, NTSB Report HAR-03/01, p. 37, ``The Safety Board 
concludes that by conducting safety audits up to 18 months after 
carriers begin operation, the FMCSA potentially allows unsafe carriers 
to operate without oversight and without the benefit of the educational 
and technical assistance that the FMCSA provides during the safety 
audit.''

        The report notes that new entrants need not demonstrate their 
        capability to operate safely before they begin carrying 
        passengers, but the safety check must occur within 18 months of 
        the commencement of operations. In 18 months, however, a 
        carrier with two 50-passenger buses running two trips a day 
        could have carried more than 100 thousand passengers before 
        having its first safety examination; and the motor carrier 
        involved in this accident operated for 22 months before its 
---------------------------------------------------------------------------
        first safety check.

    The public would be appalled if airlines could carry passengers 
before demonstrating their ability to do so safely. Query why a motor 
carrier should be allowed to carry passengers before demonstrating its 
safety fitness.\53\
---------------------------------------------------------------------------
    \53\ Accident Report: Motorcoach Roadway Departure and Overturn on 
Interstate 95 Near Doswell, Virginia, May 31, 2011, NTSB Report HAR-12/
02.
---------------------------------------------------------------------------
    In proposing to change the word ``shall'' to ``may'' in Section 
5105 of the GROW AMERICA Act, New Entrant Safety Audits, DOT would make 
such initial safety reviews discretionary, rather than mandatory. 
Adopting the proposed change would mean that an initial safety review 
could be conducted at any time or not at all. Weakening the requirement 
that was just enacted into law two years ago is detrimental to highway 
safety, is not justified with factual arguments by DOT and should be 
rejected.
    Second, Advocates opposes the changing of long-standing existing 
law, 49 U.S.C. Sec. 31136(a)(4), regarding the standard for safety 
regulations. Current law requires that, among other things, minimum 
safety regulations issued by the DOT shall ensure that ``the operation 
of commercial motor vehicles does not have a deleterious effect on the 
physical condition of the operators.'' This has been the law since 
first enacted in the Motor Carrier Safety Act of 1984,\54\ and it has a 
well-established meaning that has been interpreted by the courts. The 
DOT proposes to replace the words ``deleterious effect'' with 
``significantly adverse effect'' which clearly appears to raise the 
legal bar on challenges to Federal regulations that impact the physical 
and medical condition of drivers.
---------------------------------------------------------------------------
    \54\ Motor Carrier Safety Act of 1984 (MCSA), Pub. L 98-554 (1984).
---------------------------------------------------------------------------
    This change is specifically intended to bar the courtroom door to 
truck drivers and others who are concerned about the impact that 
Federal regulations have on the physical and medical conditions of 
commercial drivers. It is not a technical amendment but one clearly 
aimed at making it significantly more difficult for concerns about 
driver working conditions to be raised in the context of Federal 
regulations. We believe it is proposed in response to the well-founded 
claims raised in the HOS lawsuits that pointed out the deleterious 
effect of long work hours on drivers. If enacted into law, it will 
shield the Federal regulations from challenges based on the medical 
evidence which shows that commercial drivers could be negatively 
affected, physically or medically by a proposed regulation. The result 
of the wording change will be to lower the effective level of 
protection afforded commercial drivers for physical and medical 
conditions under Federal regulations since challenges under section 
31136(a)(4) would be limited to only the most extreme situations. This 
does a disservice to truck drivers who have a difficult and physically 
demanding job in one of the most dangerous occupations, and it should 
be rejected by Congress.
    Third, Section 5512, regarding Pre-Authority Safety Audits (PASA) 
of Mexican motor carriers,\55\ proposes to eliminate the requirement, 
which has been in effect for more than a decade, that a percentage of 
the PASAs and other safety-related reviews for Mexican motor carriers 
that wish to operate in the United States must be conducted in Mexico 
at the headquarters or operations hub of the motor carrier. Safety 
reviews and compliance reviews need to be conducted at the motor 
carriers' headquarters so that in addition to reviewing the books and 
records of the motor carrier, Federal safety inspectors can also 
inspect the carriers' maintenance facilities and the condition of 
available equipment. By permitting Mexican motor carriers to have 
safety reviews conducted at ``any location'' selected by the FMCSA, 
this may well mean that foreign motor carriers may not necessarily have 
on-site inspections or safety reviews conducted at the carrier's home-
base facility as is done for U.S. domiciled motor carriers. While this 
may ease the burden on DOT inspectors, it may not adequately ensure 
that the safety and procedures of foreign motor carriers will be 
adequately reviewed and inspected. This is especially troublesome as 
the three-year cross-border pilot program of Mexican trucking 
operations in the U.S. nears its end and a decision about the opening 
of the southern border becomes more imminent. DOT has not provided any 
adequate justification for recommending this major change.
---------------------------------------------------------------------------
    \55\ Audits and compliance investigations of Mexico-domiciled motor 
carrier.
---------------------------------------------------------------------------
    Finally, I would also like to state our firm opposition to any 
proposals which would dramatically overturn existing national freight 
policy by forcing states to allow 33 foot trailers resulting in longer 
and more dangerous double or tandem rigs exceeding 85 feet in length, 
or three trailers exceeding 115 feet in length. Longer trucks are 
inherently more dangerous to passenger cars. The sheer size of these 
longer trailers--which adds at least 10 feet to the length of current 
double or tandem rigs--has far reaching and significant implications 
for the safe use of highways, bridges and ramps. This change could also 
open the door to triple-trailer trucks using three 33 foot trailers, 
which would be well over 115 feet long, compared to the average length 
of a family car, which is only about 16 feet long. These excessively 
long trailers threaten motorists sharing the road with trucks due to 
the ``crack the whip'' effect, in which small changes in steering by 
the tractor are amplified and cause large swaying effects (side-to-side 
motion) in the last trailer behind the truck cab. Longer trailers will 
also result in more off-tracking, in which the rear trailers cross into 
adjacent lanes and interfere with oncoming traffic as well as traffic 
headed in the same direction of travel. They can also swing into 
opposing lanes on curves and when making right-angle turns. Moreover, 
bigger trucks never result in fewer trucks despite industry's claims. 
Over three decades of research and real world experience show that 
allowing bigger, heavier trucks always results in more trucks on the 
road. Currently 39 states (AL, AK, AR, CA, CO, CT, DE, GA, HI, IL, KS, 
KY, LA, ME, MD, MI, MN, MS, MO, NE, NH, NJ, NM, NY, NC, ND, OH, OK, PA, 
RI, SC, SD, TN, TX, VT, VA, WA, WV, WI) do not allow these longer 
trailers and they should not be forced to pay for expensive, wasteful 
infrastructure rebuilding to accommodate these oversized rigs on 
Interstate and freeway on-and off-ramps. Furthermore, industry-funded 
research which is being used to support increasing the size of trailers 
is neither objective nor unbiased. There have been no independent, 
peer-reviewed research and studies conducted on the operational and 
safety issues associated with the use of 33 foot trailers. Congress 
would never consider allowing a new drug on the market for public use 
solely based on one industry-sponsored study. Neither should the 
motoring public be used as human test subjects to conduct this research 
on longer trucks. We need look no further to see the destruction that 
can result in crashes involving current double-trailer trucks than the 
April 11, 2014, crash in Orland, California, when a Federal Express 
double-trailer combination truck crashed into a Silverado Stages 
motorcoach carrying 48 passengers, mostly high school students 
traveling to visit a college; the crash injured dozens and killed ten 
people including five teenagers.\56\ We strongly urge you to oppose any 
increases to Federal truck length policy. It is unsafe, not supported 
by data and unacceptable to the public.
---------------------------------------------------------------------------
    \56\ 48 People Involved in Bus and FedEx Truck Crash on Interstate 
5, CBS SF, Mercer, B., Apr. 11 2014, http://sanfrancisco.cbslocal.com/
2014/04/11/48-people-involved-in-bus-and-fedex
-truck-crash-on-interstate-5-1-still-missing/.
---------------------------------------------------------------------------
    Mr. Chairman, the Senate Committee on Commerce, Science and 
Transportation led by this Subcommittee has drafted and enacted some of 
the most significant lifesaving motor carrier laws that are protecting 
motorists and commercial drivers from death and injury. The FMCSA 
reauthorization provisions adopted in MAP-21 under the Subcommittee 
leadership of the late Senator Frank Lautenberg resulted in advancing 
overdue and needed reforms and improvements in truck and bus oversight 
and enforcement. With truck crash deaths and injuries climbing these 
past few years, it is critical to continue this legacy and address the 
unfinished truck safety agenda.
    We look forward to the opportunity of working with Members of this 
Subcommittee to meet the challenges of enacting commonsense and cost-
effective truck safety measures in the MAP-21 reauthorization bill. 
This concludes my testimony and I am prepared to answer any questions 
the Subcommittee Members may have.
                                 ______
                                 
 19 Years of Public Opinion Polls and the Response is Always the Same_
 Consistent, Convincing and Compelling Opposition to Increasing Truck 
                         Size and Weight Limits
2014
  <bullet> 73 percent of Illinois residents and 77 percent of Missouri 
        residents oppose increasing the national cap on truck weight 
        from 80,000 to 97,000 pounds.
      Source: SMART Heavy Truck Survey Series, March 2014

  <bullet> 80 percent of residents of the West Virginia 3rd District 
        and 69 percent of Wisconsin residents oppose increasing the 
        national cap on truck weight from 80,000 to 97,000 pounds
      Source: SMART Heavy Truck Survey Series, May 2014
2013
  <bullet> 68 percent of Americans are opposed to heavier trucks.

  <bullet> 88 percent of Americans oppose increased taxes to pay for 
        damage caused by heavier trucks.
      Source: Lake Research Partners Poll, May 2013

  <bullet> 75 percent of Kentucky residents oppose increasing the 
        national cap on truck weight from 80,000 to 97,000 pounds.

  <bullet> 78 percent of the residents of the Illinois 3rd District and 
        74 percent of the Pennsylvania 9th District oppose increasing 
        the national cap on truck weight from 80,000 to 97,000 pounds.

  <bullet> 72 percent of the residents of Kansas 1st and 2nd District, 
        the Iowa 3rd District, and the Colorado 4th District oppose 
        increasing the national cap on truck weight from 80,000 to 
        97,000 pounds.
      Source: Poll taken 2013, SMART Heavy Truck Survey Series, May 
            2014

  <bullet> 74 percent of the residents of the Indiana 4th District and 
        the Missouri 8th District oppose increasing the national cap on 
        truck weight from 80,000 to 97,000 pounds.
      Source: Poll taken 2013, SMART Heavy Truck Survey Series, March 
            2014
2011
  <bullet> 74 percent of Americans oppose the trucking industry's 
        efforts to have Congress change the current law and allow 
        heavier trucks on the roads.
      Source: Lake Research Partners Poll, April 2011

  <bullet> Nearly three quarters of registered voters oppose increasing 
        the national cap on truck size from 80,000 to 97,000 pounds.
      Source: Hart Research Associates, April 2011
2008
  <bullet> 66 percent of Americans oppose changing the current law and 
        allowing trucks carrying heavier loads on U.S. highways. 
        ``Support for the measure is anemic (only 16 percent favor the 
        efforts.) Opposition is deep and transcends gender, age, 
        political identification, and region.''

  <bullet> Eight out of ten (82 percent) Americans feel trucks pulling 
        double or triple trailers are more dangerous than those pulling 
        just a single trailer.
      Source: Lake Research Partners Poll, May 2008
2004
  <bullet> By 77 percent to 16 percent, the public opposes increasing 
        truck weight limits.

  <bullet> 80 percent of Americans believe that trucks with two or more 
        trailers are less safe than trucks with a single trailer.
      Source: Lou Harris Poll, June 2004
1998
  <bullet> By 71 percent to 21 percent, a majority of the American 
        people are willing to pay higher prices for goods in exchange 
        for tougher truck safety standards.
      Source: Lou Harris Poll, April 1998
1996
  <bullet> 88 percent of Americans oppose allowing bigger and heavier 
        trucks on the highways.

  <bullet> 80 percent are fully convinced that ``trucks pulling two or 
        more trailers are less safe than trucks pulling only one 
        trailer.''
      Source: Lou Harris Poll, May 1996

    Compiled by the Truck Safety Coalition, July 2014.
                                 ______
                                 
 National Academies of Sciences (NAS) Peer Review Committee Report on 
     the FHWA Comprehensive Truck Size and Weight Study Desk Scans
                  Highlights of NAS Report Criticisms
NAS Report Summary
    1. The desk scans (literature review) were performed to support the 
selected study methods rather than serving as the basis for the 
selection of an analysis method, which is the an established research 
practice. The desk scans often appear to be unrelated to the previously 
selected methods and serves little purpose other than to provide 
support for the previous determinations made in the study process.

        a. ``in most cases the selection of methods appears not to have 
        been a consequence of the desk scans; that is, the scans were 
        not on the critical path of the study.'' (P. 1 of NAS Report)

    2. The disconnect between the desk scans and study plans appears to 
be a first example of bias or failure of the study to be conducted 
properly, and may also reflect the tight schedule.

        a. ``The constrained schedule imposed by the congressional 
        study charge may have precluded a more systematic approach to 
        evaluation and selection of methods.'' (P. 1)

    3. Even where the method selected is the best available on-the-
shelf choice, no evaluation or comparison is made with other methods to 
support the decision to use the selected method, which may be a further 
indication of bias.

        a. ``Nevertheless, even in cases where the best practical 
        method is evident, comparisons with alternatives are advisable 
        in order to demonstrate the superiority of the method 
        selected.'' (P. 1)

    4. The NAS Report cited three elements that the desk scans were 
missing which should be included in the final report as follows:

        a. ``a synthesis of experience in applying alternative methods 
        of estimating each category of effect of changes in truck 
        characteristics, leading to an assessment of the current state 
        of understanding of the impact and needs for future research, 
        data collection, and evaluation''. (P. 2)

        b. ``a critical synthesis of quantitative results of past 
        prospective and retrospective estimates of each category of 
        effect.'' (P. 2)

        c. ``explain the sources of the differences between the new 
        USDOT estimates and those of past studies''. (P. 2)

    5. None of the desk scans contained all three of the elements which 
the NAS Peer Review Committee deemed necessary for the study to obtain 
``full value from past work.'' This shows a lack of completeness and is 
again evidence of bias.

        a. ``None of the desk scans fully provides all three of these 
        elements.'' (P. 1-2)

    6. The highway safety desk scan was lacking a method synthesis. The 
safety method synthesis which did appear incorrectly in the project 
plan lacked citations of the methods used. (P. 2)
    7. The NAS Report states the mandated timeline may be affecting the 
availability of optimal modeling approaches and data sources in a 
negative manner by forcing the use of only those methods that are 
readily available rather than developing better, optimal methods of 
study were a longer time-frame considered an option.

        a. ``In none of the five major analysis areas of the USDOT 
        study was the Committee able to fully identify modeling 
        approaches or data sources omitted from the desk scans that 
        would be clearly superior to those selected by the USDOT study 
        team (according to the descriptions of proposed analyses in the 
        project plans) and that would be available for use within the 
        congressionally imposed study deadline.'' (P. 2, emphasis 
        added)

    8. The methods being used have significant weaknesses and 
uncertainties which can have large consequences for the predicted net 
impact. These methodological weaknesses were identified over a decade 
ago and have not been addressed, revised or improved over the 
intervening years.

        a. ``The primary difficulties in projecting the consequences of 
        changes in truck size and weight limits are that the available 
        methods have significant weaknesses and that uncertainties that 
        are small in absolute terms (e.g., with regard to changes in 
        truck traffic volume and distribution resulting from a change 
        in regulations) can have large consequences for the net impact 
        of the regulatory change. For these reasons, the 2002 [National 
        Academy of Sciences] Transportation Research Board [TRB] 
        committee that reviewed past truck size and weight studies 
        concluded that ``it is not possible to predict the outcomes of 
        regulatory changes with high confidence'' (TRB 2002, 3). The 
        desk scans do not show that this shortcoming of such studies 
        has been greatly reduced. The recommended syntheses would be a 
        means of conveying the uncertainties in the USDOT report.'' (P. 
        2-3, emphasis added).
NAS Report Introduction
    1. The NAS Report specifically highlights the constraints on the 
study as a result of the congressional timeline.

        a. ``USDOT faces significant time and resource constraints in 
        completing the CTSW study.'' (P. 5)
NAS Report General Observations
    1. The NAS Report characterized the study plans as a ``missed 
opportunity'' and found that two elements were incomplete in most of 
the desk scans.

        a. ``However, as a whole, the scans represent a missed 
        opportunity. Two elements that are incomplete in most of the 
        desk scans would have been most useful in conducting the CTSW 
        study: (a) identification of alternative methods, tools, and 
        data for estimating impacts of changes in size and weight 
        regulations that might have been applicable in the 2014 study 
        or in future USDOT evaluations of these regulations and (b) 
        syntheses of past studies that indicate reasonable ranges of 
        values for impact estimates and allow comparison of the 2014 
        study's estimates with those of past studies.'' (P. 7, emphasis 
        added.)

    2. The NAS Report states that the study contractor appears to have 
formulated the study plans first and conducted the literature review 
(desk scans) second, which is the reverse of the normal procedure of 
searching for all relevant and available studies, data and information 
prior to making determinations about the best methods to be used. The 
desk scans evidence numerous flaws. The basis for selecting certain 
referenced works in the desk scans but not including other relevant 
studies is unclear. Many works cited are not relevant and there is a 
failure to reference the primary research literature, especially in the 
highway safety desk scan (P. 35). This is further evidence of pervasive 
bias and lack of objectivity and acceptable research practices. The 
desk scans appear to be little more than a document dump rather than a 
search for all applicable research on each topic in support of 
developing an approach. In many cases, the desk scans omitted critical 
research while including numerous unrelated works.

        a. ``In most cases, the desk scans do not appear to have been 
        instrumental in developing the study team's analysis plans but 
        rather to have been prepared after the plans had been decided 
        on.'' (P. 7, emphasis added)

    3. The NAS Report indicates that the time constraints of the study 
may have forced the approach taken in the desk scans. However, this may 
be a convenient cover for the contractor's selection of pre-determined 
methods. Had the recommendations of the previous NAS/TRB study (2002) 
been undertaken many of these shortcomings in the desk scans and 
project plans could have been addressed.

        a. ``This outcome of the desk scans may have been inevitable, 
        given the compressed time span of the study, which would have 
        necessitated early selection of analysis methods. If an ongoing 
        Federal program of monitoring and evaluation of trucking 
        regulations, as recommended by the 2002 TRB truck size and 
        weight study (TRB 2002, 6), had been in place, the priorities 
        and analysis alternatives for the 2014 study could have been 
        established at the outset.'' (P. 8)

    4. The desk scans should have included a synthesis of findings from 
past studies which would help identify ``which uncertainties [in 
estimated impacts] critically hinder decision making on the 
regulations'' (P. 8), and provide comparisons for findings of current 
study.
    5. The study needs coordination between subject areas, fails to 
explain the structure of the overall study, and does not ensure 
datasets used in multiple areas are used consistently (like weigh in 
motion data which is used in four areas; bridge, pavement, modal shift, 
enforcement).

        a. ``an overall or crosscutting desk scan and plan for the CTSW 
        study are needed to ensure that the work is coordinated and to 
        allow interested parties to understand the structure of the 
        study.'' (P. 9)

        b. ``For example, weigh-in-motion (WIM) data are needed in the 
        bridge, pavement, modal shift, and enforcement analyses. None 
        of the desk scans contains a complete discussion of WIM data 
        quality issues relevant to the study or of the accuracy of 
        weight data required for each of the study analyses.'' (P. 9)
NAS Report Comments on Individual Desk Scans
Bridge Structure
    1. Thoroughness:

        a. The desk scan is missing a comparison of alternative 
        methods, especially disconcerting in light of previous NAS/TRB 
        findings that methods in previous studies could not produce 
        satisfactory results. Without such a comparison, the 
        contractors are set to repeat the failures of the previous 
        study.

                i. ``The desk scan does not include a comparative 
                evaluation of alternative methods of assessing bridge 
                costs of changes in size and weight limits. This 
                omission is especially unfortunate if the conclusion of 
                the Committee that conducted the 2002 [NAS] TRB truck 
                size and weight study (TRB 2002, 3) that `the methods 
                used in past studies have not produced satisfactory 
                estimates of the effect of changes in truck weights on 
                bridge costs' is accepted.'' (P. 11)

        b. References selected appear to only support the pre-selected 
        method of analysis rather than being a summary of available 
        methods, data, etc. in support of the selection of an optimal 
        method. Another example of bias.

                i. ``The references selected for inclusion in the 
                bibliography appear to be primarily those that are 
                necessary to support a predetermined plan of analysis 
                for the CTSW study.'' (P. 11, emphasis added)

        c. The desk scan ignores relevant past studies.

                i. ``The desk scan does not review the results of past 
                studies of the effects of changes in truck traffic on 
                bridges.'' (P. 11)

        d. The desk scan does not identify data resources and methods 
        for carrying out all of the analyses that are required by 
        statute.

                i. ``The desk scan does not identify resources for 
                carrying out each of the MAP-21 required analyses 
                related to bridges in the CTSW study. Estimates of the 
                costs to the public of the bridge impacts of changes in 
                truck traffic (e.g., costs of traffic disturbance of 
                bridge closings and bridge construction) and assessment 
                of the owners' abilities to recover their costs are 
                presumably being carried out in other tasks of the CTSW 
                study; methods of conducting such estimates are not 
                discussed in the bridge desk scan (although some of the 
                references cited may contain estimates of these 
                costs).'' (P. 12)

        e. In addition, the desk scan did not identify methods or data 
        sources to support related analyses of impacts on barriers, 
        medians, or railings. (P. 12)

        f. The District of Columbia Department of Transportation 
        (DCDOT) study, which is to serve as the basis for the bridge 
        analysis, is unpublished and there is no summary in the desk 
        scan. DC is a small largely urban region with a limited number 
        of bridges.

                i. ``The desk scan describes a 2010 truck size and 
                weight study conducted for the District of Columbia 
                Department of Transportation (DCDOT) as (p. 18) `a 
                basis of this study.' The DCDOT study is unpublished, 
                and the absence of a summary of it in the desk scan 
                appears to be a significant omission.'' (P. 12, 
                emphasis added.)

        g. The desk scan did not cite all major relevant sources that 
        are applicable or describe the shortcomings of the data. (P. 
        12) These omissions are not explained.

    2. Missing Literature, Studies, Models or Data:

        a. The desk scan is missing in-depth reviews of studies of 
        deterioration, while other cited studies aren't clearly related 
        to the topic.

                i. ``The desk scan lacks in-depth review of studies of 
                causes of deck deterioration, deck deterioration 
                modeling, and deck deterioration quantification. The 
                relevance to the CTSW study of some of the references 
                on decks cited in Section 3.3 of the desk scan is 
                unclear.'' (P. 14)

        b. The desk scan review regarding fatigue is focused on fatigue 
        vulnerability and not on expected change in fatigue life due to 
        increased truck loads.

        c. The review of methods and results of past estimates of 
        bridge shear effects is insufficient.

        d. The resources cited for Cost Allocation Study Methods and 
        Methodology appear insufficient to execute the analyses 
        planned.

    3. Interpretation of Literature Reviewed:

        a. The desk scan appears to misinterpret at least two of the 
        cited studies. At least one of which could offer an alternative 
        analysis method which should have been compared with the 
        selected analysis method.

    4. Conclusions:

        a. ``Desk scan lacks synthesis of analysis methods or of 
        results of past estimates concerning the effects of changes in 
        size and weight limits.'' (P. 15)
Pavement
    1. Thoroughness:

        a. A more systematic review of certain topics would have 
        reinforced creditability of estimates and ensure that 
        alternative methods were not overlooked. The errors and 
        omissions of the desk scan noted below reflect either 
        incompetence on the part of the contractor or willful omission 
        in support of pre-selected methods.

                i. No citation of cost model being used and no 
                comparison with alternative models.

                ii. No review of the data required for the modeling or 
                alternative data sources, and no discussion of 
                shortcomings of the data and method which could affect 
                reliability of impact estimates.

                iii. Pavement sections identified for use in the 
                analysis may not be appropriate or may be outdated.

                        1. ``many LTPP [long-term pavement performance] 
                        sections [which the study plans to use] are 
                        more than 20 years old or were special test 
                        sections, and therefore they may not be typical 
                        of current practices.'' (P. 18)

                iv. Studies and programs noted in the project plan do 
                not appear in the desk scan.

                v. There is no discussion of the selected pavement 
                model program in terms of its known drawbacks and 
                limitations, a standard feature of good research and 
                scientific method. No comparison with alternative 
                models.

    2. Missing Literature, Studies, Models or Data:

        a. The committee indicated that there is research which is 
        ongoing and will not be available in time for the study.

        b. This ongoing research should have been cited to indicate 
        limitations of present model and likely future improvements.

    3. Interpretation of Literature Reviewed:

        a. One-third of the desk scan is devoted to wide tire research 
        while the model selected for analysis is unable to quantify 
        wide tire impacts. No discussion of this contradiction is 
        included. The industry is moving towards increased use of wide 
        tires and the inability of the model selected for the analysis 
        to address this is a serious problem.

    4. Conclusions:

        a. While the NAS Report concludes that the method selected is 
        ``reasonable'', it is not necessarily the correct, the most 
        appropriate, or even the best available method. The NAS Report 
        points out the following problems with the desk scan:

                i. Synthesis of past studies is cursory.

                ii. Desk scan needs synthesis of alternative methods to 
                compare with selected method of analysis.

                iii. Desk scan needs synthesis of estimates of impacts.

                iv. While the model selected for the analysis appears 
                correct, its success will depend on the selection of 
                sample pavements not being biased.

                v. Desk scan mentions other analysis methods as a 
                backup but provides no indication that these 
                alternative methods are workable.
Modal Shift
    1. Thoroughness:

        a. The models selected have weaknesses which were identified in 
        the prior truck size and weight study (FHWA 2000). The 
        congressional timeline or bias may be leading the contractor to 
        use a sub-optimal method.

                i. ``The diversion projections of the mode shift models 
                are not compared in terms of their utility or 
                credibility for their intended applications. This 
                omission is especially important in view of the 
                limitations of the Intermodal Transportation and 
                Inventory Cost (ITIC) model chosen for use in the CTSW 
                study.'' (P. 23)

                        1. No discussion/comparison of previous 
                        results, reliability, uncertainty, or 
                        projections with outcomes.

                        2. Problems with the ITIC model noted 
                        previously in the 2000 USDOT study.

                        3. The committee notes that the time schedule 
                        of the study prevents development of an 
                        aggregate econometric model.

                        4. No discussion of the suitability of the ITIC 
                        model to perform the analyses proposed.

                ii. More mode choice models, beyond those only used in 
                past truck size and weight evaluations, must be 
                reviewed. Alternative methods have been overlooked.

                        1. No overview of fundamental concepts of modal 
                        diversion beyond previous studies of truck size 
                        and weight.

                        2. Desk scan is not comprehensive.

                                a. The scan includes hardly any sources 
                                from the academic literature, which is 
                                unfortunate since recent studies on 
                                logistics analysis may help inform the 
                                ITIC model.

                        3. Desk scan lacking in discussion and 
                        references for effect of limit changes on 
                        volume of freight traffic.

                                a. NAS Report notes an ongoing research 
                                project which may review the ITIC model 
                                and will be ready at the end of 2014.

                iii. Methods of estimating the effects of mode shift on 
                other areas of the study (safety, cost, pavement, etc.) 
                are not adequately covered.

                        1. Effects on infrastructure not covered by 
                        that topic analysis must be addressed (for 
                        example changes to rail yards, transfer 
                        facilities).

                        2. Effect on cost responsibilities to shippers, 
                        carriers and consumers.

                        3. Effect on fuel efficiency: need to examine 
                        bottom-up vs. top-down analysis which has been 
                        shown to have problems.

                        4. Effect on environment focused only on 
                        greenhouse gases but not on other particulates.

    2. Missing Literature, Studies, Models or Data:

        a. The NAS Report points out a number of studies which were not 
        referenced in terms of alternative models and estimates of 
        various effects.

    3. Interpretation of Literature Reviewed:

        a. The desk scan contained inadequate comparisons of ITIC model 
        and alternative models, or potential shortcomings of ITIC 
        model.

        b. Limitations and assumptions used in the ITIC model must be 
        addressed.

    4. Conclusions:

        a. Limited synthesis of the literature.

                i. Desk scan needs a synthesis of alternative methods, 
                reliability and applicability to establish the state of 
                the art.

                ii. Desk scan needs a summary of past results for 
                comparisons with current study findings.

                iii. Desk scan must support selection of the method 
                rather than desk scan supporting a pre-selected method. 
                Yet another example of the impact of bias.

                        1. ``The committee's overall impression of the 
                        desk scan is that its intent is to justify a 
                        prior decision about the method to be used in 
                        the CTSW study. There is not a logical flow 
                        from literature review to synthesis to 
                        conclusion. The desk scan represents more a 
                        listing of reports and literature, followed by 
                        a conclusion that is likely based on 
                        availability of models, time to complete the 
                        study, familiarity with the methods, and 
                        budget.'' (P. 29)
Highway Safety
    1. Thoroughness:

        a. The desk scan fails to document and support the methods 
        selected and does not account for problems with the data and 
        the influence of other regulations upon the safety of large 
        trucks.

                i. Alternative methods proposed in the project plan are 
                not documented completely in the desk scan.

                ii. While the desk scan discusses regulations in other 
                countries, no review of studies of the effectiveness of 
                these regulations is provided.

                iii. NAS Report warns against comparing the safety of 
                alternative configurations with special rules against 
                current fleet without such rules for policy analysis.

                iv. NAS Report advises that in light of past research, 
                the safety analysis must account for the driver's 
                influence on crash risk. Desk scan should describe the 
                design of past studies that have measured this effect.

                v. No citation of the models to be used in the analysis 
                or the sources for input to these models.

                vi. No examination of impact of regulatory changes on 
                work zone safety.

    2. Missing Literature, Studies, Models or Data:

        a. The NAS Report notes at least 6 relevant studies are not 
        cited by the desk scan, one of which specifically notes ``brake 
        defects may be a more serious issue with increased weight'' and 
        another which shows that ``crash injury is higher in double or 
        triple trailer than in single trailer crashes.'' (P. 35) Since 
        these studies all indicate the negative impact of larger 
        trucks, their omission is indicative of bias.

        b. The desk scan completely fails to include the safety 
        findings of the 2000 FHWA comprehensive truck size and weight 
        study which found that in nationwide use multiple-trailer 
        configurations would have an 11 percent higher fatal crash rate 
        than single trailer trucks.

    3. Conclusions:

        a. The desk scans fails in a number of areas, providing no 
        justification or explanation for the selected methods or 
        assumptions made.

                i. Fails to address critical methodological issues, and 
                some observations are ``open to debate''. (P. 36). 
                Findings regarding methods (models and data) should be 
                separated from results of past safety studies.

                ii. Desk scan should have cited the basis for any 
                findings presented to allow the reader to judge the 
                strength of the finding.

                iii. Synthesis of alternative methods and comparisons 
                of findings would be helpful. No critique of the 
                alternative case-control method and no justification 
                for not considering this alternative. The case-control 
                method is the gold standard for this type of study.

                iv. Safety analysis must consider the impact of all 
                effects of regulatory changes (on traffic volume, 
                traffic distribution, enforcement, work zones etc.) on 
                overall safety rather than limiting the safety analysis 
                exclusively to changes in average crash involvement 
                rates by configuration.
Enforcement and Compliance
    1. Thoroughness:

        a. Missing discussion of future enforcement using new and 
        emerging technologies.

    2. Missing Literature, Studies, Models or Data:

        a. Insufficient sources for examining cost and effectiveness of 
        enforcement.

        b. More detailed discussion needed of limitation of data 
        sources.

        c. No description of how data limitations will be addressed.

        d. No sources for ``potentially important categories of 
        enforcement costs'' (inspection times, replacing scales).

        e. No discussion of economic research on optimal fine levels.

    3. Interpretation of Literature Reviewed:

        a. The NAS Report is concerned that that the contractor 
        incorrectly concludes that compliance with trucks size and 
        weight laws should be viewed as a cost to the industry. And 
        although not specifically mentioned in the NAS Report, the 
        contractor falsely assumes that there would be complete 
        compliance with any new regulatory regime.

                i. ``The desk scan uncritically reports a statement of 
                the 2002 [NAS/]TRB truck size and weight study (TRB 
                2002) that rigorous weight enforcement could increase 
                overall truck shipping costs.'' (P. 41)

                ii. ``The proceeds of illegal activities should not be 
                regarded as benefits to society in benefit-cost 
                analysis of enforcement programs (Trumbull 1990).'' (P. 
                41)

    4. Conclusion:

        a. A synthesis of results from prior studies is not presented.

    Senator Blumenthal. Thank you.
    Major Palmer?

  STATEMENT OF MAJOR DAVID PALMER, PAST PRESIDENT, COMMERCIAL 
                    VEHICLE SAFETY ALLIANCE

    Major Palmer. Mr. Chairman, Ranking Member Blunt, members 
of the Subcommittee, thank you for holding this important 
hearing and for inviting the Commercial Vehicle Safety Alliance 
to testify.
    My name is David Palmer, and I am a Major and commissioned 
law enforcement officer with the Texas Department of Public 
Safety, and a past President of CVSA.
    The Alliance represents state, provincial, and Federal 
commercial vehicle safety officials responsible for the 
enforcement of commercial motor carrier safety laws in the 
United States, Canada, and Mexico.
    CVSA has a number of recommendations for improving truck 
and bus safety. Uniformity and consistency in enforcement are 
essential cornerstones of an effective program. It is 
imperative that the enforcement community be provided clear and 
enforceable regulations, and exemptions must be minimized.
    Changes to regulations when necessary need to be science 
based and data driven. Further, much can be done to streamline 
the current grant process--eliminating redundancies in the 
administrative process, allowing state personnel to focus our 
resources on program delivery rather than administration.
    In addition, we must be given the tools to effectively 
enforce those regulations and the funding that is commensurate 
with the responsibilities.
    As inspectors and law enforcement officers, it is critical 
that we have clear enforceable regulations in order to have 
uniform and effective enforcement. The recent effort to suspend 
enforcement of a portion of the hours-of-service regulations 
while a study is conducted is an example of practices that 
needlessly complicate the regulations and enforcement. As a law 
enforcement officer, if I do not understand the rules, I cannot 
enforce them properly.
    The hours-of-service regulations are complicated enough to 
enforce as it, and the nearly constant change and uncertainty 
in the rules undermines enforcement. Further, every time the 
regulations change, we have to spend time and resources re-
training our officers and inspectors, taking them out of the 
field, and diverting scarce resources from other tasks.
    With approximately 13,000 CVSA-certified inspectors in the 
field, organizing and delivering training in all 50 states is a 
significant task. This is particularly wasteful considering 
that after the study, the provisions may be upheld, resulting 
in a new round of training and even more confusion for both 
industry and enforcement.
    CVSA does not oppose conducting a study. Regulations should 
be written to maximize safety while not overburdening 
enforcement or our Nation's critical commercial vehicle 
industry, but the appropriate time to make any changes is after 
sound research has demonstrated a need and not before.
    While we recognize the hours-of-service regulations must be 
written in a manner that meets the Nation's safety needs and is 
respectful of the needs of the trucking industry, meeting these 
needs by shifting the burden to the enforcement community is 
not a responsible solution.
    Another example of a policy that has resulted in additional 
burden on the enforcement community is the covered farm vehicle 
exemption included in MAP-21. Exemptions often compromise 
safety and always complicate enforcement, and should therefore 
only be granted in extreme cases.
    The covered farm vehicle exemption was intended to exempt a 
large portion of agricultural vehicles from Federal safety 
regulations. However, the exemption language left a lot open to 
interpretation. The end result is an exemption intended to 
provide relief to the agricultural community, which has created 
confusion, inconsistency, and frustration, both for industry 
and enforcement. Most importantly, we do not know its impact on 
safety.
    Much can be done to improve CMV safety. The regulations 
must be clear and enforceable. The states must be given funding 
commensurate with their responsibilities. New and expanded 
responsibilities mean improvements in safety, but only if we 
are able to effectively implement those policies.
    Grant programs must provide states with flexibility, 
allowing us to meet our responsibilities through creative state 
specific solutions.
    The administrative burden associated with grant 
applications and reports should be minimized, allowing the 
states to focus on our mission. We believe there are a number 
of opportunities to streamline the grants, providing relief to 
the states.
    We must have accurate data on which to build our programs 
and to access safety technologies and systems that help us meet 
our goal of saving lives, preventing crashes, and taking the 
unsafe carriers off the road. Simply put, we must ensure that 
the state enforcement agencies are given the tools we need to 
succeed.
    We look forward to working with this committee, FMCSA, and 
the motor carrier industry to meet our shared goal of reduced 
deaths and injuries on our Nation's roads.
    I look forward to answering your questions, and I want to 
just say thank you.
    [The prepared statement of Major Palmer follows:]

       Prepared Statement of Major David Palmer, Past President, 
                   Commercial Vehicle Safety Alliance
    Chairman Blumenthal, Ranking Member Blunt, Members of the 
Subcommittee, thank you for holding this important hearing and for 
inviting the Commercial Vehicle Safety Alliance (CVSA) to share our 
thoughts on ``Opportunities and Challenges for Improving Truck Safety 
on our Highways''.
    My name is David Palmer and I am testifying here today in my role 
as a past President and Board Member of the Commercial Vehicle Safety 
Alliance. CVSA is an international organization representing State, 
Provincial, and Federal officials responsible for the administration 
and enforcement of commercial motor carrier safety laws in the United 
States (U.S.), Canada and Mexico. We work to improve commercial vehicle 
safety and security on the highways by bringing Federal, State, 
Provincial and Local truck and bus regulatory, safety, and enforcement 
agencies together with industry representatives to solve problems. 
Every state in the U.S., all Canadian Provinces and Territories, the 
country of Mexico, and all U.S. Territories and possessions are CVSA 
members. The ultimate objective of what CVSA strives for is to save 
lives.
    The Federal Government entrusts the states with the responsibility 
of enforcing the Federal Motor Carrier Safety Regulations (FMCSRs) and 
the Hazardous Materials Regulations (HMRs). To meet that 
responsibility, Congress provides funding to the states, through the 
Motor Carrier Safety Assistance Program (MCSAP) and a number of other 
focused safety grant programs. The states use these funds to conduct 
enforcement activities, train enforcement personnel, purchase necessary 
equipment, update software and other technology, and conduct outreach 
and education campaigns to raise awareness related to CMV safety 
issues. The funds are used, in part, to pay the salaries of more than 
13,000 full and part time CMV safety professionals. These people 
conduct more than 3.4 million CMV roadside inspections, 34,000 new 
entrant safety audits, and 6,000 compliance reviews each year.\1\ The 
goal of these programs, which are administered by the Federal Motor 
Carrier Safety Administration (FMCSA), is to reduce CMV-involved 
crashes, fatalities, and injuries through consistent, uniform, and 
effective CMV safety programs. The programs seek to identify safety 
defects, driver deficiencies, and unsafe motor carrier practices and 
remove them from the Nation's roadways.
---------------------------------------------------------------------------
    \1\ Federal Motor Carrier Safety Administration 2012-2016 Strategic 
Plan. Federal Motor Carrier Safety Administration. May 2012.
---------------------------------------------------------------------------
    The good news is that the program works. The benefits of the MCSAP 
are well documented, and every dollar invested in the State programs 
yields a big return for taxpayers. According to research and figures 
from FMCSA, CVSA estimates that the MCSAP has an estimated benefit to 
cost ratio of 18:1. Every roadside inspection conducted yields an 
estimated $2,400 in safety benefits. And, of course, effective 
enforcement of the FMCSRs helps save lives every day, keeping dangerous 
vehicles and unqualified drivers off the Nation's roads. In 2001, the 
number of registered large trucks and buses was just over 8.6 million. 
Since then, that number has grown 35 percent, to 11.6 million in 2010. 
Despite this increase, the number of fatalities due to crashes 
involving large trucks and buses has gone down 27 percent. The number 
of CMV crash-related injuries also decreased over that time frame by 30 
percent.\2\ These improvements in CMV safety were achieved, in part, 
through investments in the MCSAP.
---------------------------------------------------------------------------
    \2\ Large Truck and Bus Crash Facts 2010: Final Version, FMCSA-RRA-
12-023. Federal Motor Carrier Safety Administration. August 2012.
---------------------------------------------------------------------------
    While the program is effective in reducing crashes and saving 
lives, there is more work to be done. Ensuring clarity in the 
regulations, providing adequate funding for and improving the 
efficiency of the grant programs, and establishing policies that allow 
states and industry to take full advantage of technology will help 
prevent crashes, minimize injuries, and save lives, ultimately making 
our Nation's roadways safer.
Ensuring Clear and Enforceable Regulations
    Uniformity and consistency are essential cornerstones of an 
effective program. Despite this fact, however, there are a number of 
policies and practices that complicate the program, undermining 
uniformity and consistency, and detracting from the efficiency of the 
MCSAP. Confusion and inconsistencies create more work for the 
enforcement community, as well as industry. Inconsistencies and 
exceptions within the regulations require more training and create more 
opportunities for mistakes to be made, which in turn require additional 
resources to address.
1. Improving the Regulatory Framework
    The foundation of an effective regulatory enforcement program is 
quality, uniform, and consistent enforcement activities. It is 
imperative that those subject to Federal regulations understand their 
responsibilities and that those tasked with enforcing the safety 
regulations can do so effectively to ensure the quality and uniformity 
of the more than four million roadside inspections conducted annually 
throughout North America. Over time, additional regulatory authority, 
coupled with changes to the industry and technological advancements can 
result in inconsistent, outdated, and redundant regulatory language. 
With each year come additional requirements from Congress, aimed at 
advancing CMV safety. In addition, FMCSA receives and responds to 
petitions for changes to the FMCSRs from the CMV community. As Congress 
and FMCSA work to improve CMV safety, unintentional inconsistencies can 
slowly work their way into the regulatory framework. These 
inconsistencies can lead to confusion among both the regulated and 
enforcement communities.
    To address this, CVSA supports requiring FMCSA to conduct a full 
review of the FMCSRs every 5 years, in collaboration with CVSA and 
industry, geared towards reducing, enhancing, and streamlining the 
regulations, eliminating outdated or duplicative regulations, 
clarifying those that need adjustment, etc. While this puts additional 
administrative burden on FMCSA, the benefits and savings that will 
accrue across the country for enforcement, industry, and the public 
justify the endeavor.
    Furthermore, work is needed to bring the safety regulations in line 
with regulatory guidance, interpretations, and policy memos issued by 
the agency. At times, FMCSA issues guidance documents to correct 
technical errors in published rules or to clarify vague regulatory 
language within the safety regulations while improvements to the 
regulations make their way through the rulemaking process, which can 
take years to accomplish. However, the number of full rulemakings that 
can make it through the agency in any given year is limited by staff 
and funding, and a number of higher profile rules tend to push simple 
technical changes back in the queue. As a result, disconnects develop 
between written regulations, regulatory guidance, interpretations, and 
policy. Regular review and updating of the FMCSRs and HMRs would help 
to reduce these disconnects, providing an established process for 
identifying and resolving inconsistencies in policy, bringing the 
regulations in line with published guidance.
    With regards to the various petitions for changes to the FMCSRs 
from the CMV community to FMCSA, CVSA supports requiring that petitions 
be published in the Federal Register upon receipt and that the agency 
subsequently publish a notice of action taken on each petition. This 
would benefit both the agency and the regulated community, allowing for 
input early in the process, addressing potential issues before they 
become problems. It will notify those interested in CMV safety and the 
FMCSRs of areas of interest to others in the regulated CMV community, 
which can foster conversation that could lead to solutions and 
consensus building. FMCSA would benefit from input it receives in 
response to petitions, which could help inform the agency's thinking on 
the requested changes. FMCSA could put a process in place similar to 
that found in 49 USC Sec. 31315(b)(4), which provides for notice and 
comment on exemption requests received by the agency.
2. Exemptions
    In general, exemptions from Federal safety regulations have the 
potential to undermine safety, while also complicating the enforcement 
process. First and foremost, safety regulations exist to protect those 
who use our Nation's roadways. The FMCSRs and HMRs exist to ensure that 
those operating in the transportation industry are equipped to do it 
safely. Furthermore, every new exemption is an opportunity for 
confusion and inconsistency in enforcement, diverting scarce resources 
from other activities and undermining the program's effectiveness.
    We recognize that there may be instances when exemptions could be 
appropriate and also not compromise safety. In those instances, 49 USC 
Sec. 31315(b) already provides a mechanism for those in industry to 
obtain an exemption through FMCSA. This process includes providing for 
an equivalent level of safety, requiring that the exemption ``would 
likely achieve a level of safety that is equivalent to, or greater 
than, the level that would be achieved absent such exemption.'' In 
addition, exemptions obtained through this process are limited to a 
maximum of two years (subject to renewal), which provides oversight to 
ensure that safety is not compromised, as well as an opportunity to 
eliminate exemptions that have not maintained an equivalent level of 
safety. This is the proper model.
    In contrast, exemptions obtained through legislation do not always 
include safety considerations and are difficult to remove once 
established. Because a process exists for industry to pursue exemptions 
through an administrative process, CVSA opposes the inclusion of 
exemptions from Federal safety regulations in legislation. At the very 
least, when exemptions are included in legislation, CVSA supports 
requiring the inclusion of a ``safety clause'' as a part of any 
exemption statutorily enacted, similar to that in 49 USC Sec. 31315(b), 
providing for an equivalent level of safety, as well as language that 
would allow for the elimination of the exemption if an equivalent level 
of safety cannot be demonstrated.
    Another approach could be to require that, before any legislative 
exemption from Federal safety regulations goes into effect, a pilot 
program be conducted to evaluate the safety impacts of such an 
exemption. The exemption would then go into effect automatically, 
unless the pilot program demonstrates that an equivalent, or enhanced, 
level of safety has not been achieved. Going forward the exemption 
would be monitored on a routine basis, to ensure that an equivalent 
level of safety is maintained over time.
3. Hours of Service Regulations
    The hours-of-service (HOS) regulations for commercial drivers are 
arguably the single-most important regulation to the motor carrier 
industry, sitting at the confluence of safety and productivity. As 
evidence of the importance of these rules to the public, there have 
been over 50,000 comments to the rulemakings on this issue over the 
last 10 years, as well as numerous studies and research to improve 
safety on our Nation's roads.
    The HOS regulations are important because of their clear 
correlation with safety. HOS violations are, by far, the most often 
cited violations by inspectors during roadside inspections. HOS 
violations represent seven of the top 13 violations documented during 
roadside inspections thus far in 2014, including the number one 
violation. These seven violations represent 41 percent of the total 
driver violations documented. We also know that drivers who are cited 
roadside with an HOS violation are 45 percent more likely to be in a 
future crash than the average driver.\3\ In addition, driver factors 
and fatigue are significant contributors to large truck and bus 
crashes. In nine out of 10 instances, driver factors have some level of 
contribution to the crash.\4\ This data indicates how important these 
rules are to safety, and why we need to be measured in our approach to 
dealing with them.
---------------------------------------------------------------------------
    \3\ Predicting Truck Crash Involvement: A 2011 Update. American 
Transportation Research Institute. April 2011.
    \4\ Report to Congress on the Large Truck Crash Causation Study. 
Federal Motor Carrier Safety Administration. March 2006.
---------------------------------------------------------------------------
    Recently, there has been an effort to temporarily suspend 
enforcement of a portion of these regulations while their impacts and 
efficacy are evaluated. CVSA opposes any efforts to temporarily suspend 
enforcement of any portion of the regulations. The HOS regulations are 
first and foremost safety regulations, not efficiency or productivity 
regulations. While the regulations certainly should and need to take 
into account the economic impacts to the industry that is not what they 
are principally designed to do. Legislating temporary changes to the 
HOS rules creates significant uniformity and consistency problems 
across the country. The impact of such an approach will create 
unnecessary upheaval for the states and cause significant operational 
and budgetary impacts on their enforcement efforts.
    The HOS regulations are already complicated to comprehend and 
enforce and any change requires that the states retrain their 
inspectors. With approximately 13,000 CVSA-certified inspectors in the 
field, organizing and delivering training in all 50 states is a 
significant task. Each state is structured differently, and the 
resources needed to develop and deliver training are significant. 
Temporarily suspending enforcement of a regulation not only takes 
inspection personnel away from their routine enforcement duties, which 
impacts on their target enforcement goals in the State Commercial 
Vehicle Safety Plans (CVSP), but it also requires the expenditure of 
unplanned resources, which impacts on State budgets. Add to this any 
information technology (IT) changes, such as software modifications, 
and additional training to accommodate rule changes increases the 
resource commitment. All for a temporary change that could very well 
result in no permanent change to the regulations after the review is 
complete.
    In addition, constant change causes confusion for both industry and 
enforcement. Compliance and the determination thereof are nearly 
impossible because the rules have changed so often over the last 10 
years, and have become so complicated that no one can keep pace with 
the changes. This constant back and forth also has resulted in a number 
of narrow interpretations on exceptions and exemptions, further 
complicating enforcement and undermining uniformity.
    While there certainly have been legitimate concerns raised by the 
regulated industry on the impacts of the new rules, the Administrative 
Procedures Act is there for a reason and it needs to be followed. The 
importance of these rules cannot be understated, and to make changes 
without the appropriate analysis of their impacts or without providing 
appropriate due process and adequate time to implement them is 
irresponsible policy.
    There has not been a comprehensive analysis of the safety impacts 
of the newly (2013) enacted regulations, nor has there been any 
analysis comparing the existing regulations versus the previous 
regulations. To enact temporary changes without having a full 
understanding of these impacts through an open and transparent process 
is not in the best interests of the public. We need to be data driven 
and fact based in our decision making. To this end, CVSA supports a 
comprehensive study on the safety and operational impacts of the HOS 
regulations, during which the current rules should remain in place. 
Once this analysis has been completed, only then would it be 
appropriate to consider any changes or adjustments through the 
rulemaking process. The rules are designed to help keep all drivers 
safe, both commercial and other road users, and it is our job to 
protect them.
4. Electronic Logging Devices
    The rulemaking currently underway at FMCSA on electronic logging 
devices (ELDs) for HOS compliance provides another example. There has 
been a significant amount of attention paid to ensuring that the new 
regulations take into account the needs of industry, in order to ease 
the burden. However, the regulations must be written with all end users 
in mind, including the enforcement community. CVSA strongly supports 
the use of ELDs for HOS compliance enforcement. However, if the 
regulations are not clear and designed to be enforceable, they will not 
be effective. One of the key considerations is the transmission of the 
HOS compliance data from the driver to the inspector. If inspectors 
cannot easily and reliably retrieve data from ELDs roadside the devices 
are of little value. To that end, in our comments to the docket, CVSA 
recommended that, prior to implementation, FMCSA conduct a 
comprehensive study of current State technology/communication 
capabilities for CVSA-certified inspectors and identify what steps 
would be necessary to ensure that all certified inspectors will be able 
to access data roadside in an effective, efficient, and secure manner. 
This study should be completed and made publicly available prior to the 
agency issuing a Final Rule. The ELD rulemaking has the potential to 
improve HOS compliance and enforcement, but only if the inspectors are 
given the tools they need to properly utilize the devices. This fact 
must be a consideration in the development of the Final Rule.
5. Truck Size and Weight Limits
    There have been efforts recently to make changes to the current 
Federal truck size and weight restrictions. To address this, Congress 
included in the Moving Ahead for Progress in the 21st Century Act (MAP-
21) a requirement that the U.S. Department of Transportation (DOT) 
conduct a Comprehensive Truck Size and Weight Limits Study.\5\ As 
required in MAP-21, the study will provide data on accident frequency 
and evaluate factors related to accident risk for vehicles that operate 
in excess of size and weight limits. DOT is also directed to evaluate 
the impact to the infrastructure in states that allow a vehicle to 
operate in excess of size and weight limits. Additionally, DOT is 
instructed to look at a number of specific vehicle configurations, as 
well as existing programs and research throughout the world. Further, 
Congress directed DOT to look specifically at several factors, 
including the impact of various changes to restrictions on safety and 
enforceability. CVSA was a strong advocate for such a study during the 
reauthorization discussion prior to passage of MAP-21. DOT is currently 
in the process of conducting the study and any changes to the Federal 
size and/or weight limits prior to its completion would be premature. 
In MAP-21, Congress recognized the need for additional research into 
several specific areas before changes to the Federal CMV size and 
weight limits are considered. CVSA opposes any changes to Federal CMV 
size and weight limits until the study mandated by Congress in MAP-21 
has been completed.
---------------------------------------------------------------------------
    \5\ Moving Ahead for Progress in the 21st Century Act of 2012. Pub. 
L. No. 112-141. Sec. 32801.
---------------------------------------------------------------------------
    CVSA recognizes that the discussion on commercial vehicle size and 
weight limits is much broader than just safety considerations. There 
are environmental, quality of life, productivity, economic 
competitiveness, and impacts to infrastructure, such as roads and 
bridges that must also be considered. CVSA understands that once the 
study has been completed, it is possible that changes will be made to 
the current limits. In these instances, CVSA supports ensuring that any 
change in policy is enforceable and based on objective, scientific 
evidence. Changes to the current limits must be clearly defined so that 
both industry and enforcement understand what is permitted. Further, 
policy should be written with enforceability in mind, ensuring that 
states have the funds and tools necessary to do their job effectively.
Maintaining Effective and Fully Funded Grant Programs
    With each new transportation bill, the states are tasked with 
additional enforcement and oversight responsibilities. At the same 
time, the motor carrier industry continues to grow. It is imperative 
that states have the funds necessary to effectively develop and 
implement their CMV safety programs. Flexibility within the safety 
grant programs is also a key consideration, allowing states to meet 
their responsibilities through creative, State-specific solutions. 
There are also a number of streamlining recommendations that will 
improve the efficiency of the grant programs.
1. Providing Adequate Resources
    As discussed above, the MCSAP, as administered by the states, has 
been successful in reducing crashes, injuries, and fatalities on our 
Nation's roadways, despite a steady increase in the number of CMVs 
operating on those roads. In order to maintain this downward trend in 
CMV crashes and fatalities, the MCSAP must be adequately funded.
    According to FMCSA, the agency regulates approximately 500,000 
active interstate motor carriers, including 12,000 passenger carriers, 
and seven million active commercial driver licensees (CDL holders). The 
State and Local agencies that receive MCSAP funding are responsible for 
ensuring that those 500,000 motor carriers, vehicles, and drivers are 
operating safely. Furthermore, the CMV enforcement landscape is 
constantly evolving and changing as Congress and FMCSA work to refine 
and improve the FMCSRs and HMRs.
    The MCSAP will only continue to be successful if it is adequately 
funded. New and expanded responsibilities mean improvements in safety, 
but only in so much as the states are able to effectively implement 
those policies. It is critical that Congress and FMCSA ensure that, as 
new programs are created and new responsibilities are assigned, funding 
is provided to the states, avoiding any unfunded mandates. Otherwise, 
funds are spread thinly across programs, reducing effectiveness across 
the board.
    For example, changes made in MAP-21 set a more aggressive timeline 
for conducting Safety Audits on new motor carriers, placing additional 
demands on the states conducting the audits. In addition, the program 
has become more rigorous over the years, with additional requirements 
on tracking, reviewing, and conducting the Safety Audits. While these 
changes are considered valuable, when combined with the decreasing 
buying power of each dollar, the end result is that it costs states 
more to implement the program each year. Meanwhile, the number of 
carriers entering the industry each year is increasing, and therefore 
the demand for New Entrant Safety Audits, continues to grow.\6\ In 
order to meet that growing demand and ensure the success of the New 
Entrant Safety Assurance Program, it is critical that the states are 
provided with funding commensurate with program demand.
---------------------------------------------------------------------------
    \6\ Notice: New Entrant Safety Audit Assurance Program Operational 
Test. FMCSA-2013-0298. Federal Motor Carrier Safety Administration. 
September 4, 2013.
---------------------------------------------------------------------------
    To help ensure that states receive the funding necessary to fully 
meet their responsibilities, CVSA recommends increasing the Federal 
grant match for several of the current grant programs. This will reduce 
the burden on states, while helping to ensure effective oversight of 
the motor carrier industry. At the very least, moderate increases in 
funding levels are necessary to keep pace with inflation, as stagnant 
funding levels result in decreased buying power year to year.
    While adequate funding is imperative to an effective MCSAP, we 
recognize that the issue of funding for the Federal transportation 
program is a complicated one, with no easy solutions. Future funding 
for the MCSAP is directly tied to the long-term solvency of the Highway 
Trust Fund. CVSA supports ongoing efforts to identify sustainable, 
long-term revenue sources to address the Highway Trust Fund solvency, 
in order to ensure stability for the MCSAP.
    In the event that no new revenue is available, CVSA urges Congress 
to ensure that MCSAP grant funding is not reduced, but remains at the 
levels set by MAP-21. According to a report completed for FMCSA in 
2007, the average ``cost'' (including wages and benefits) of a State 
safety inspector was estimated at $66,052.51.\7\ This means that for 
every $1 million invested in the MCSAP, 15 jobs are created or 
maintained. Conversely, every $1 million reduction in MCSAP funding 
results in jobs lost or positions unfilled at the State level. When 
states see a reduction in their MCSAP funding, resulting in jobs lost, 
their programs are reduced and fewer inspections, compliance reviews, 
and safety audits are conducted, reducing the safety benefit of such 
activities discussed above and undermining years of improvement in CMV 
safety.
---------------------------------------------------------------------------
    \7\ Roadside Inspection Costs. Federal Motor Carrier Safety 
Administration. October 2007.
---------------------------------------------------------------------------
2. Improving Program Flexibility
    One way to improve the MCSAP is to provide states with additional 
flexibility in how they spend their Basic MCSAP grant funds. CVSA 
believes that explicit language limiting how a state can spend grant 
funds in statute, regulation, or FMCSA policy should be minimized. 
Instead, the statutory and regulatory construction, as well as policy 
from FMCSA, should focus on setting broad parameters, program elements, 
goals, and expected outcomes for a program and, by using the annual 
CVSP as the mechanism for monitoring and evaluation, allow the states 
to determine how best to meet those expectations. For example, CVSA 
supports increasing the funding cap on traffic enforcement activities 
not associated with an inspection from five percent to ten percent. 
This will allow states to allocate their resources as they see fit, 
giving them additional flexibility to address State-wide or regional 
issues, such as speeding or aggressive driving, more effectively.
    As another example, in 2010, FMCSA issued a policy memorandum to 
State Program Managers. In the memo, FMCSA advised the states that the 
recently completed Large Truck Crash Causation Study, completed in 
2006, indicated that driver behavior is more likely to be the cause of 
a CMV crash than any other factor. As such, the agency instructed 
states to focus their inspection efforts on drivers. They instructed 
states to increase the number of Level III (driver-only) inspections to 
``meet or exceed the national average of 30 percent of all inspections 
performed.'' \8\ In this instance, instead of prescribing rigid and 
prescriptive parameters across the board that may not make sense for 
every state, CVSA believes it would have been more productive and 
efficient for FMCSA to identify the issue--the need for increased focus 
on drivers--and instructed the states to account for how they plan to 
address this challenge in their CVSP. As part of this issue 
identification, the agency should supply data and research to the 
states substantiating the problem area. At the end of the CVSP year, 
FMCSA and the states could then evaluate how effective the states' 
strategy or strategies were with respect to reducing crashes relating 
to driver behavior and performance.
---------------------------------------------------------------------------
    \8\ Memorandum: Fiscal Year 2011 Commercial Vehicle Safety Plan. 
Federal Motor Carrier Safety Administration. April 8, 2010. http://
www.fmcsa.dot.gov/documents/safetyprograms/MCSAP-Planning-Memo-508.pdf
---------------------------------------------------------------------------
    Another program that could be improved with increased flexibility 
is the Commercial Vehicle Information Systems and Networks (CVISN) 
program. CVISN is a collection of information systems and 
communications networks intended to support State CMV safety 
operations. The CVISN network provides a series of mechanisms through 
which parties engaged in motor carrier safety and regulatory 
enforcement (States, Federal agencies, industry, etc.) can exchange and 
use information electronically.\9\ In order for this network to 
function effectively, states must achieve a level of parity and 
integration in the systems they are using to gather and transmit safety 
data. To meet this need, the CVISN grant program was established, in 
part, to provide funds for states to update their information 
technology capabilities. There are two levels of CVISN deployment--Core 
CVISN and Expanded CVISN. The states are at varying levels of achieving 
full Expanded CVISN deployment.
---------------------------------------------------------------------------
    \9\ Frequently Asked Questions, Federal Motor Carrier Safety 
Administration. Accessed 7/31/13
---------------------------------------------------------------------------
    CVSA supports expanding and updating the items that are eligible 
for reimbursement under the CVISN grant program, as well as the overall 
direction of the program. Currently, eligibility within the CVISN 
program is too narrow in its scope and needs to be expanded. States are 
often denied CVISN grants for projects that they believe will be 
valuable to motor carrier safety simply because the activity or 
initiative did not fit within the existing CVISN model. However, 
technology moves quickly and many of the technologies and ideas that 
were identified as priorities when the CVISN program was created are 
now considered standard or obsolete. For instance, use of laptops, 
communications to and from the field, and even uploading files to 
Federal systems from SAFETYNET are all fairly standard. Simply put, the 
CVISN program has not kept pace with technological advancements, and 
therefore, needs to be modernized in order to keep pace with current 
and future technological trends. Rather than focusing on specific 
technology and narrow scopes of use, the goal should be a performance-
based approach to enhancing the use of technology, in order to obtain a 
greater level of safety. Expanding reimbursement eligibility provides 
states with the flexibility they need to fully leverage State and 
Federal dollars to implement and enhance effective CMV safety programs.
3. Streamlining the Grant Management Process
    In addition to expanding program flexibility, CVSA has a series of 
recommendations for improving the grant management process, which will 
remove inefficiencies, reduce administrative burdens, and free up much 
needed resources for enforcement activities.
    As part of the application process for Basic MCSAP grant funds, 
states are required to complete an annual CVSP. These plans document 
how the state has met their safety goals for the past year and how 
Basic MCSAP grant funds for the coming fiscal year will be spent. FMCSA 
reviews these plans and uses them to evaluate a State's progress and 
adherence to FMCSA policy. CVSPs are due towards the end of the Federal 
fiscal year and must be approved by FMCSA prior to a state receiving 
Basic MCSAP grant funds for the coming year. However, there are 
administrative burdens and other issues that impact the effectiveness 
of the CVSP process and the timely disbursement of grant funds. While 
FMCSA has made some strides recently to improve this process and reduce 
the administrative burden on states, more can be done.
    One major concern the states have with the administration of the 
MCSAP grant program is the inconsistency, year to year, region to 
region, and state to state. FMCSA is constantly revamping the process, 
perhaps in an effort to improve it. However, the end result is 
confusion and unclear expectations for the States. Without consistency, 
the states cannot properly plan for their annual CVSP and grant 
application submission. Formatting requirements change year to year, 
material that was acceptable one fiscal year is no longer acceptable 
the next, the timeline for the grants process changes frequently, etc. 
This results in constant upheaval for the states, and they end up 
diverting much needed resources away from other efforts, as they are 
constantly adapting, redoing, and adjusting their process to meet the 
ever changing needs of FMCSA.
    CVSA supports streamlining the CVSP submission process. States are 
spending a significant amount of time administering the grants rather 
than doing the work the grants are supposed to be paying for. Such 
activities include resubmitting information, such as standard text 
about the agency requesting the funds, contact information, 
miscellaneous numbers and figures concerning the number of inspectors, 
inspections, etc., and the amount being requested. To address this 
issue, CVSA recommends that FMCSA model the CVSP submission process on 
the electronic submission process used by the Federal Highway 
Administration (FHWA) for collecting the states' annual Size and Weight 
Enforcement Plans. FHWA's program is designed so that states can access 
previous years' plans as a template, updating only the items that have 
changed. Further, the system is done entirely online, through a secure 
online portal. Replicating this approach within FMCSA's grant process 
would provide FMCSA with more up-to-date information, while reducing 
the workload on the states. Earlier this year, FMCSA began working on 
such an approach, in collaboration with the states and we look forward 
to making progress on this matter. In addition, the states are asked to 
provide FMCSA with data and statistics that FMCSA already has access to 
in other reports and databases. States should not be asked to spend 
quality time compiling information to which the agency already has 
access.
    Another significant concern states have with the MCSAP is the 
constant delay and lack of consistency in the timing of funding 
disbursement. There are a number of factors that contribute to these 
delays and result in complications for the states. The annual delays in 
the Federal budget and appropriations processes are one contributing 
factor. The Federal fiscal year begins October 1, and many grant 
programs are set to that date. However, Congress rarely completes their 
funding bills by this date, delaying the disbursement of funds to the 
states. Even more frequently now, Congress relies on temporary 
continuing resolutions, which results in states receiving their funds 
late, and in installments. This unpredictable, piecemeal approach to 
funding makes planning and management of State programs difficult.
    This issue is further complicated by the fact that many states do 
not follow the Federal fiscal calendar (most start July 1), 
complicating the reporting and tracking process. States also believe 
that once funds are available, the grant review and approval process 
takes far too long, further delaying receipt of funds for safety 
programs. For the most part, states have two years to spend their MCSAP 
funds. However, the two year timeline begins at the beginning of the 
Federal fiscal year, regardless of when funds are actually made 
available. As a result, states often receive their funds well into the 
time-frame of the grant and run the risk of not being able to spend the 
appropriated funds responsibly before the grant expires, possibly 
forcing the states to return funding that was dedicated for enforcement 
and inspection activities as identified in their CVSP. To address this, 
CVSA recommends adjusting the period of performance for all grants so 
that the ``clock'' on a grant only begins once the funds have been 
allocated to the State.
    CVSA also supports increasing the transparency and accountability 
within the MCSAP grant process. When applying for Federal funds, states 
are given strict deadlines and parameters they must meet in order to 
qualify and receive funds. However, there are no established deadlines 
for FMCSA, in terms of their grant review process. CVSA recommends 
setting grant application review deadlines for FMCSA. One approach 
would be to model the program timing requirements after the State and 
Community Highway Safety Formula Grant Program, commonly referred to as 
the 402 grants, administered by the National Highway Traffic Safety 
Administration (NHTSA). The 402 grant program has a clear timeline in 
place. State applications are due to NHTSA by July 1 of each year, and 
the agency has 60 days to review and respond. Using this model would, 
at least for the Basic MCSAP grants, ensure that once funding is 
authorized by Congress, the agency is prepared to disburse the funds 
immediately, helping to reduce delays in funding disbursement. In 
addition to the review deadline, more consistency is needed in the 
grant review process. Grant applications are not all reviewed by the 
same panel(s), resulting in inconsistencies from one grant request to 
another, complicating the process for states.
    In addition, CVSA recommends adjusting the period of performance 
for grants and CVSPs, moving to a more long-term, three or five year, 
cycle. Under this model, CVSPs would be due at the beginning of each 
cycle, with annual updates in between. These changes would benefit both 
the states and FMCSA, reducing the workload by requiring comprehensive 
CVSPs less frequently. This approach would also provide more accurate 
data on the effectiveness of the program, as larger data sets help to 
normalize any anomalies that might occur within a single year. In order 
to accommodate the unpredictability of funding disbursement due to 
delays that can occur in the appropriations process, the period of 
performance on grant funds should begin once the funds have been 
awarded to the State, rather than setting the cycle on Federal fiscal 
years.
    Finally, as mentioned above, FMCSA uses the CVSPs to evaluate a 
state's performance over the past year. This includes reviewing changes 
in crash, fatality, and injury rates within the state. FMCSA uses this 
information to help determine grant award amounts to the states. 
However, the method by which the data is currently compiled does not 
take into account that certain portions of the CMV population are 
outside government oversight and the enforcement community's authority, 
such as statutorily exempted vehicles like agricultural carriers 
operating under the Covered Farm Vehicle exemption created in MAP-21. 
Simply put, states should not be penalized for crashes, fatalities, and 
incidents that occur in segments of the industry that they have no 
authority over. If a state does not have authority and, as a result, 
cannot exercise proper due diligence to improve safety within a sector 
of industry that is exempted, it is unreasonable to include that sector 
in any evaluation of the state's performance. CVSA supports removing 
non-regulated crash, fatality, and injury rates from the criteria used 
to determine grant award amounts for Incentive and other funds. This 
relatively small adjustment to how data is collected would have a 
tremendous value to the states.
Maximizing Program Effectiveness Through Technology
    As budgets continue to tighten and technology continues to advance, 
it is imperative that those in the safety and enforcement communities 
take full advantage of technological advancements that improve safety 
and demonstrate a net benefit to society.
1. Data and Information Technology Systems
    Uniform, timely and accurate data is the cornerstone of the MCSAP. 
Enforcement personnel, along with State and Federal agencies, use 
information on a motor carrier's past performance to help prioritize 
motor carriers for roadside inspections and compliance reviews. 
Performance data from the CMV industry is used to identify trends and 
problem areas, and to craft enforcement and education initiatives to 
target specific safety problems. Data is not only used to evaluate 
whether or not enforcement is being conducted uniformly, but also to 
determine whether or not a particular safety program or concept is 
successful. Data is used to determine whether enforcement funds are 
being used in the most efficient, effective manner possible. In order 
to effectively and efficiently perform these activities, the states and 
the Federal Government must be able to rely on the data being compiled 
in the various systems being accurate and as uniform as possible, in 
order to make comparisons. Currently, however, redundant, overlapping 
IT systems and outdated software applications result in inconsistencies 
in the data being collected by the states and FMCSA, undermining the 
safety programs and strategies being built upon them. These data 
challenges hinder the inspection process and create extra, unnecessary 
work for industry and enforcement alike.
    For example, the Motor Carrier Management Information System 
(MCMIS) is the main system for which all the data collected from State 
and Federal agencies for FMCSA is housed, including inspection, crash, 
compliance reviews, safety audits, carrier information and history and 
numerous other data sets. Other programs, such as Safer, Query Central, 
and State CVIEW systems, as well as the Compliance, Safety, 
Accountability (CSA) program, extract the data from MCMIS to run their 
programs. Developed in the 1980s, MCMIS is almost 30 years old. As the 
program ages, it becomes harder and more expensive to make software and 
program changes. The system can simply no longer meet State and Federal 
data needs.
    Another program very much in need of updating is Aspen, which is 
the program used to collect inspection data during a roadside safety 
inspection. Aspen was created in the early 1990s and has had few major 
updates since its development. Most of the changes have been small 
enhancements and, as a result, users are becoming more frustrated by 
the system's limitations.
    In addition to relying on outdated, insufficient, and inefficient 
systems, FMCSA has become too focused on new software development and 
is distracted by too many competing priorities. As a result, updates 
and improvements to the primary data collection and management programs 
on which everything rests are constantly delayed and the states are 
forced to use outdated and cumbersome legacy systems. In 2009, for 
example, FMCSA was reviewing the Aspen program and taking input on 
necessary improvements. However, the update was cancelled so the agency 
could focus on developing the CSA program. Now, the agency is focused 
on creating the Unified Registration System (URS) program, yet another 
priority, and still many of the improvements discussed in 2009 have not 
been implemented.
    FMCSA's IT program lacks focus and direction. Were FMCSA to focus 
on setting parameters and functional specifications, rather than 
software development, the program would improve tremendously. FMCSA 
should be managing the system and software development process, rather 
than doing the actual programming. The agency needs to clearly identify 
challenges and solutions, as well as addressing State needs, and 
establish a clear path forward to meet those needs. FMCSA must take a 
step back and completely reevaluate its development process and how it 
prioritizes IT projects.
    To improve the quality of data collection, transmission and 
analysis, CVSA encourages Congress to call for a study of the agency's 
IT and data collection systems. The study should include an evaluation 
of the efficacy of the existing systems and programs and their 
interaction. It should identify redundancies and explore the 
feasibility of consolidating data collection and processing systems. 
The study should evaluate the ability of the programs and systems to 
meet the needs of FMCSA, both at headquarters and in the State offices, 
as well as equally the needs of the states themselves. The study should 
investigate improving any and all user interfaces. The study should 
take into account the systems' and programs' adaptability, in order to 
make necessary future changes in an easier, timely, and more cost 
efficient manner. In addition, the study should explore the necessity 
and feasibility of increasing the agency's IT budget, to bring it in 
line with other Federal programs.
2. Promoting Safety Technology
    Technology can also improve safety from the industry side. 
According to data from FMCSA, in 2011 alone, CMVs were involved in 
nearly 130,000 crashes, resulting in just over 4,000 fatalities and 
injuring another 80,000 people.\10\ With the forecasted growth in 
population and the corresponding increase in movement of freight and 
passengers, truck and bus traffic on our roadways will only continue to 
rise. To help reduce CMV related crashes, fatalities, and injuries, 
CVSA supports legislation and policies that encourage the deployment of 
safety technology proven, through independent research, to improve CMV 
safety, either through preventing crashes or mitigating the severity of 
crashes. Taking full advantage of technologies that can assist in 
anticipating and preventing crashes will help reduce fatality and 
injury rates. The National Transportation Safety Board (NTSB) has 
repeatedly called for deployment of safety technologies on both 
commercial and personal vehicles to help reduce crashes and save lives. 
In fact, NTSB has called on the NHTSA to establish performance 
standards and mandate deployment of collision avoidance technologies on 
CMVs in its annual `NTSB Most Wanted List.'
---------------------------------------------------------------------------
    \10\ Motor Carrier Safety Progress Report (as of September 30, 
2012), Federal Motor Carrier Safety Administration.
---------------------------------------------------------------------------
Conclusion
    The State agencies, in collaboration with FMCSA and industry, are 
working to make the Nation's roadways safer by reducing crashes, 
injuries and fatalities related to CMVs. In order to do this, it is 
imperative that the enforcement community be given clear, enforceable 
regulations that have been developed based on sound data to improve 
safety. Exemptions and exceptions must be minimized and changes to the 
regulations, when necessary, should be science-based and data-driven. 
Further, a great deal can be done to streamline the current grant 
process, eliminating redundancies and unnecessary administrative 
process, allowing State personnel to focus more of their time and 
resources on the program itself, rather than its administration. In 
addition, states must be given the tools they need to effectively 
enforce those regulations. States need funding that is commensurate 
with the responsibilities they've been tasked with, not just to run the 
day to day program, but to fully equip and train their inspectors. This 
includes making sure states have access to the latest technologies that 
will help advance and streamline their programs. Industry should also 
be encouraged to deploy advanced safety technologies that can help 
prevent and mitigate crashes.
    It is important to note that CVSA and the states work very closely 
with FMCSA on these issues. The agency will sometimes engage the states 
to seek input on various aspects of the MCSAP in an attempt to 
understand where problems exist to help make improvements. For the last 
several years CVSA has provided numerous comments to the agency 
regarding the grant program processes and procedures. We appreciate 
their willingness to listen; however, the unfortunate fact is there 
still are significant improvements that are necessary and challenges 
hampering program efficiency and effectiveness.
    Despite these challenges, the MCSAP continues to be extremely 
effective at reducing the number of crashes, injuries, and fatalities 
on our Nation's roadways and the states have worked diligently to best 
leverage funds while the size of the regulated industry and the number 
of responsibilities continues to grow. In 1983, about the time the 
MCSAP was established, there were 27,000 carriers and 2.2 million 
drivers that hauled six billion in tonnage. That year there were 5,491 
CMV-related fatalities, at a rate of 0.352 fatalities per 100 million 
miles. In comparison, in 2011, more than 525,000 carriers and 3.1 
million drivers hauled 9.4 billion in tonnage. There were 4,206 CMV-
related fatalities in 2011, or a rate of 0.136 fatalities per 100 
million miles. While there have been a number of success stories 
contributing to this decline over the last 30 years, the MCSAP has 
clearly been a major factor in improving CMV safety.

    Senator Blumenthal. Thank you very much.
    Mr. Dawson?

     STATEMENT OF WILLIAM G. ``JACK'' DAWSON, ON BEHALF OF 
             INTERNATIONAL BROTHERHOOD OF TEAMSTERS

    Mr. Dawson. Chairman Blumenthal, Ranking Member Blunt, and 
members of the Subcommittee, my name is Jack Dawson. I have 
been a professional truck driver for 32 years.
    For the last 15 years, I have been working for UPS in 
Dallas, Texas, where I currently serve as space and visibility 
driver trainer for new employees, post-accident drivers, and 
annual re-training. I am also chief shop steward for Teamsters 
Local 745 and the co-chair of the Comprehensive Health and 
Safety Committee.
    I am representing the 1.4 million members of the 
International Brotherhood of Teamsters, especially the 600,000 
members who work on America's highways. Today, I will 
concentrate my testimony on hours-of-service, truck size, 
weight, and driver training.
    Immediate attention on driver fatigue and hours-of-service 
regulations has been extensive since the Tracy Morgan accident. 
Here in the Senate, there has been an attempt to suspend two 
key components of the regulations.
    Let me say as a driver, those two provisions limiting the 
34-hour restart to once per week and requiring two consecutive 
1 a.m. to 5 a.m. rest periods go a long way in preventing 
fatigue.
    Actually, the Teamsters Union went to court over driving 
time and the 34-hour restart provision. In fact, the Union felt 
so strongly that the 34 hours did not provide adequate rest, 
that a majority of our members covered through a MOU with our 
employers are not subject to the 34-hour restart provision.
    Other Teamsters' members like me, however, do operate under 
the restart provision, but if it is used once a week, every 168 
hours, it goes a long way in combating driver fatigue.
    Without this limitation, the driver's hours can be 
increased from the current 70 to 80 hours per week, twice the 
normal 40 hour work week, and the 34-hour restart is 14 hours 
short of the normal weekend that most workers have off to rest 
and tend to personal business. Imagine returning to work on 
Sunday afternoon instead of Monday morning. That is what truck 
drivers face with the 34-hour restart.
    Suspending the consecutive rest periods of 1 a.m. to 5 a.m. 
is an equally dangerous step. Studies have shown that back-of-
the-clock work is more tiring and can lead to cumulative 
fatigue. The consecutive rest periods are designed to give 
drivers rest during their regular circadian rhythm. We oppose 
suspending the rest period and restart provisions.
    The Teamsters Union supports the Safe Highway and 
Infrastructure Preservation Act or SHIPA. This legislation 
essentially takes a snapshot of what states currently permit 
and freezes those weights and lengths. We believe this action 
will improve safety and protect our infrastructure.
    The total stopping distance for an 80,000 pound truck 
traveling at 65 miles an hour is 525 feet, compared to 316 feet 
for a passenger car. Imagine judging those distances in 
congested traffic. Bigger, heavier trucks cause greater wear on 
highways; likewise, entrance and exit ramps are not designed 
for longer, heavier trucks, and it may cause issues for drivers 
attempting to get up speed in order to merge.
    Thirty-three foot trailers will only add to safety 
concerns. Side swipes are the second most common accident at 
UPS. Those extra ten feet increase blind spots, further 
aggravating the problem.
    The claim that increasing truck weights will result in 
fewer trucks on the road is unfounded. Each time there has been 
an increase in truck weight, truck traffic has grown, as 
shippers take advantage of cheaper rates and divert freight 
from rail to trucks.
    Due to a shortage of qualified drivers, safety standards 
and training have been on the decline. I see many companies are 
just trying to put a body in the seat. They want the CDL 
certified driver but without the proper training. Companies are 
buying vehicles with automatic transmissions and telling new 
drivers they can operate these rigs like cars, but these are 
not cars, they are vehicles with distinct stopping and 
maneuvering characteristics.
    At UPS, we are fortunate enough to have a strong training 
program for our new drivers, and we have a discretion on how 
long that training period link should be. My job now is to 
train new hires. All of these guys have previous driving 
experience but some find the safety training too difficult and 
drop out. The classroom training is 20 hours and up to a week 
on the road with a trainer teaching defensive driving 
techniques to keep them out of accidents.
    Not all companies have this type of dedication to safety 
and training, but it should be mandatory. The driver shortage 
is definitely affecting the quality of applicants. These days 
we are seeing younger drivers with limited experience being 
hired.
    In conclusion, the IBT is committed to keeping our drivers 
and all others with whom they share the road safe. This 
committee can help and lead the way as you develop 
transportation policies that recognizes and addresses the 
challenges ahead.
    The Teamsters Union looks forward to working with you to 
help grow a transportation network that meets the future needs 
of this country, move freight efficiently, and reduce the risk 
of accidents and improve the safety of our Nation's highways.
    Mr. Chairman, thank you for the opportunity to appear here 
today, and I will be happy to answer any questions from you or 
other members of the Subcommittee.
    [The prepared statement of Mr. Dawson follows:]

           Prepared Statement of William G. ``Jack'' Dawson, 
                 International Brotherhood of Teamsters
    Chairman Blumenthal, Ranking Member Blunt, and Members of the 
Subcommittee:

    My name is William G. ``Jack'' Dawson. I have been a professional 
truck driver for 32 years. For the last 15 years, I have been an 
employee of United Parcel Service (UPS) in Dallas, Texas where I 
currently serve as a shop steward for Teamsters Local 745 and as a 
safety trainer for new employees, post-accident drivers, and annual 
training in the Smith System for Driver Improvement. I am here today 
representing the 1.4 million members of the International Brotherhood 
of Teamsters (IBT), particularly some 600,000 members who daily perform 
jobs along America's roadways. These hardworking men and women deserve 
to have a workplace that is as safe as any office in America yet, they 
must contend with crumbling roads, long hours, bigger trucks, 
increasing congestion, insufficiently trained drivers, and in many 
cases poor compensation--all of which add pressure to an already 
stressful occupation. In order to protect all individuals who utilize 
American roads, Congress must commit itself to providing safe, reliable 
highways by passing a long-term, 6-year transportation reauthorization 
bill that addresses these issues and those outlined below.
    Due to a lack of proper investment, American highways are 
crumbling. Poor road conditions lead to delayed shipments and lost 
economic opportunities. We are falling behind in the global economy and 
cannot afford to allow our infrastructure to degrade any further if 
America is to stay competitive. A 6-year bill will provide the 
certainty necessary to help rebuild our roads and bridges and improve 
safety. Reauthorization must also consider policy issues that improve 
highway safety and protect those who travel our Nation's roads.
Hours-of-Service Regulations
    Commercial Motor Vehicle operators endure many pressures while 
driving and already work long hours. We cannot afford to add to driver 
fatigue by rolling back hours-of-service regulations which were 
carefully crafted over the course of more than two decades of 
rulemaking, several court challenges, thousands of pages of research 
and studies on proper sleep habits, rest periods, fatigue, and the best 
ways to ensure that truck drivers operate safely on our highways. No 
stakeholder is entirely satisfied with the final rule, but with any 
regulation, the Federal Motor Carrier Safety Administration strived to 
strike a fair balance that maintains a safe work environment for 
drivers and yet isn't overly burdensome to the operations of motor 
carriers. Initially, the Teamsters Union had gone to court over the 
increase in driving time from 10 to 11 hours and took issue with the 
34-hour restart provision. In fact, the union felt so strongly that 34 
hours did not provide adequate rest, that a majority of our members 
covered under our National Master Freight Agreement (NMFA) are not 
subject to the 34-hour restart provision. A Memorandum of Understanding 
was signed by the signatories to the NMFA that prohibits those 
companies from subjecting their drivers to the restart provision. With 
that exception, other Teamster members do operate under the restart 
provision, but its use once a week versus continually goes a long way 
in combating driver fatigue.
    We have seen recently the effects of exhaustion by pushing drivers 
to the limits of the hours-of-service regulations. The high-profile 
accident in June which injured actor-comedian Tracy Morgan brought to 
the public's attention the danger of tired sleep deprived truck drivers 
operating 80,000 lb. rigs on our highways. The driver of a Walmart 
tractor trailer fell asleep and rammed into the limousine bus carrying 
Morgan and his entourage, causing 1 fatality and seriously injuring the 
actor as well as 3 others. Despite countless other fatal accidents 
involving fatigued drivers, this one accident shined a spotlight on the 
issue of compliance with HOS regulations and driver fatigue. The driver 
admitted that he had been awake for the previous 24 hour period and 
that he fell asleep just prior to hitting Morgan's bus. According to 
the National Transportation Safety Board's (NTSB) preliminary report, 
the truck driver was just 28 minutes shy of the maximum 14-hour on-duty 
period when the collision occurred and had he reached his destination, 
likely would have exceeded his maximum on-duty limit.\1\
---------------------------------------------------------------------------
    \1\ National Transportation Safety Board (NTSB), Highway 
Investigation Preliminary Report (NTSB, 2014), http://www.ntsb.gov/
investigations/fulltext/HWY14MH012_preliminary.html.
---------------------------------------------------------------------------
    Four days earlier, during a subcommittee markup, Senator Susan 
Collins (R-ME) offered language to the FY 2015 Transportation HUD 
Appropriations bill which would suspend two critical elements of the 
HOS regulations that help mitigate driver fatigue, especially 
cumulative fatigue. Unfortunately, the Collins amendment was adopted in 
committee. One provision suspends the current limitation on the use of 
the 34-hour restart provision, while the other suspends the mandated 
two consecutive 1 a.m. to 5 a.m. rest periods. Limiting the restart to 
once every 168 hours plays a key role in holding down the number of 
hours that a driver can work in a week. Without this limitation, the 
number of hours that a driver can work is increased from the current 70 
hours per week to 80 hours per week--twice the number of hours that 
most Americans work in a week's time. And the 34-hour restart is 14 
hours short of the normal weekend that most workers have off to rest, 
recuperate and tend to personal business. Most of us cherish our 
weekend--those 2 days off that we can spend with our families but 
imagine returning to work on a Sunday afternoon instead of Monday 
morning. That's what truck drivers face with the 34-hour restart.
    What you may not know about truck drivers is that it is exceedingly 
difficult to have any sort of normal schedule. When we aren't on the 
road where we are away from our homes and families, we may still be on 
call. At UPS, when I am not acting as a trainer, I am subject to duty 
as a driver in a group called the ``extra board.'' I am required to be 
available to answer the phone at midnight, 5 a.m., 10 a.m., 1 p.m., 6 
p.m., and 8 p.m. should I be needed to complete a run. These schedules 
don't exactly allow for stability and the long hours we drive can wear 
you down. The one tool we have at our disposal to combat the type of 
exhaustion that causes accidents is the hours-of-service regulations. I 
cannot imagine why anyone would want to suspend rules which are in 
place to ensure the safety of everyone on the road by mitigating truck 
driver fatigue.
    Today, our roads are more congested than ever. Drivers have less 
time to make critical decisions on changing lanes and shorter distances 
to slow down or stop. Drivers must be more alert, and driving in 
congested traffic is more stressful and tiring. Yet, without the 
limitation on the restart provision, drivers can be forced to work 
longer and longer hours, putting their safety and that of the public at 
greater risk. The Teamsters Union strongly opposes this proposed change 
in the current restart provision.
    Suspending the required consecutive rest periods of 1 a.m. to 5 
a.m. is an equally dangerous step. Numerous studies have shown that 
back-of-the clock work is more tiring and can lead to cumulative 
fatigue. This consecutive rest period requirement is designed to give 
drivers rest when their body clock tells them they need it most--during 
their regular circadian rhythm. Those advocating for suspending this 
part of the regulation have argued that more trucks will be on the road 
during daylight hours when roads are more congested. That would suggest 
that every truck driver would start his truck at 5:15 a.m. and hit the 
road simultaneously. For the most part, work and delivery schedules 
vary. Not all truck drivers start their work day at the same time. In 
addition, while there is less automobile traffic at night, there are 
also many trucks pulled off the side of the road, in truck plazas, and 
at rest stops, with drivers asleep, mostly because their body clock is 
telling them that they are tired. The 1 a.m. to 5 a.m. provision is an 
important element in defeating cumulative fatigue, and DOT should have 
ample time to study the effects of these regulations, enacted one year 
ago, before any changes are implemented that diminish highway safety.
Truck Size and Weight
    In 2012 it is estimated that more than 3,802 fatalities involving 
trucks occurred.\2\ That number is unacceptably high and the United 
States cannot afford further compromising safety by increasing the 
lengths and weight of commercial vehicles. Increased truck size and 
weight not only causes greater wear on highways but also stress on 
drivers who need greater stopping distances which are hard to judge and 
perform on congested roadways. Likewise, entrance and exit ramps are 
not designed for longer, heavier trucks and may cause issues for 
drivers attempting to get up to speed in order to merge.
---------------------------------------------------------------------------
    \2\ National Highway Traffic Safety Administration (NHTSA), 
Fatality Analysis Reporting System: Fatal Crashes by Vehicle Type 
(Washington, D.C.: NHTSA, 2014), http://www.fars
.nhtsa.dot.gov/Vehicles/VehiclesAllVehicles.aspx.
---------------------------------------------------------------------------
    Map-21 authorized a Comprehensive Truck Size and Weight study to 
examine the effects of bigger heavier trucks on highway safety and the 
infrastructure. That Comprehensive Study is underway, and Congress 
should not be entertaining any individual state or highway exemptions 
or piecemeal special interest exemptions until it sees what the results 
are. To preempt this study Congress would be turning its back on a 
study that it authorized. For these reasons, the Teamsters Union 
opposes the exemptions for Idaho, Wisconsin and Mississippi included in 
the House-passed FY 2015 Transportation HUD Appropriations bill, and 
they should be soundly rejected by the Senate.
    While considering ways to improve highway safety, this Committee 
must also meet the challenges of rebuilding our deteriorating highway 
and bridge infrastructure and meet our country's transportation needs 
of the future. The issues of truck size and weight play a central role 
in that decision-making process. Proponents of heavier trucks claim 
that adding a sixth axle will mitigate highway pavement damage. While 
that may be true if the axle is employed properly, a sixth axle does 
nothing to alleviate the increased weight on our Nation's bridges, half 
of which are more than 40 years old with one-in-four classified as 
structurally deficient or functionally obsolete.
    The claim that increasing trucks weights will result in fewer 
trucks on the road is unfounded. Each time there has been an increase 
in truck weight, truck traffic has grown, as shippers take advantage of 
cheaper rates and divert freight from rail to trucks. Our current 
highway system is not designed for bigger heavier trucks. These trucks 
need longer merge lanes to get up to speed, redesigned on-and-off ramps 
to accommodate longer combination vehicles, and greater stopping 
distances on a highway network that becomes more congested every day. 
The total stopping distance for an 80,000 lb. truck traveling at 55 mph 
is 335 feet compared to 225 feet for a passenger car. At 65 mph, that 
stopping distance for a truck increases to 525 feet versus 316 feet for 
an automobile. As you can imagine, it is very difficult to judge those 
distances in congested traffic.\3\
---------------------------------------------------------------------------
    \3\ National Safety Council's Defensive Driving Course for 
Professional Truck Drivers.
---------------------------------------------------------------------------
    The trucking industry has used its influence in the state 
legislatures to increase both truck weights and trailer lengths on non-
federal highways. That in turn has led to demands from frustrated state 
residents, who don't want to share their local roads with bigger trucks 
to increase truck size and weight on the interstate system, so that big 
truck traffic can be diverted from state roads that aren't equipped to 
handle it.
    The Teamsters Union continues to support the Safe Highways and 
Infrastructure Preservation Act, or SHIPA. This legislation extends the 
current state and Federal weight limits on the Interstate system to the 
non-Interstate highways on the National Highway System and prohibits 
further increases. The legislation recognizes and protects the states' 
existing grandfathered rights to allow certain differences in truck 
axle and gross weights than the maximum weight allowed in Federal law. 
It essentially takes a ``snapshot'' of what states currently permit and 
freezes those weights and lengths. We believe this action will improve 
safety and protect our infrastructure investment.
Comprehensive Truck Size and Weight Study
    The Teamsters Union, along with other safety community 
stakeholders, has been working with the Department of Transportation to 
address significant deficiencies and weaknesses in the process and 
methods used to conduct the Comprehensive Truck Size and Weight study 
mandated by MAP-21. This study to determine the impact of longer 
heavier trucks on safety and infrastructure will be the authoritative 
document on this issue for the next decade. It will guide many of the 
policy decisions that Congress makes in this area for years to come. 
For that reason, we have asked that significant issues raised by the 
Transportation Research Board Peer Review Committee and us be 
immediately addressed before the study moves forward.
    Unfortunately, the provision mandated that the study be completed 
in a two-year period. The last truck size and weight study took six 
years to complete, and so, from the beginning, DOT was under extreme 
time limitations to finish the study. As a result, the agency has taken 
numerous shortcuts that have added to the questionable process and 
expected results.
    DOT has failed to meet mandatory deadlines imposed by Congress on 
dozens of regulatory proceedings and other studies. Why the agency has 
chosen this particular study to meet its deadline requirements is 
questionable.
    The DOT study is not considering the effects of Turnpike Doubles or 
Rocky Mountain Doubles on our highways. These are the most common 
longer combination vehicles on our highways, especially in the east. 
Instead, DOT is examining triple trailers which operate in a limited 
number of states (13) in the west under very different driving and 
highway conditions than in other parts of the country, especially the 
east coast. You can't compare driving on Interstate 95 in Virginia or 
the Capital Beltway where there are exits every mile and heavy 
congestion with a four-lane highway in Montana where traffic is lighter 
and exits are more spread out. Yet, the data gathered in the study may 
be used to potentially justify longer, heavier trucks. Another issue is 
that there has been no attempt to obtain input from drivers. Who better 
knows about the operation of these trucks than the drivers themselves?
    The study is also taking a static picture of freight volume and not 
accounting for the enormous freight increase projected for the future. 
The Federal Highway Administration predicts a 48 percent freight 
tonnage increase by 2040. And the study is predicated on the false 
assumption that bigger, heavier trucks will mean fewer trucks on the 
highway. The more freight you can put on one truck, the cheaper it 
becomes compared to rail and other modes. More freight will be diverted 
to trucks, which means more, not fewer trucks on the road. 
Historically, that's exactly what has happened every time there has 
been an increase in truck size and weight.
Vehicle Stability Systems/Advanced Safety Technologies
    While avoiding fatigue in drivers and preventing bigger, heavier 
trucks from operating on our Nation's roads is important to ensuring 
highway safety, it is equally important that the vehicles truck drivers 
operate have the necessary safety equipment installed. Equipping trucks 
with the latest safety technologies will eventually help reduce truck 
crashes. Brake Stroke Monitoring Systems, Vehicle Stability Systems, 
Lane Departure Warning Systems and Collision Warning Systems are all 
devices that can help drivers avoid accidents. However, it is important 
to provide the proper training so that these systems are not a 
distraction to the driver, that the driver understands the warning 
signal(s), knows what evasive action to take, and the driver does not 
overcompensate or defeat the assistance of the device. These systems 
must be used for the purpose for which they are designed and not as a 
tool to harass the driver.
Training
    Due to a shortage of qualified drivers, safety standards and 
training have been on the decline. From what I have seen, many 
companies are just trying to put a body in the seat--they want the CDL 
certified driver without the proper training. These companies are 
outfitting vehicles with automatic transmissions and telling new 
drivers to operate the rigs like a car--but these aren't cars, these 
are vehicles with long stopping distances that are complicated to 
maneuver.
    At UPS, we are fortunate enough to have a strong training program 
for our new drivers. And our local union gives us discretion as to how 
long that training period length should be. Additionally, we require 
all drivers to have a retraining period annually. Most of my time 
lately has been spent working with new hires. All of these guys have 
previous driving experience but many drop out after a day of training 
because they think it's too hard. Our training program includes 16 to 
24 hours, depending on skill level, behind the wheel with the trainee 
teaching them defensive driving techniques to keep them out of an 
accident. Not all companies have this type of dedication to safety and 
training, but it should be mandatory.
    Expanded training for all motor carriers helps to promote safe 
roads and there should be money available to properly train the drivers 
who transport goods and people. The Administration's bill, The GROW 
AMERICA Act, establishes a grant program that provides funds for 
commercial motor vehicle driver training which the Teamsters 
wholeheartedly support as a necessary means to increase the number of 
safe truck drivers on the road.
Detention Time
    The driver shortage may also be derived from the poor compensation 
and working conditions that truckers receive. The Bureau of Labor 
Statistics estimates that the average yearly salary for a full time 
truck driver is $36,970. When considering the long, stressful, and 
erratic work schedules these drivers have, the compensation drivers 
collect may not be enough to attract new drivers to the industry. 
Detention times especially may cut into the pay a truck driver 
receives. The prospect of drivers waiting long periods to have their 
trailers loaded or unloaded at shipping and receiving facilities is 
becoming more the norm rather than the exception. For the most part, 
Teamster drivers are compensated for the time they are left waiting, 
and for that reason, detention time is not as prevalent in the union 
trucking sector. Unfortunately, that is not the case with owner-
operators or non-union drivers. The longer they wait, the more time 
they lose in on-duty time, which can then effect the time they have 
left to drive. Drivers then feel pressured to drive beyond their Hours-
of-Service limits, risking highway safety by driving fatigued. Those 
fatigued drivers are then sharing the road with our members. A 
Government Accountability Office study from 2011 indicated that about 
80 percent of the drivers who are ``detained'' indicated that detention 
time impacts their capability to comply with Hours-of-Service 
regulations.\4\
---------------------------------------------------------------------------
    \4\ Government Accountability Office, Commercial Motor Carriers: 
More Could Be Done to Determine Impact of Excessive Loading and 
Unloading Wait Times on Hours of Service Violations (DC: Government 
Accountability Office, 2011), http://www.gao.gov/assets/320/315297.pdf.
---------------------------------------------------------------------------
    Reasons for detention time vary, from lack of sufficient loading 
facilities to products not being ready for shipment. Whatever the 
reason, drivers suffer the consequences--reduced driving time and lost 
revenue for drivers and carriers.
    The Teamsters Union was pleased that the Administration's bill, the 
GROW AMERICA Act, attempts to address the problem of detention by 
authorizing the Secretary to require property and passenger motor 
carriers to compensate drivers under certain circumstances for on-duty 
(not driving) periods at no less than the minimum wage. This may 
encourage shipping and receiving facilities to create better 
efficiencies, but it doesn't fully solve the problem. Those drivers 
that are independent owner operators, for example, have no employer to 
pay them for detention time. These are sometimes the drivers who 
experience the longest delays. Especially in the ports, whether they 
are misclassified independent owner-operators or employees of motor 
carriers, drivers line up and can wait for hours to pick up a 
container. While we are encouraged by the Administration's proposal, 
the Teamsters Union would suggest that the Administration find some way 
to cover all drivers including independent owner-operators and that the 
Secretary ``shall'', not ``may'' by regulation require motor carriers 
to compensate drivers at not less than the minimum wage for detention 
time.
Hair Testing
    Improving truck safety includes keeping drivers who are unfit for 
duty off the road which includes testing drivers for substance abuse. 
The method of drug and alcohol testing using hair presents some 
interesting challenges for the trucking industry. While not necessarily 
linking the use of drugs and alcohol to impairment, it does give 
prospective employers the opportunity to identify those prospective 
drivers that may show a proclivity to abuse drugs. For that reason, we 
could support the use of hair testing for drug use in pre-employment 
testing if the science supports this method of testing and is certified 
by the Department of Health and Human Services. Since there are 
numerous questions about racial bias, hair color bias, effect of hair 
treatments, privacy issues and certain patented processes for testing, 
we would strongly oppose any end-around approval of this method of 
testing by congressional action, without the express approval of this 
method by the agencies designated to properly review and evaluate this 
testing procedure through the regulatory process.
Mexico Cross-Border Trucking Pilot Program
    Out of concern for roadway safety in the United States, the 
International Brotherhood of Teamsters has consistently been opposed to 
broadly opening our Nation's highways to Mexico domiciled trucking 
companies until we can be assured that Mexican trucks and drivers meet 
U.S. safety standards and can operate safely on our highways As the 
Mexican Cross-Border Trucking Pilot Program approaches a three-year 
statutory limitation in October, the IBT is concerned about the data 
collected during the program's duration and the potential use of the 
data in justifying an opening of the border to all Mexico domiciled 
motor carriers. In the three years of the pilot program, the Federal 
Motor Carrier Safety Administration (FMCSA) has had difficulty 
obtaining the number of participating companies and data the agency 
originally indicated would be necessary for accurate results. The DOT 
Inspector General estimated that at least 46 carriers would be needed 
to obtain a target of 4,100 inspections within 3 years to provide a 
statistically valid analysis of program participants' safety 
performance. With only three months to go in the study, there are only 
13 participants, mostly very small carriers with one or two trucks and 
one or two drivers. This is not a representative sample of the Mexican 
trucking industry. And, while FMCSA has exceeded the number of 
inspections needed by approximately 1,000, 84 percent of the 
inspections come from only 2 trucking companies. Before we grant 
Mexican trucking companies broader operating authority, FMCSA and 
Congress must ensure that statistically valid data supports that 
action.
    The Teamsters Union is also very concerned about the provision in 
the GROW AMERICA Act that removes the requirement that certain safety 
audits and compliance investigations of Mexico-domiciled motor carriers 
be conducted on-site in Mexico. While we can appreciate the DOT's 
concern for safety of its personnel, in light of State Department 
travel warnings and alerts for the safety and security of Agency 
personnel, an on-site visit can reveal much more about the safety 
culture of a motor carrier than simply reviewing a stack of paperwork. 
Maintenance and repair facilities can be examined, for example, along 
with personal observations that agency personnel can make seeing 
drivers and their trucks first hand. The fact that the lives of agency 
personnel may be in danger by conducting on-site visits to Mexico-
domiciled motor carriers perhaps answers another question as to why 
U.S. motor carriers have not taken advantage of the reciprocity of the 
pilot program. This suggested shortcut does nothing to enhance the 
safety of Mexico-domiciled carriers and drivers.
Minimum Insurance for Motor Carriers
    For too long, the minimum insurance for motor carriers has remained 
at $750,000. Since that standard was passed 34 years ago, the minimum 
insurance would need to be increased to $4.4 million to keep up with 
the inflation of medical costs and property damage. Accidents involving 
motor carriers and passenger vehicles can easily reach into the 
millions of dollars. The Teamsters support a bill introduced by Rep. 
Matt Cartwright to raise liability coverage to $4,422,000 and index it 
to inflation of medical costs to prevent any future degradation of 
value.
National Hiring Standard for Motor Carriers
    The Teamsters Union has serious concerns about legislation that has 
been introduced in the House of Representatives, H.R. 4727, to create a 
National Hiring Standard for Motor Carriers. While we appreciate the 
concern and frustration that shippers and brokers experience in 
different states in determining what constitutes a safe motor carrier, 
the legislation is overly broad in that it imposes no liability at all 
for negligent selection of a motor carrier or ``a claim or cause of 
action related to negligent selection under state or Federal law, which 
seems to broaden the potential scope of the exemption from liability. 
We are not aware of any situation in which Congress has simply banned 
states from imposing liability where there is no corresponding Federal 
remedy for the potential injury. While there are insurance coverage 
mandates in most states, there can be and are circumstances in which 
coverage either doesn't exist or is inadequate. We fail to see how this 
legislation would contribute to any increase in motor carrier or 
highway safety. Merely relying on the Department of Transportation's 
(DOT) safety rating system in hiring a motor carrier should not 
necessarily excuse anyone from liability in the event of an accident. 
DOT has many other data bases that provide information concerning the 
safety record of motor carriers that can be utilized
Safety Standards for Commercial Motor Vehicle Drivers
    The primary mission of the FMCSA is to prevent Commercial Motor 
Vehicle (CMV)-related fatalities and injuries. There should be a 
reasonable expectation that the regulations, especially regulations 
designed to improve the safety and health of workers/drivers and the 
public not have an adverse effect on drivers. While there are many 
provisions of the Administration's GROW AMERICA Act that we support, 
the Teamsters Union disagrees with the Administration's proposal to 
change the minimum safety standards regulations regarding the physical 
condition of motor carrier operators. The Administration claims that 
``virtually all occupations have some deleterious effect on the 
physical condition of those employed and the effects of the job are 
often difficult to separate from the effects of personal behavior, 
aging or even genetic disposition,'' are at odds with the position of 
most competent health and safety experts. Most experts agree that 
virtually all occupations have work-related hazards that have the 
potential to cause work-related illnesses or injuries, if such hazards 
are not eliminated or controlled. Any rulemaking to control such 
hazards must consider factors such as age, genetic disposition, etc., 
to ensure that the rule is protective for most exposed workers. The 
change to the CMV safety standard language requiring that the work not 
have a ``significantly adverse effect on the physical condition of the 
operators'' does very little to eliminate the debate on the issue. How 
is ``Significantly adverse effect'' defined? This is a solution in 
search of a problem. And this proposed change will cause many to think 
that the standard is significantly less stringent.
Financial Reporting
    The IBT also disagrees with the Administration's repeal of 
financial reporting in the motor carrier title of the GROW AMERICA Act. 
One section of the financial reporting form includes maintenance and 
vehicle parts costs. The expenditures that carriers make on maintaining 
their fleet may be indicative of their attention to vehicle safety.
    It is unreasonable to claim that reporting is overly burdensome and 
insufficiently useful. The reporting requirements were just revised to 
eliminate quarterly reporting so the carriers already received 
significant relief. Also, we and others use the annual reports to 
assess the state of the industry over time. It's the only valid, 
continuous data source that tracks carrier performance available to the 
public since deregulation. The reports can be manually completed online 
in a matter of minutes and are not arduous due to technological 
improvements. All Class I motor carriers capture these data at least 
annually as part of routine data collection and much, such as miles 
driven info, is often legally required by other reporting systems 
anyway (vehicle use tax, etc.). The problem is the data is not 
available online to the public as it should be--it's an access issue if 
it is not being used. The data is valuable to a whole range of users, 
from academics to insurance companies, and does not expose any trade 
secrets as it currently stands--it has undergone numerous revisions 
over time to eliminate that possibility. Furthermore, motor carriers 
can request confidentiality (competitive harm) if necessary and there 
are several exemptions that have already been thoroughly vetted by 
FMCSA and rulemaking. We believe that FMCSA should beef up enforcement 
and make the data more useful to the public.
Motor Carrier Safety Advisory Committee
    The Teamsters Union supports the provision in the GROW AMERICA Act 
that codifies the obligation of the DOT Secretary to maintain the Motor 
Carrier Safety Advisory Committee (MCSAC). This committee, established 
by provisions in SAFETEA-LU, has allowed stakeholders to provide 
significant expertise to the DOT on a variety of issues. The current 
makeup of the Committee is balanced, and this provision identifying 
specific stakeholders to be represented on the panel will ensure that 
all sectors of the industry have a voice in advising the Department on 
vital motor carrier safety issues.
Conclusion
    Our members, through collective bargaining, receive better, 
extended training, more favorable duty periods, and the ability to 
refuse to operate a vehicle that is not in a safe operating condition 
which ultimately reduces risks and increases safety. In fact, a 2012 
study entitled Safety Performance Differences between Unionized and 
Non-union Motor Carriers concluded that Union Membership has a positive 
impact on safety and results in fewer crashes compared to non-union 
carriers. Clearly, the IBT is committed to keeping our drivers and all 
others with whom they share the road safe. This Committee can help lead 
the way as you develop transportation policy that recognizes and 
addresses the challenges ahead. The Teamsters Union looks forward to 
working with you to help grow a transportation network that meets the 
future needs of this country, moves freight efficiently and reduces the 
risks of accidents and improves the safety of our Nation's highways.

    Senator Blumenthal. Thank you, sir.
    Mr. Osiecki?

         STATEMENT OF DAVID J. OSIECKI, EXECUTIVE VICE

           PRESIDENT AND CHIEF OF NATIONAL ADVOCACY,

                 AMERICAN TRUCKING ASSOCIATIONS

    Mr. Osiecki. Chairman Blumenthal, Ranking Member Blunt, 
Subcommittee members, I am Dave Osiecki, Chief of Advocacy for 
the American Trucking Associations. ATA, as you may know, is 
the largest trade association for the trucking industry. We 
represent more than 30,000 carrier members. Thanks for this 
opportunity, and I would ask that my full statement be made 
part of the record.
    Senator Blumenthal. Without objection.
    Mr. Osiecki. Thank you. The trucking industry places safety 
at the top of its priority list. Our industry actually spends 
more than $7.5 billion annually on safety, and that investment 
is making a difference.
    Over the past decade, the number of large trucks involved 
in fatal crashes has dropped by 17 percent, even with the 
industry operating an additional 2.7 million trucks, operating 
an additional 54 billion miles. More trucks, billions more 
miles, fewer crashes.
    As mentioned at the outset, however, over the last three 
years, we have seen increasing crashes over the historic lows 
in 2009 during the recession. We must refocus our efforts to 
maintain the longer term positive safety trend.
    Refocusing our collective efforts, industry, Federal, and 
state efforts require a better lens through which to view 
safety. That lens must better focus on the primary causes of 
truck involved crashes and our collective investment must 
center on countermeasures aimed at those primary causes.
    There has been tremendous focus by government on hours-of-
service rules in recent years, despite the fact that fatigue 
causes about ten, perhaps less than ten percent of truck 
crashes. Significant truck safety improvements will require 
greater focus on the cause of the other 90 plus percent of 
crashes.
    Driver error causes most crashes. I think we have probably 
all heard that. More specifically, driver mistakes and driver 
misbehaviors, by both professional drivers and passenger 
vehicle drivers. In fact, car drivers contribute significantly 
to truck crashes.
    If the regulatory enforcement and safety program lens is 
focused properly on the most common mistakes and misbehaviors 
by all involved in the safety equation, big safety gains are 
achievable.
    The leading factor in crashes, that is the most common 
misbehavior causing both car and truck crashes is vehicle 
speed. Yet, our regulatory and enforcement apparatus largely 
turns a blind eye. In 2006, about 8 years ago, ATA and another 
safety group petitioned FMCSA and NHTSA to issue a rule 
electronically limiting the top speed of large trucks. Neither 
FMCSA nor NHTSA has issued a proposed rule requiring speed 
limiters.
    In lieu of working on the hours-of-service regulation, in 
2010, ATA lobbied FMCSA and DOT to first focus on implementing 
electronic logging devices industry-wide. They chose not to.
    While the rulemaking process is now underway on ELDs, it 
will be several years until full implementation. We would like 
an electronic logging device rulemaking yesterday, and it will 
address the misbehaviors of some drivers exceeding the driving 
limits.
    NHTSA's upcoming vehicle based stability control rule for 
new large trucks is another rule that will save lives because 
it will mitigate driver mistakes. We hope that rule is 
forthcoming sooner rather than later.
    Shifting to enforcement, FMCSA's 2013 program effectiveness 
report found that on road traffic enforcement activity, that 
which focuses on truck driver misbehaviors, is at least four 
times more effective at preventing crashes than roadside 
vehicle inspections. Those focus mainly on vehicle components 
and defects. Vehicle defects cause less than 10 percent of 
crashes.
    In almost 90 percent of the Federal/state on-road traffic 
and on-road enforcement activity under MCSAP is directed to 
vehicle inspections. More effective traffic enforcement 
activity, that activity directed toward unsafe driving behavior 
by commercial drivers, represents only 10 percent of the MCSAP 
on road traffic enforcement activity. This type of enforcement 
has declined dramatically over the last 4 years. Again, the 
lens needs a better focus in our view.
    Quickly, turning to technology. It is clearly a big part of 
the safety solution in our view. Properly focused rules and 
enforcement can achieve only so much. Accelerated adoption of 
active safety technologies in both trucks and cars can lead to 
even larger highway safety improvements--collision mitigation, 
active braking systems, exception based video camera 
technologies and others hold great promise.
    Trucking fleets are adopting many of these, and adoption 
can be accelerated with meaningful incentives. This is an idea 
on which ATA and CVSA are fully aligned. We hope and trust 
FMCSA agrees.
    Mr. Chairman, thank you for the opportunity to offer our 
views on how the safety lens should be better focused to 
improve truck safety. We can do more. We know that. It needs to 
be the right ``more.'' Better targeted rules, even more 
effective enforcement, and more quick deployment of active 
safety technologies. That will result in meaningful safety 
gains.
    Thanks, and I look forward to your questions.
    [The prepared statement of Mr. Osiecki follows:]

 Prepared Statement of David J. Osiecki, Executive Vice-President and 
       Chief of National Advocacy, American Trucking Associations
Introduction
    Chairman Blumenthal, Senator Blunt, members of the Subcommittee, my 
name is Dave Osiecki, and I am the Chief of National Advocacy for the 
American Trucking Associations (ATA). ATA is the national trade 
association for the trucking industry and is a federation of affiliated 
State trucking associations, conferences, and organizations that 
together have more than 30,000 motor carrier members representing every 
type and class of motor carrier in the country. Thank you for the 
opportunity to testify.
    Today, I will speak about the trucking industry's safety record and 
measures ATA supports to continue the industry's long-term, positive 
safety trend. I will also talk about a fundamental change in the 
government's approach to truck safety enforcement that is needed to 
make further, significant gains in truck safety. To bring about further 
meaningful improvements will require an acknowledgement of the 
principle causes of truck crashes and a commitment to making 
appropriate countermeasures the highest priority.
    In addition, I will discuss some of the trucking industry's views 
on regulatory issues such as hours of service, electronic logging 
devices, and FMCSA's safety monitoring, measurement, and enforcement 
prioritization system: Compliance, Safety, Accountability (CSA). These 
issues have been the focus of much attention recently, so it is 
important to clarify the industry's views on them. Finally, I will 
discuss some of the many industry-supported safety initiatives, such as 
the recently proposed drug and alcohol clearinghouse.
The Industry's Safety Commitment and Safety Record \1\
---------------------------------------------------------------------------
    \1\ 2012 is the most recent year for which such data are available.
---------------------------------------------------------------------------
    The trucking industry places both driver safety and public highway 
safety at the top of its priority list each and every day. In fact, ATA 
conservatively estimates the trucking industry spends at least $7.5 
billion per year on safety. As a result, the industry has an impressive 
safety record and is near its safest point in history. For example:

  <bullet> The truck-involved fatality rate has decreased 74 percent 
        since 1975, the first year the U.S. Department of 
        Transportation (DOT) began keeping records.\2\
---------------------------------------------------------------------------
    \2\ Large Truck and Bus Crash Facts 2012, Trends chapter, Tables 4, 
page 7, Federal Motor Carrier Safety Administration, Washington, D.C. 
http://www.fmcsa.dot.gov/sites/fmcsa.dot.gov
/files/docs/Large-Truck-Bus-Crash-Facts-2012.pdf.

  <bullet> From 2002 to 2012, the number of truck-involved fatalities 
        fell by 21 percent and the number of truck-involved injuries 
        fell by 20 percent.\3\
---------------------------------------------------------------------------
    \3\ Large Truck and Bus Crash Facts 2012, Trends chapter, Tables 4 
& 7, pages 7 and 13, Federal Motor Carrier Safety Administration, 
Washington, D.C. http://www.fmcsa.dot.gov/sites/fmcsa.dot.gov/files/
docs/Large-Truck-Bus-Crash-Facts-2012.pdf.

  <bullet> From 2002 to 2012, the truck-involved fatality rate per 100 
        million vehicle miles traveled dropped 37 percent \4\
---------------------------------------------------------------------------
    \4\ Large Truck and Bus Crash Facts 2012, Trends chapter, Tables 4, 
page 7, Federal Motor Carrier Safety Administration, Washington, D.C. 
http://www.fmcsa.dot.gov/sites/fmcsa.dot
.gov/files/docs/Large-Truck-Bus-Crash-Facts-2012.pdf.

  <bullet> In actual numbers, there were 1,018 fewer fatalities in 2012 
        than in 2002--very good progress in light of the trucking 
        industry operating 2.7 million additional trucks and 54 billion 
        more miles in 2012 (compared to 2002).\5\
---------------------------------------------------------------------------
    \5\ Ibid.

  <bullet> The truck-involved injury rate has decreased 59 percent 
        since 1988, the first year USDOT began keeping records.\6\
---------------------------------------------------------------------------
    \6\ Large Truck and Bus Crash Facts 2012, Trends chapter, Tables 7, 
page 13, Federal Motor Carrier Safety Administration, Washington, D.C. 
http://www.fmcsa.dot.gov/sites/fmcsa.dot
.gov/files/docs/Large-Truck-Bus-Crash-Facts-2012.pdf.

  <bullet> Over the past decade alone, the truck-involved injury rate 
        dropped by 31 percent.\7\
---------------------------------------------------------------------------
    \7\ Ibid.

    Despite these long-term trends and safety accomplishments, the 
trucking industry knows it can continue to improve its highway safety 
performance, and works daily to reduce its share of the larger crash 
---------------------------------------------------------------------------
problem on our highways.

    Note: The Federal Highway Administration (FHWA) implemented an 
enhanced methodology for estimating registered vehicle miles traveled 
by vehicle type beginning with data from 2007. As a result, involvement 
rates may differ, and in some cases significantly, from earlier years.
Some May Try to Distort Trucking's Safety Record
    Despite the industry's safety accomplishments, industry critics 
continue to use selective figures in an attempt to paint a far 
different picture. Sometimes they do so to justify inappropriate or 
unnecessary policy changes. Here's an example:
    Like the stock market, highway safety trends can rarely be depicted 
with straight lines. There is always some short term variability. 
Looking at the long term, however, it is clear to see what is taking 
place. However, industry critics choose a portion of that period, 
2009--2012 as an example, in an attempt to create a different 
perception.
    As the chart below reflecting truck related fatalities over the 
last decade shows, focusing on the most recent three years is 
misleading since the drop in truck related fatalities from 2007-2009 
was unusually steep (in part due to the economic recession) and since a 
selective focus on the three years since then ignores the long term 
safety picture.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    The suggestion that the recent figures point to some sort of truck 
safety crisis is not only wrong, as demonstrated by the trucking 
industry's long term safety record, but ignores what the National 
Highway Traffic Safety Administration has said about these figures:

        ``Note that the number of fatal crashes involving large trucks 
        is relatively small, so such variability in the number of 
        fatalities is not unexpected.'' \8\
---------------------------------------------------------------------------
    \8\ 2012 Motor Vehicle Crashes Overview, National Highway Traffic 
Safety Administration, Washington, D.C. 2014, http://www-
nrd.nhtsa.dot.gov/Pubs/811856.pdf.

    The focus on large truck related fatalities alone ignores the fact 
that the long term drop in truck-related fatalities has occurred 
despite the increase in exposure. To accurately measure whether or not 
roadways are getting ``safer'' from one year to the next, analysts must 
put raw crash numbers in the context of some exposure measure, such as 
miles driven (e.g., crashes per 100 million vehicle miles traveled). 
This is the generally accepted measure used by highway safety 
professionals. For example, it would be foolish to contend that trucks 
operating in Delaware are somehow safer than those operating in 
California because there are fewer truck crashes in Delaware. There are 
far more trucks traveling many more miles in California than in 
Delaware. To make a meaningful comparison, we must compare these states 
in terms of miles driven.
    This sort of comparison from year to year on a national level 
reveals some meaningful and significant observations. Specifically, 
though the number of truck-related fatalities has dropped 21 percent 
over the past decade (2002--2012), the decline in the large truck 
fatality rate is even steeper. Moreover, from 2002--2012 the truck-
involved fatality rate per 100 million vehicle miles traveled dropped 
37 percent.\9\
---------------------------------------------------------------------------
    \9\ Large Truck and Bus Crash Facts 2012, Trends chapter, Tables 4, 
page 7, Federal Motor Carrier Safety Administration, Washington, D.C. 
http://www.fmcsa.dot.gov/sites/fmcsa.dot.gov
/files/docs/Large-Truck-Bus-Crash-Facts-2012.pdf.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Also, according to a recent FMCSA report,\10\ consistent with other 
research on the subject,\11\ 70 percent of fatal crashes involving a 
large truck and a passenger vehicle are initiated by the actions of 
passenger vehicle operators. For instance, large trucks are three times 
more likely to be struck in the rear in two-vehicle fatal crashes.\12\ 
Also, in 91 percent of fatal head-on collisions between a large truck 
and a passenger vehicle, the passenger vehicle crossed the median into 
the truck's lane of travel.\13\ Moreover, large trucks have an overall 
crash rate almost half that of other vehicles.\14\
---------------------------------------------------------------------------
    \10\ Financial Responsibility Requirements for Commercial Motor 
Vehicles, See Footnote 2, page xii, Federal Motor Carrier Safety 
Administration, Washington, D.C., January 2013. http://
www.fmcsa.dot.gov/sites/fmcsa.dot.gov/files/docs/Financial-
Responsibility-Study.pdf
    \11\ Relative Contribution/Fault in Car-Truck Crashes, American 
Trucking Associations, Arlington, VA, February, 2013.
    \12\ Traffic Safety Facts 2012 Data: Large Trucks, National Highway 
Traffic Safety Administration, http://www-nrd.nhtsa.dot.gov/Pubs/
811868.pdf
    \13\ Large Truck and Bus Crash Facts 2012, Vehicle chapter, Tables 
9, page 60, Federal Motor Carrier Safety Administration, Washington, 
D.C. http://www.fmcsa.dot.gov/sites/fmcsa.dot.gov
/files/docs/Large-Truck-Bus-Crash-Facts-2012.pdf.
    \14\ Large Truck and Bus Crash Facts 2012, Trends chapter, Tables 
4, 6, 7 9, 10 11, pages 7-21, Federal Motor Carrier Safety 
Administration, Washington, D.C. http://www.fmcsa.dot.gov/sites/
fmcsa.dot.gov/files/docs/Large-Truck-Bus-Crash-Facts-2012.pdf
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Some may also try to distort the long-term truck safety picture by 
telling Congress and the public that large trucks are over-involved in 
fatal crashes. Such statements are purposefully misleading. When large 
truck crashes occur they are generally more severe than light vehicle 
crashes, due to size and weight differences between large trucks and 
passenger vehicles. Trucks are not more likely to be involved in a 
crash, but when such a crash does occur it is slightly more likely to 
result in a fatality. This is the case not because trucks are less 
safe, as some would have you believe, but due to simple Newtonian 
physics.
    The long-term improvement in truck safety is due, in part, to 
industry-supported initiatives. For example, ATA was an early advocate 
of mandatory drug and alcohol testing, the commercial driver's license 
program, a ban on radar detectors in trucks, and the recently proposed 
clearinghouse of drug and alcohol test results. The industry continues 
to promote additional regulatory initiatives that will improve safety, 
such as the mandatory use of electronic logging devices to track hours 
of service compliance, the mandatory use of speed limiters on trucks, 
stability control systems on new trucks, and a national system to alert 
employers of drivers' moving violations in a timely fashion.
    ATA also supports and promotes the voluntary adoption and use of 
cost-beneficial active safety technologies such as collision mitigation 
systems, active braking technologies and video-based systems designed 
to address driver behavior issues.
Continued Improvement Requires a Focus on Crash Causation
    Continued improvements in truck safety require an understanding of 
the causes of truck crashes and a clear, determined focus on 
appropriate countermeasures. Specifically, according to multiple 
studies, data, and other indicators, the vast majority of large truck 
crashes are the result of driver behaviors and errors. Only a small 
percentage of large truck crashes are attributable to vehicle defects.
    FMCSA's Large Truck Crash Causation Study, for example, found that 
driver error was the ``critical reason'' behind 87 percent of crashes 
studied.\15\ Similarly, the Unsafe Driving BASIC in FMCSA's CSA Safety 
Measurement System, which captures moving violations and other unsafe 
driving behaviors, is the measurement category with the strongest 
correlation to crash risk. A recent FMCSA study found that, on average, 
fleets with high scores \16\ in this category have 93 percent higher 
future crash rates than fleets with low scores.\17\
---------------------------------------------------------------------------
    \15\ Report to Congress on the Large Truck Crash Causation Study, 
Federal Motor Carrier Safety Administration, Washington, D.C., November 
2005, http://ai.fmcsa.dot.gov/ltccs/data/documents/
reportcongress_11_05.pdf.
    \16\ High scores in this context means above the threshold for 
enforcement intervention selection which, for most carriers, is set at 
the 65th percentile.
    \17\ Below CSA enforcement intervention selection thresholds.
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Given this knowledge, it is not surprising that other FMCSA data, 
specifically the agency's Safety Program Effectiveness Measurement 
reports, shows that on-road traffic enforcement activity is far more 
effective at preventing future crashes than standard roadside vehicle 
inspection activity. The latter typically involves a vehicle inspection 
to detect component defects and a review of driver's paper work (e.g., 
hours of service records of duty status) and credentials (e.g., license 
and medical examiner's certificate). The former, traffic enforcement, 
consists of on-road monitoring of unsafe driver behavior (e.g., moving 
violations) coupled with some form of inspection activity (e.g., a 
``walk-around'' inspection of vehicle components). FMCSA's data 
reflects that for every 1,000 traffic enforcements 12.05 crashes are 
prevented compared to 2.7 crashes per 1,000 standard roadside 
inspections. Similarly, .41 lives are saved per 1,000 traffic 
enforcements compared with only .09 lives per 1,000 roadside 
inspections. In other words, traffic enforcements are more than four 
times more effective at preventing crashes and saving lives. \18\
---------------------------------------------------------------------------
    \18\ FMCSA Safety Program Effectiveness Measurement: Intervention 
Model Fiscal Year 2009, FMCSA, April 2013, Page 10, http://
ai.fmcsa.dot.gov/CarrierResearchResults/PDFs/13-039-Intervention-FY-
2009.pdf.
---------------------------------------------------------------------------
    The following table, taken from the FMCSA effectiveness report, 
shows the breakdown of crashes and injuries avoided and lives saved by 
roadside inspections and traffic enforcements respectively.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Given this compelling data, it's logical to place more emphasis on 
traffic enforcements than on roadside inspections. However, figures 
available on FMCSA's website demonstrate that traffic enforcements only 
comprise a small portion of field enforcement interventions. For 
instance, in Fiscal Year 2013, traffic enforcements represented only 10 
percent of all such activities. Further, this same website (screenshot 
shown below) reflects that the portion of field enforcement activity 
devoted to traffic enforcements has been declining dramatically, 
despite FMCSA research finding that it is more than four times more 
beneficial. For instance, the number of traffic enforcements in FY 2010 
totaled 637,385, but dropped a whopping 39 percent to 388,004 in FY 
2013. This is disturbing for a number of reasons, including the fact 
that traffic enforcement violation data feeds the CSA Unsafe Driving 
BASIC. As mentioned above, this BASIC has the strongest correlation to 
future crash risk of any CSA measurement category. Fewer traffic 
enforcements means less data in the Unsafe Driving BASIC which, in 
turn, hampers FMCSA's oversight efforts.
    FMCSA's program effectiveness document points out that the 
``evaluation provides FMCSA and State MCSAP partners with a 
quantitative basis for optimizing the allocation of safety resources in 
the field.'' This statement is true, but it appears as though FMCSA and 
its state partners have not actually used the evaluation for this 
purpose. If the agency and states had done so, we would have observed 
an increase in traffic enforcement activity, not a decline. This 
troubling decline begs the question: ``How many lives would not have 
been lost if traffic enforcement activity had remained constant or 
increased over the last several years?''
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    It is clear from this data that FMCSA and its state partners have a 
substantial opportunity to improve truck safety through a more 
effective allocation of enforcement resources. However, seizing on this 
opportunity will require difficult choices and a willingness to 
challenge traditional approaches to enforcement. A shift from roadside 
inspections to more traffic enforcement will have personnel and 
structural impacts at the state level. For instance, since many state 
officials who conduct vehicle inspections don't have traffic 
enforcement authority, their livelihoods may be threatened. Further, 
since some of the lead state commercial motor vehicle enforcement 
agencies don't have traffic enforcement responsibility, they will have 
to either yield resources, or entire management of the state's 
commercial motor vehicle enforcement program, to another state agency. 
However, it is clear from the data that these difficult steps that must 
be embraced and implemented in the interest of further reducing crashes 
and saving lives.
    Improvements in truck safety are also encumbered by program 
prioritization. Though the principle causes of crashes are known, 
FMCSA's priorities and resources are not always well aligned with them. 
For example, because the leading factor in crashes is vehicle speed, in 
2006 ATA and Roadsafe America petitioned the National Highway Traffic 
Safety Administration (NHTSA) and FMCSA to require that speed limiters 
be set on all commercial motor vehicles over 26,000 lbs. In late 2010, 
over four years later, NHTSA granted the petitions and agreed to 
conduct a rulemaking to require that limiters on new vehicles be set. 
FMCSA later announced it would conduct a companion rulemaking, 
presumably to require that limiters be set on existing vehicles and to 
prohibit device tampering. However, neither agency has issued a 
proposed rule to address this leading cause of crashes, and eight years 
have passed since ATA and Roadsafe America petitioned them to do so.
    In contrast, over the past four years FMCSA has spent more time, 
energy and resources on the hours of service (HOS) rulemaking than any 
other. Yet, by the agency's own admission, changes to the HOS rules 
recently imposed will prevent less than 1 percent of truck involved 
fatalities.\19\ Given this relatively modest benefit, the agency 
justified the rulemaking by making the speculative claim that the new 
rules will improve driver health and longevity.
---------------------------------------------------------------------------
    \19\ 2010-2011 Hours of Service Rule Regulatory Impact Analysis, 
Federal Motor Carrier Safety Administration, Washington, D.C., 
December, 2011, page 6-7 (102), http://www.fmcsa.dot.gov/sites/
fmcsa.dot.gov/files/docs/2011_HOS_Final_Rule_RIA.pdf.
---------------------------------------------------------------------------
Necessary Steps for Continued Improvement
    In evaluating ways to further improve truck safety, FMCSA should 
consider the primary causes of truck crashes and appropriate 
countermeasures, including those advocated by the trucking industry. 
For instance, since the vast majority of crashes are caused by driver 
error and since moving violations are strong predictors of future 
crashes, ATA has long called for a national system to promptly notify 
employers of drivers' convictions for moving violations. Such employer 
notification systems (ENS) are available in some states, like 
California, but not in all. Accordingly, ATA has urged implementation 
of a national system. In MAP-21, Congress mandated that FMCSA develop a 
plan for a national system.
    Similarly, since the late 1990s ATA has urged FMCSA to establish 
and deploy a national clearinghouse of drivers' positive drug and 
alcohol tests and refusals. Such a database would close an existing 
loophole that allows drivers who violate the drug and alcohol 
regulations to evade the consequences of their actions by merely 
obtaining employment elsewhere. As a result of a MAP-21 requirement, 
FMCSA recently proposed to establish a national clearinghouse, a decade 
after the agency's report to Congress said that a database of this sort 
was feasible and would be beneficial.\20\
---------------------------------------------------------------------------
    \20\ A Report to Congress On the Feasibility and Merits of 
Reporting Verified Positive Federal Controlled Substance Test Results 
To the States and Requiring FMCSA-Regulated Employers to Query the 
State Databases Before Hiring a Commercial Drivers License (CDL) 
Holder, Federal Motor Carrier Safety Administration, March 2004, Pg. 2.
---------------------------------------------------------------------------
    ATA has proposed a number of other beneficial safety initiatives as 
well. For instance, ATA supports the use of more effective hair tests 
to meet FMCSA drug testing requirements, broader third party access to 
FMCSA's Pre-Employment Screening Program (PSP), and the aforementioned 
speed limiter mandates. Each of these initiatives is supported by data 
demonstrating crash reduction efficacy.
ATA's Views on Current Regulatory Issues
    Given the context of this hearing, it is appropriate to offer ATA's 
views on other truck safety issues. In particular, I will focus on the 
following:

  <bullet> Hours of Service

  <bullet> Compliance, Safety, Accountability

  <bullet> Electronic Logging Devices
1. Hours of Service
    As discussed above, ATA has been critical of FMCSA's continued 
focus on changes to the hours of service regulations. Operating under 
the previous hours of service regulations, the number and rate of truck 
involved crashes, injuries and fatalities all declined dramatically. 
Accordingly, ATA advocated for retention of those rules rather than the 
changes FMCSA implemented in 2013.
    It is important to point out that ATA supports five of the six main 
components of the rules, including the 11-hour limit on driving time 
per shift, the maximum 14-hour driving window, the minimum off-duty 
period of at least 10 consecutive hours, the cumulative (or weekly) on-
duty time limits, and the mandatory rest break provision. ATA's only 
quarrel is with the restrictions recently placed on use of the restart 
provision. These restrictions are unwarranted, have unintended economic 
impacts, and may actually increase risk. For instance, a recent FMCSA 
study shows that drivers operating under the new restart rules are more 
likely to operate during the daytime, when the risk of vehicle 
interaction and crashes is higher.\21\ For these reasons, ATA supports 
legislation to suspend enforcement of the recent restart restrictions 
pending a study of their unintended safety and economic impacts.
---------------------------------------------------------------------------
    \21\ Field Study on the Efficacy of the New Restart Provision for 
Hours of Service, Federal Motor Carrier Safety Administration, 
Washington, D.C. January, 2014.
---------------------------------------------------------------------------
    ATA also supports the current Government Accountability Office 
review of the Congressionally-mandated FMCSA field study of the restart 
rules and the agency's regulatory impact analysis used to justify the 
new rules. This independent, third-party review is welcomed by ATA.
    Lastly, ATA feels strongly about the need for additional 
flexibility in what are commonly called the ``split sleeper berth 
rules.'' Given FMCSA's recent research on this issue, ATA is optimistic 
that FMCSA is willing to conduct a pilot program and perhaps consider 
reasonable changes to this part of the rules.
2. Compliance, Safety, Accountability
    Since its inception, ATA has been publicly supportive of the 
objectives of CSA and has worked cooperatively with FMCSA to address 
concerns with the program. ATA believes in a data-driven approach to 
identifying unsafe operators and focusing FMCSA's limited resources on 
those that pose the greatest safety risk. Unfortunately, ATA has 
serious apprehension about CSA's ability to accurately identify the 
least safe motor carriers.
    Many of ATA's concerns were recently highlighted by the Government 
Accountability Office's report Modifying the Compliance, Safety, 
Accountability Program Would Improve the Ability to Identify High Risk 
Carriers.\22\ The study confirmed many shortcomings of the program 
including: a dearth of data which results in a great majority of motor 
carriers not being scored; a lack of a statistical correlation between 
the vast majority of regulatory violations and crash risk, and the fact 
that small carriers are far more likely to be negatively impacted by 
CSA. Moreover, GAO found that CSA is an imprecise tool that cannot 
accurately identify an individual fleet's crash risk, and that until 
deficiencies are addressed, it is inappropriate to pursue a rulemaking 
to tie safety fitness determinations to CSA safety measurement system 
scores.
---------------------------------------------------------------------------
    \22\ Modifying the Compliance, Safety, Accountability Program Would 
Improve the Ability to Identify High Risk Carriers, Government 
(Washington, D.C.: Government Accountability Office, February 2014), 
http://www.gao.gov/assets/670/660610.pdf.
---------------------------------------------------------------------------
    These limitations are of great concern to the trucking industry 
because third parties (e.g., shippers, brokers, insurers, banks, etc.) 
use publicly available CSA scores to make important business decisions. 
In these cases, inaccurate scores can have serious business 
implications. As such, ATA supports and is advocates removing CSA 
scores from public view until peer reviewed research confirms a strong 
statistical correlation between individual fleets' scores in each BASIC 
and future crash risk.
    Additionally, ATA believes that CSA should only include crashes 
that were caused by commercial motor vehicle drivers. Intuitively, if a 
driver did not cause and could not have prevented a crash from 
happening, the occurrence is not indicative of his/her employer's 
safety management controls. Unfortunately, CSA currently considers all 
crashes, regardless of fault. FMCSA responded to this concern by 
conducting a study of the efficacy of using police accident reports to 
make crash accountability determinations. Though the study and its peer 
reviews are complete, FMCSA has delayed its release. ATA calls on FMCSA 
to release the results of their analysis and to immediately begin work 
on identifying and removing from CSA crashes not caused by commercial 
drivers.
3. Electronic Logging Devices
    ATA supports FMCSA's efforts to mandate electronic logging devices 
(ELDs) for all drivers required to maintain records of duty status. 
ELDs are the most reliable and accurate way to track compliance with 
the HOS regulations. ATA applauds FMCSA on the February publication of 
its Supplemental Notice of Proposed Rulemaking on this matter and 
encourages the agency to work toward swift publication of a defensible 
final rule.
    Overall, ATA is pleased with the agency's proposal and has provided 
a few suggestions for improvement. Among others, ATA warned FMCSA of 
the potentially chilling effect on voluntary early adoption should 
FMCSA proceed with its proposed two-year period for grandfathering of 
existing equipment. ATA suggests allowing existing, compliant, 
Automatic On-Board Recording Devices (AOBRD) to be used for the 
remainder of the service life of the vehicles in which they are 
installed. ATA also feels the proposed supporting documents 
requirements are excessive and unnecessary given the accuracy with 
which ELDs automatically track driving time.
    Finally, ATA urges FMCSA to explore ways that the agency can 
actively promote voluntary ELD adoption through the use of incentives. 
Given the known benefits of ELD use and recognizing that a mandatory 
adoption is still several years away, incentives for voluntary adoption 
are appropriate.
Conclusion
    Mr. Chairman, thank you for the opportunity to offer our views on 
how we can further improve truck and highway safety. As I mentioned at 
the beginning of my testimony, the trucking industry is justifiably 
proud of its commitment to safety and long-term safety record. However, 
continuation of this trend will require an acknowledgement of the 
principle causes of truck crashes and a commitment to implementing 
appropriate countermeasures to address them. Moreover, it will require 
the agency to prioritize its action based not on political or other 
interests, but on sound safety benefit data.
    In addition to making choices about policy priorities, FMCSA and 
its state partners must confront the tough decisions and fundamental 
organizational changes needed to embrace a more effective enforcement 
program in the field. Specifically, to leverage additional safety 
benefits from funding of on-road enforcement programs, FMCSA and state 
partners will need to place additional emphasis on traffic enforcement 
activities. Doing so may impact state organizations, but is ultimately 
necessary is order to achieve the greatest safety dividends from 
limited enforcement resources.

    Senator Blumenthal. Thank you very much, Mr. Osiecki.
    I want to say that we have put your full statement in the 
record, and it contains a great deal of very important and 
useful information, and I thank you for it. I am going to 
recommend to my colleagues that they read the full statement 
because there is a lot of very significant data.
    I join you in the hope that there will in fact be better 
rules concerning speed and electronic logging devices. I think 
we can agree that whatever the cause or however many crashes 
and fatalities and injuries are caused by driver fatigue, 
whether it is 10 percent or 90 percent, every one of those 
crashes, every one of those deaths and injuries is too many.
    Mr. Osiecki. Absolutely.
    Senator Blumenthal. In that spirit, I hope that you will 
agree that these hours-of-service regulations that were adopted 
in 2013 or became effective on that date will continue to be in 
effect even as we gather data on how effective they have been.
    Mr. Osiecki. I would be happy to respond to that if you 
would like for me to respond.
    Senator Blumenthal. Please.
    Mr. Osiecki. I think it is important to point out at the 
outset that we support five of the six components. In fact, we 
actually support a third of the sixth component, and that is 
the restart. We can talk about those five major components of 
the rules that we do support if you would like. But, in terms 
of the legitimate goal of the government to try to reduce 
fatigue related crashes at night during these 1 a.m. to 5 a.m. 
hours that we are talking about, versus the offsetting 
potential crashes during the daylight hours because truck 
traffic is being pushed, not being forced, into daylight hours. 
The result of these rules is pushing truck traffic into the 
daylight hours--there is an offset there.
    The question is what is that offset. Are there actually 
more crashes during the day than the fatigue crashes that are 
potentially being prevented. That is our concern.
    Senator Blumenthal. We have just heard testimony from a 
number of our experts here as to the importance of that 
component of the hours-of-service rule in preventing crashes, 
testimony from Mr. Dawson about their need and effectiveness, 
and from Ms. Ferro.
    Let me ask Ms. Ferro, in issuing these rules, my 
understanding from your testimony is there was a great deal of 
fact gathering, scientific analysis, and other research and 
data driven consideration that in fact led the courts to uphold 
these rules as being rational and factual based; is that 
correct?
    Ms. Ferro. Mr. Chairman, that is correct. It was a very 
robust rulemaking with regard to over 80 scientific studies 
that we reviewed, at least 50 that we cited in our regulatory 
evaluation, sleep lab studies specific to the 1 a.m. to 5 a.m. 
and the benefits of two nights rest over one, and extensive 
public listening sessions, as well as analysis of over 20,000 
comments. It was an extremely robust process, and as you say, 
research based, scientifically approached.
    Senator Blumenthal. You have heard Major Palmer emphasize 
the importance of consistency.
    Ms. Ferro. Yes, sir.
    Senator Blumenthal. And enforceability of regulations. Is 
there a public interest in continuing these regulations even as 
more data and experience is gathered?
    Ms. Ferro. It is very much in the public interest, for the 
reasons Major Palmer identified in terms of uniformity, 
consistency of enforcement, from the perspective of ensuring 
that the focus on minimizing the risk of fatigue related 
crashes is upheld while additional analysis is completed.
    Senator Blumenthal. I have said that the purpose of these 
regulations is to take tired truckers off the road, not take 
trucks off the road, and to protect truckers as well as the 
public in general.
    Mr. Dawson, let me ask you what these regulations mean to 
you and your fellow drivers who really are on the front line, 
so to speak, in preventing accidents or crashes that are indeed 
avoidable.
    Mr. Dawson. Mr. Chairman, I would say in my experience, any 
time you have more rest or more opportunity to be at home and 
get your rest, especially in those critical 1 a.m. to 5 a.m. 
periods, it is essential to getting your proper rest and not 
being fatigued when you are on duty trying to do your job.
    Senator Blumenthal. Without these rules, is there pressure 
on truckers from perhaps their employers?
    Mr. Dawson. Absolutely, Mr. Chairman.
    Senator Blumenthal. How does that pressure get expressed?
    Mr. Dawson. It would get expressed in your dispatches 
where, when your 34 hours are up, they could just run you right 
back out on the road, on another run, put you back on duty. You 
would not have the hours-of-service to protect you. They could 
discharge you in some instances, at some jobs, if you did not 
follow through with those.
    I think the protection that the hours-of-service offers a 
driver against those things is very important.
    Senator Blumenthal. Ms. Claybrook, is that consistent with 
your experience?
    Ms. Claybrook. Yes, it is, Mr. Chairman. I would like to 
correct something that was said by the American Trucking 
Associations. The purpose of this rule is not to reduce 
nighttime crashes.
    The purpose of this rule is for drivers, and it is not all 
drivers, the drivers who reach the maximum of 70 hours of 
driving, that when they take their 34-hour restart, that they 
have two nights where they can get rest/sleep, that is, so they 
can get the kind of sleep that you get which is better than 
when you sleep during the daytime.
    So, first, it affects a small number or a modest number of 
drivers. Second of all, the purpose is so you get sleep at 
night, not to prevent crashes at night.
    Another issue that has been raised by the trucking 
association is that all these trucks will come back on the road 
at 5 a.m. and 6 a.m. in the morning when kids are going to 
school, and yet, this is the first time I have ever heard the 
trucking association ever be concerned about children being 
killed in truck crashes. There are over 200 children killed 
every year in truck crashes, and 9,000-some children injured.
    First of all, I think it is a false assumption or 
assertion, and second of all, I would love to work with the 
trucking industry on reducing truck crashes, and particularly 
children being harmed, but this is not an example where 
children are likely to be harmed.
    Senator Blumenthal. Mr. Osiecki, I am going to make sure 
that you have an opportunity to respond. My time has expired 
and I want to be sensitive to the time of my colleagues. I am 
grateful to all of my colleagues.
    I am a co-sponsor with Senator Booker, by the way, Ms. 
Claybrook.
    Ms. Claybrook. Yes, and thank you so much.
    Senator Blumenthal. Grateful to Senator Nelson, Senator 
Fischer, Senator Ayotte, and Senator Blunt for being here 
today. I am going to turn to Senator Blunt, and if he is still 
here, go to Senator Nelson.
    Senator Blunt. Thank you, Chairman. Ms. Claybrook, I heard 
you say you would like to work with the trucking association 
for safety for children. I think I heard you say that two 
sentences after you said something like this is the first time 
you had ever heard the trucking association say they cared 
about whether children were hurt by trucks or not.
    I would think those two things probably do not work out 
very well together. I am sure nobody here wants children to be 
hurt by trucks. I am also sure that if you put more people on 
the road at 5 in the morning, more people are going to be on 
the road when kids go to school. I just do not think there is 
any way you can argue against that.
    I am sensitive to Mr. Dawson's point that people who are 
working different shifts all the time get into a rest pattern 
that is significant. A lot of people work the night shift all 
the time, so somehow they have figured out how to sleep during 
the day, and have done that for a long time.
    Mr. Osiecki, I heard your safety efforts. What are the best 
safety things that you think can be done that are not being 
done now or need more focus?
    Mr. Osiecki. Thank you, Ranking Member Blunt. There is not 
a person in this room, there is not a person in the trucking 
industry that wants to harm somebody when they operate. Drivers 
are professionals. They attempt to do their jobs moving 
America's freight as safely and efficiently as possible, and 
the folks that I represent, I know that.
    Now, in terms of responding to your question, as I 
indicated in my oral remarks, we really need to not minimize 
the smaller types of problems in our industry, but we have to 
maximize our resources and our efforts, and maximizing our 
resources and our efforts really leads us to the technology 
solutions that I mentioned earlier, safety technologies, that 
address unintentional mistakes, sometimes unintentional 
misbehaviors, and sometimes there are misbehaviors that truck 
drivers and car drivers undertake willfully.
    But technologies, the ability to have enforcement focus on 
those misbehaviors, and to the extent they can, the mistakes. 
But that is tougher, and we need rules that really will make a 
difference.
    The electronic stability control rulemaking that NHTSA has 
been working on for several years will save, according to 
NHTSA, at least three times as many lives as the hours-of-
service rules.
    In terms of priorities, that rule should have come first. 
That rule should be out there. We should be living under that 
rule for new trucks. There are a host of other examples I can 
discuss, but I will leave it at that for the time being.
    Senator Blunt. Major Palmer, in your opinion, what is the 
most effective tool of law enforcement for preventing truck 
related crashes? I am going to let you answer that. It could be 
stopping trucks on the road. It could be safety inspections. I 
am just wondering what you think the most effective tool is to 
work on this topic.
    Major Palmer. Yes, sir. That is an excellent question. What 
it is, it is difficult to identify from an enforcement 
perspective one thing that is the solution to the big problem. 
It is a comprehensive program, what it takes.
    For example, each state, including Texas, obviously where I 
am from, we have a comprehensive enforcement program to try to 
address commercial vehicle safety issues, and highway safety 
issues as a whole, which includes all vehicles on the highway.
    So, it is partly roadside inspections of commercial 
vehicles. It is inspections at fixed facilities, which 
sometimes are different, that are a different environment than 
at roadside.
    It also is a comprehensive program, such as our compliance 
review program, to be able to look at motor carriers that have 
a propensity to have safety issues, and it is also an 
aggressive traffic enforcement program that does not 
necessarily just focus on commercial vehicles.
    Statistically speaking, 70 percent of the commercial 
vehicle related crashes, the primary contributing factor tends 
to go back to the non-commercial vehicle.
    For example, in Texas alone--I cannot speak off the cuff on 
most states--in Texas alone, in 2013, all of these citations 
and warnings were not uploaded to FMCSA because they were not 
done on an inspection report.
    We did, in addition to all of our activities that we did as 
part of our commercial vehicle enforcement program, issued a 
little over--in 2013, a little over 900,000 traffic enforcement 
citations, and a little over two million warnings. Those are 
the ones that did not get uploaded to FMCSA as a part of 
inspection.
    So, to answer your question, sir, it really is a 
comprehensive program of a lot of different areas that we try 
to look at, because one area alone is not going to get us where 
we need to be.
    One of our primary focuses in Texas and along with all the 
other states is to ultimately reduce these fatalities and these 
serious injury crashes. It does not matter whether it is one 
life or 100, we do not want to lose one. Every life that we can 
save is a victory from our perspective.
    Senator Blunt. That 70 percent number, is that a national 
number or a Texas number?
    Major Palmer. We have looked at it from a Texas 
perspective, and it works for Texas, but I have also seen some 
things that it has been used on a broader perspective as well.
    Senator Blunt. Just one last question, Ms. Ferro. I think I 
have in my notes somewhere I noticed, I do not see it in front 
of me right now, but there is no differentiation in the 
statistics of truck related accidents, whether the trucker was 
at fault or not. When you used that big number, that is just 
the number of total accidents involving a commercial truck; is 
that correct?
    Ms. Ferro. Senator Blunt, that is correct. It is an 
aggregate crash number.
    Senator Blunt. Do you have anything that verifies the 
Major's sense that this is more than the 70 percent number?
    Ms. Ferro. We have. The dataset was done through the large 
truck crash causation analysis about eight to ten years ago, so 
it is not as current as we would like it to be. I believe, and 
I will follow up for the record, it was 35 percent attributable 
to the professional driver in fatalities, and closer to 45 to 
50 percent in all crashes.
    [FMCSA reply:]

    According to the Large Truck Crash Causation Study, the critical 
reason was assigned to the large truck in 55 percent of the crashes 
(Note: this includes single vehicle crashes). In large truck crashes 
involving one truck and one car, the critical reason was assigned to 
the large truck in 44 percent of the crashes. In crashes involving 
fatalities, the critical reason was assigned to the large truck in 28 
percent of those crashes.

    Ms. Ferro. So, 35 to 40 on fatalities and higher 
attributable or about 50/50 in injury and tow away crashes.
    Senator Blunt. Quite a bit of difference.
    Ms. Claybrook. Senator Blunt, can I comment on that? Would 
you mind?
    Senator Blunt. I am out of time.
    Senator Blumenthal. We will come back to you. Thank you.
    Senator Blunt. Thank you, Mr. Chairman.
    Senator Blumenthal. Thank you very much, Senator Blunt. 
Senator Booker?

                STATEMENT OF HON. CORY BOOKER, 
                  U.S. SENATOR FROM NEW JERSEY

    Senator Booker. Thank you very much. I first want to thank 
the Chairman and the Ranking Member, two gentlemen that are 
really pragmatic, constructive, and with clarity, have thought 
about these issues. I appreciate both of your leaderships and 
how you are addressing what is the end, which is to keep our 
highways safe.
    If I can very quickly just turn again to hours-of-service. 
First of all, Mr. Osiecki, I really appreciate your testimony 
because you had a lot of very constructive data based ideas 
about how to keep our highways safe.
    When I was mayor, I used to have a saying, ``In God we 
trust, I am a man of faith, but everybody else bring me data.''
    What I do not want to fall in the trap of is when it comes 
to safety initiatives, having tyranny of or, I would rather 
have the liberation of the and, do them all. That is why I want 
to get back to the hours-of-service just real quick because I 
think there is a substantive question that was put on the 
table.
    I know these efforts were brought about through--when I 
look through all the data and the studies, there is so much 
sound evidence that you all went through, and the 20,000 
comments, to all that, but a point of assertion has been put on 
the table that if we persist with these rules, it is going to 
force more people into the daytime traffic, thus, making it 
more congested, and thus, creating more crashes.
    All I am asking is very objectively, is there any data yet 
to make that statement or that assertion or that possibility 
true? I would love the Honorable Ferro and Honorable Claybrook 
quickly to give answers because I want to jump on to the next 
issue.
    Ms. Ferro. Sir, there has been no data presented to us that 
demonstrates that fact, nor does anything in the rule limit the 
ability of the industry to set its schedules as it deems 
necessary to satisfy the freight demands of its customers.
    Senator Booker. OK.
    Ms. Claybrook. The Collins' amendment does have a study 
included, but it also eliminated these provisions, so it was 
sort of a contradiction, that is you cannot do a study if you 
do not have provisions in effect.
    Our position supports what you would do, leave the 
provisions in effect but conduct a study, and I think that is 
fine.
    Senator Booker. So, removing the restrictions and doing a 
study. What are you actually studying to see if there is any 
substance and fact to----
    Ms. Claybrook. That is right. The other thing to point out 
is in addition to there not being a requirement as to when the 
truckers have to come back on the highway it only affects maybe 
15 percent of the truck drivers, those who have maxed out on 
the 70 hours.
    Senator Booker. That is where I want to jump in, because it 
is a small portion, it is those that have maxed out. There has 
been a tremendous decline--this is where Mr. Dawson, I think, 
can get my last answer in--there has been a tremendous decline 
in income for drivers.
    A few decades ago, unionized truck drivers made about 
$44.83 an hour. This is a solid middle class job, well 
compensated drivers, and I know from truck drivers in the port 
area they are grueling hours they are putting in. We are 
talking about 70/80 plus hours with a little bit, as you said, 
a truncated weekend.
    Today truck drivers are lucky though to make half of that. 
One study by Rutgers found independent contractors in New 
Jersey reported earning less than $10 an hour.
    So, truck accidents are on the rise while wages are on the 
decline, and we are now paying the folks responsible for moving 
our goods and services very low salaries. These men and women 
have now pushed themselves in order to make enough money to 
provide for their families. They have pushed themselves through 
hour limits in order to try to make ends meet.
    Under conditions like this, it is no wonder that a recent 
FMCSA study that was cited found an astounding 65 percent of 
truck drivers reported that they sometimes feel drowsy.
    So, if we want our roads to be safer, I believe we need to 
start compensating these folks in a way that they can make 
means meet without pushing themselves to the limits of human 
exhaustion; just so they can meet the minimum basic needs to 
keep their family above the poverty line.
    So, Mr. Dawson, do you agree with my assessment, given your 
years of experience as a driver, and can you provide me any 
insight about the issue of drivers' wages in this context of 
safety and if so, in your opinion, what steps can Congress and 
key stakeholders in the trucking industry take to address this 
compensation issue?
    Mr. Dawson. I think one of the key components in the income 
as far as the detention time, I can tell you when I was working 
for a private carrier, we had a program where you picked up 
your freight, and you picked it up for $1 a 1,000, so if you 
were there and you picked up 46,000 pounds, that is what you 
made if it was 1 hour or 15 hours that you were there picking 
it up.
    I can also add to that, Senator, that when I went to work 
from a private carrier to an unionized carrier, I got a $26,000 
raise that day. So, there is quite a difference in the Union 
and the non-Union sector.
    I think the detention time and the wages are a key 
component in getting qualified candidates and good experienced 
drivers that are going to stick with it and not drift in and 
out of the industry.
    Senator Booker. So, higher pay might make the people 
pushing fatigue less? Higher pay might make this idea that 
drivers have to push further to make enough money to support 
their family less?
    Mr. Dawson. Absolutely, sir. It would reduce the push 
factor that you are talking about to make the ends meet at home 
if the wages were higher, then you would not have the need to 
exceed the hours-of-service.
    Senator Booker. I would continue but the chairmanship has 
passed, I think, to Kelly Ayotte, and I was told by my staff 
that I am going to yield to Senator Fischer.
    [Laughter.]
    Senator Booker. My dear friend, and give you the 
chairpersonship as well of the Committee. No, Senator 
Blumenthal is back.
    [Laughter.]
    Senator Booker. I exceeded my allotted time, so if you 
would like to reprimand me, you may. I know Senator Fischer is 
eager to go.
    Senator Blumenthal. I appreciate your graciousness in 
yielding just as I was coming in, and appreciate your patience 
with a quick visit I had to make with someone who came. Senator 
Fischer?

                STATEMENT OF HON. DEB FISCHER, 
                   U.S. SENATOR FROM NEBRASKA

    Senator Fischer. Mr. Chairman, I hope you also heard that I 
declined the chairmanship. I wanted you to take note of that.
    [Laughter.]
    Senator Blumenthal. I noticed the emerging anarchy that 
was----
    [Laughter.]
    Senator Fischer. You stepped back in at just the right 
time; yes. As a member of the Nebraska legislature, I served as 
Chair of the Transportation and Telecommunications Committee. 
Every year, we would have hearings on safety issues. Those were 
always very emotional hearings. We would have the families of 
accident victims there, so I just would like to recognize those 
families and express my condolences to you.
    I also want to thank our drivers and truckers. Everyone 
here is looking for ways that we can make our roads safer. That 
is the purpose here. I think we are all united in that purpose 
as we do move forward in looking to make our highways safer.
    Administrator Ferro, after a recent hearing at which 
Secretary Foxx testified, I submitted a question for the record 
on the impacts of the hours-of-service rules, and 
unfortunately, the answer I received was less responsive than I 
was hoping for, so I am going to try again and see how you do 
on the answer, and maybe you can clear some things up for us.
    What specific plans does your agency have to measure and 
confirm the speculative health benefits that FMCSA proposed as 
part of its hours-of-service cost/benefit analysis, and also 
what do you have to study and evaluate the safety impacts of 
that additional daytime driving that many of us believe is the 
result of those restart rules?
    Ms. Ferro. Senator, thank you for giving us another chance 
to answer the question for you. I appreciate the opportunity.
    With regard to health benefits and minimizing the health 
impact of the rules we put in place, health impact on drivers 
and their ability to operate safely, we incorporated and 
analyzed and assessed an extensive body of data, as well as a 
more recent survey and set of surveys conducted by the National 
Institute of Occupational Safety and Health.
    So, in the body of research on which we based part of this 
rule, which is the restart provision, is this whole concept of 
excessively long work hours and their impact on a driver's 
chronic health conditions, and thus the ability to operate 
safely.
    So, there is a full set of research I will be happy to 
provide with regard to that specific rule.
    [The information referred to follows:]

    In our regulatory analysis, the Agency determined that the changes 
to the hours of service rule would yield not only safety benefits in 
lives saved but also long-term benefits to driver health, mainly in the 
form of increased life-expectancy. The FMCSA is exploring a number of 
approaches to more precisely assess the impact of the rulemaking on the 
long-term health of commercial motor vehicle drivers and the operations 
of the motor carrier industry. However, because those benefits were 
expected to be realized over a period of decades, it is difficult to 
estimate their effects in the brief time since the hours-of-service 
rule went into effect in 2013. Recently, we have engaged in several 
conversations regarding these issues with industry organizations, 
Congressional staff, and safety advocates. FMCSA has also engaged the 
National Institute for Occupational Safety and Health in discussions 
related to conducting a longitudinal study of commercial motor vehicle 
operators to monitor driver health. We are also working with the 
Government Accountability Office to identify methods and data sources 
that could help us monitor the new hours of service provisions on 
driver health and daytime driving. Evaluating possible increases in 
daytime driving is also difficult because there are no clear baseline 
(i.e., pre-2013) data against which to measure the current level of 
daytime driving, which is not really known.

    Ms. Ferro. Going forward, we have several efforts underway. 
The first is a very specific contract with the National Academy 
of Sciences to examine the broad spectrum of fatigue and health 
impacts of the condition of operating heavy duty vehicles, and 
identifying the best data sources, new data sources, new 
mechanisms for data collection, as well as existing resources 
that we might not have known to tap into.
    There is a third component, and I apologize for taking so 
long, which is that we have reached out to all the stakeholders 
to say we all have core questions we want to know about this 
rule. There is a very robust study proposed in Senator Collins' 
amendment that Ms. Claybrook indicated is best exercised with 
the current rule in place in order to capture the full data.
    We also see that there are many sources of data that 
industry has and we are encouraged that industry may be 
interested in sharing, which is really aggregated on board 
fleet management device data that gives us a better sense of 
what hour of driving an incident might occur, and compare 
apples to apples, not apples to oranges.
    Senator Fischer. Which I believe Mr. Osiecki is 
recommending as well, to have some of that electronic data to 
be provided on board. You had mentioned earlier, sir, a number 
of programs that you are implementing in trying to improve 
safety, which as I said, we are all trying to do here.
    If you could elaborate on those and also you looked like 
you wanted to respond to Senator Booker when he was asking a 
question of some other witnesses with regard to the daytime 
hours, so I will give you an opportunity to respond to that as 
well.
    Mr. Osiecki. Thanks. Thank you, Senator. If I may, I will 
answer the second one first and then get back to the first one. 
In terms of Senator Booker's question about truck traffic being 
shifted to the daytime hours, FMCSA's study, commonly known as 
the ``restart study,'' issued in January 2014, January of this 
year, I would point the Committee to Figures 5 and 6.
    Figures 5 and 6, and it is very difficult to see, but they 
demonstrate that the two or more night sleepers under the new 
restart compared to the one night sleepers, it demonstrates, 
those two charts, that the truck traffic is more distributed 
through the daytime hours between 8:00 a.m. and approximately 8 
p.m. at night, so it is in FMCSA's own study. We have also 
provided some data, some information to the Administration 
taking a look at that.
    Now, with respect to your first question, there are a lot 
of ways to answer that because there are a lot of things going 
on in the industry, I will address it from the technology 
standpoint.
    There are lane departure warning systems. There are 
collision mitigation systems. There are active braking systems. 
More recently and very recently, these onboard camera systems 
that are not designed to view the truck driver in a negative 
way, but designed to capture the environment of what is going 
on in near crashes and crash events to determine what happened, 
whether that is an opportunity to coach the professional driver 
or in a lot of cases, to get the professional driver off the 
hook given what has happened.
    Those are improving safety. There is demonstrated evidence 
that those systems work in addition to all these other sort of 
vehicle based technologies that alert the driver and so forth.
    Senator Fischer. Thank you very much. Thank you, Mr. Chair.
    Senator Blumenthal. Thank you, Senator Fischer. Senator 
Ayotte?

                STATEMENT OF HON. KELLY AYOTTE, 
                U.S. SENATOR FROM NEW HAMPSHIRE

    Senator Ayotte. I want to thank the Chairman. I wanted to 
ask you, Mr. Osiecki, in terms of--I really appreciate the hard 
work that our truck drivers do. I think it is important to 
point out--I have met a lot of them in my state, and a lot of 
them own their own business and are small businesses, 
independent operators as well that are working pretty hard.
    They are competing against rail and other things, so it is 
an important job and it is highly competitive. Frankly, one of 
the concerns they have raised with me is that it is becoming 
more and more costly to own your own business and to be a 
smaller operator in this context, with not only some of the 
things that are being issued that we are talking about today, 
but also some of the new technology that is being required.
    Would you not agree it is harder for the smaller operators 
in this context?
    Mr. Osiecki. I think there is when there are mandated 
technologies, I think that is the case. Much of what I was 
speaking about was voluntarily adopted technologies, and 
incentives to drive that voluntary adoption.
    Folks who have worked around this and FMCSA for years know 
it takes many, many years, in fact, it takes decades, when you 
implement a new mandated technology, on new equipment, it 
literally takes two to three, sometimes four decades for the 
entire fleet to turn over. So, incentives to drive voluntary 
adoption is one way to do that.
    Now I will sort of put an asterisk on, we do support the 
mandated electronic logging devices, and there may be some 
difference in the industry on that point, but the cost is 
coming down on those.
    Senator Ayotte. Thank you. I wanted to ask Administrator 
Ferro, I know you are leaving soon, so thank you for all your 
work at the agency, appreciate it. When you last appeared 
before this committee on the hours-of-service rule, you had 
testified that based on a FMCSA study, essentially there was 
evidence that more trucks, larger trucks, would be on the road 
during the daytime hours, because of the new hours-of-service 
rules.
    Do you dispute that?
    Ms. Ferro. I spoke to the logic that we used to analyze 
what that might be, looking at the 15 percent impact, and 
identifying that by virtue of the logical analysis, about 
250,000----
    Senator Ayotte. So, by logic, we are going to have more 
large trucks on the road during the daytime?
    Ms. Ferro. Well, in fact, the follow-up point on that is 
that 250,000 is barely a drop in the bucket when you look at 
the 10 million----
    Senator Ayotte. Have we fully analyzed--as I understand it, 
we have not fully analyzed, and that is one of the purposes of 
the Collins' study, to have a full analysis of what will be the 
impact during daytime hours in terms of truck traffic, and as 
you and I have talked about in the past, we already do have 
evidence that more accidents occur during the daytime hours 
because of the congestion that is natural during the daytime 
hours in and of itself.
    So, I think one of the things that I know the chairman and 
others have said, the study of this has been robust, it has 
been scientific, but it strikes me that we have not answered a 
fundamental question that is important in terms of people's 
safety, which is if we change the restart rules in the way they 
have been proposed, how many more trucks will be on the road 
during those daytime hours, what will be the safety impact of 
having those trucks, more of them on the road during the 
daytime hours.
    To delay the rule while we understand that question to me 
seems logical, because if we know that there is more congestion 
during the daytime and more likely evidence there are more 
accidents during that period, would we not want to know before 
we go forward with this exactly what the public safety impact 
is about the added truck traffic during that period?
    It seems to me we have all been talking about science and 
data, but it is important for us to have that science and data 
before we implement a very significant rule that could in fact, 
we do not know, have the unintended consequence of actually 
creating more public safety issues.
    I think that is really where the Collins' amendment is 
coming from, and I fully support it. I think it makes logical 
sense. The feedback that I have heard from this rule which we 
have talked about before, I know the Collins' amendment will 
also analyze the economic impacts of this rule, but I know we 
have heard a lot of discussion today about why not just go 
forward with the rule.
    Well, this is a fundamental question that we should have 
answered, it seems to me, for the American people, before we go 
forward with a pretty significant rule change.
    Ms. Ferro. If I might comment, just for purposes of 
clarification, the final rule was issued in December of 2011 
and went into effect a year ago. So, the full rule is underway.
    Senator Ayotte. Right. I do not know why we went forward 
with a rule without having those questions answered, and it 
seems to me the Collins' amendment, from having received the 
feedback of the concerns that people have that are legitimate 
concerns, strikes the right balance. It suspends the rule until 
we know the answer to that very important question of how much 
more daytime traffic, what will be the impact in terms of 
potential accidents during the daytime.
    To me, the fact that we issued this rule before we actually 
had the clear answers to those very important questions is 
something that should not have happened.
    So, I think what the Collins' amendment does is really 
restart where we should be until we have those answers, and 
then if the answers are there is not a public safety impact, 
then you certainly are in a position where the rule can be 
reissued.
    Ms. Ferro. Thank you for clarifying. There is a public 
safety impact of rolling back this rule. The rule today that is 
in place today, based on the scientific evidence, based on 
analysis, based on an enormous amount of public input, is 
projected, is currently expected to be saving lives, reducing 
crashes, and that is based on the health benefits, the analysis 
through the sleep lab studies, and the field study that Dave 
Osiecki mentioned actually was referencing traffic patterns 
prior to July of 2013, as Congress had mandated we analyze.
    Senator Ayotte. When you were last--I know my time is up--
when you were last before this committee and I asked you about 
the field study in particular and the number of drivers that 
were analyzed, as I understand it, my recollection is it was 21 
or so over--you can tell me--106 drivers over 21 hours.
    Ms. Ferro. 106.
    Senator Ayotte. We think about the number of drivers on the 
road across this country, 106 drivers over a 21 day period; 
correct?
    Ms. Ferro. That is correct.
    Senator Ayotte. I am doing this off the top of my head. I 
remember it. That is not that many when you think about how 
many drivers are on the road. Most importantly, what I wanted 
to point out was when you were last before this hearing, you 
had agreed and you had said to me when we had this discussion 
about the study, that your agency was constrained from doing 
the kind of broader, naturalistic analysis that they are going 
to be doing going forward.
    Ms. Ferro. That is right.
    Senator Ayotte. So, if you were constrained in doing that 
kind of analysis, I think one thing we are in agreement on 
around this room is that the Collins' study as proposed is 
quite comprehensive. This would allow us to have this 
information to understand the full impact of particularly the 
daytime traffic as a result of this rule, and to really suspend 
what I think is--I know from my constituents--I have said 
before, not only have I heard from truck drivers but I have 
heard from wholesalers of groceries that this is going to cost 
them millions and millions of dollars, and their concern that 
it will actually add to the impact of potential safety concerns 
during the day.
    We need to understand these answers. So, I wanted to just 
express that I appreciate Senator Collins' leadership on this. 
I think her amendment makes a lot of sense. It is unfortunate 
that we did not have this information before the rule was 
actually issued and implemented.
    Senator Blumenthal. Thank you, Senator Ayotte. Just to 
clarify before I call on Senator Scott, the rule that we are 
discussing here has been in effect for one year; correct?
    Ms. Ferro. That is correct.
    Senator Blumenthal. There are studies underway about its 
effectiveness; correct?
    Ms. Ferro. That is correct.
    Senator Blumenthal. The Collins' amendment insofar as it 
requires additional study would produce perhaps additional 
data, but it goes beyond the study to actually roll back the 
rule.
    Ms. Ferro. Let me clarify. There are efforts underway, 
including meetings with stakeholders, to identify the data 
sources to answer the questions, many of which again Senator 
Ayotte very clearly outlined, moving forward.
    We have a fatigue research and analysis body of work being 
done through the National Academy of Sciences. Our full intent 
is to be able to take advantage of aggregated data from onboard 
fleet management devices with the help of industry and other 
sources to analyze the day to day impacts.
    Senator Blumenthal. My understanding is you will be 
receiving data from the states as well that can be used in this 
work.
    Ms. Ferro. We routinely, through our motor carrier 
assistance grants system and crash reporting, violation 
reporting, roadside inspection work, collect data and use that 
to analyze the effects of our work; that is correct.
    Senator Blumenthal. So, it sounds like there is a very 
robust, intensive, active, energetic effort underway to assess 
the effectiveness of the rules while they are in effect now.
    Ms. Ferro. That is absolutely correct, Mr. Chairman.
    Senator Blumenthal. Mr. Scott--Senator Scott? Sorry.

                 STATEMENT OF HON. TIM SCOTT, 
                U.S. SENATOR FROM SOUTH CAROLINA

    Senator Scott. Thank you, Mr. Chairman. Thank you, 
panelists, for being a part of such an important hearing as we 
discuss safety and the trucking industry.
    Frankly, I will tell you that as I was watching you all on 
TV, this was a long robust conversation on a number of topics, 
hours-of-service being one priority, and certainly safety being 
another.
    Over the last couple of years I have had the opportunity to 
meet with the ATA president, Phil Byrd, who is from my home 
town of North Charleston, and talk with him a lot about the 
safety issues and the progress being made.
    I believe we find ourselves in the position where we have 
seen significant progress made over the last several years and 
certainly look forward to seeing more progress made as we know 
it is important. We are talking about saving lives, and that is 
really job number one.
    I do have a couple of questions, Administrator Ferro, for 
you. I spent too much time in the insurance industry, to tell 
you the truth, nearly 25 years. I am only 30 years old, so 
since I was 5 years old.
    [Laughter.]
    Senator Scott. It was not that funny. Anyway, for the last 
couple of decades, I have spent my professional life owning an 
insurance agency, and was interested in the correlation perhaps 
between higher limits and fewer accidents, and if in fact the 
rulemaking that we see coming forward speaks to any real 
evidence of that correlation.
    I will read the question to you to start the conversation 
between the two of us. I understand that currently more than 99 
percent of commercial vehicle accidents are easily covered 
under the current insurance requirements, yet you have 
initiated a new rulemaking to raise these requirements, these 
limits.
    Will your rulemaking include any kind of assessment of the 
financial impact the increased requirements would have on small 
businesses? First question.
    How do you feel raising truck insurance limits would help 
fulfill the mission of the agency, which of course is to reduce 
crashes, injuries and fatalities involving larger trucks and 
buses?
    My question really comes from having limited exposure, 
albeit most of mine was on the private sector side, on the 
everyday family cars and only about 10 to 12 percent of my time 
was spent on commercial insurance, commercial vehicles, so not 
a lot of exposure there.
    I was unaware of any specific studies that created a 
correlation on increasing the limits of liability and reducing 
fatalities, the crashes or the incidents, frankly.
    I know as a small business owner who had employees that 
when the rulemaking and/or legislative/regulatory environment 
increases the thresholds of my coverage, it takes more money 
out of our pockets to do more things for safety and for 
employee retention.
    So, my question is: was there any analysis on the impact 
the rulemaking would have on small businesses, and/or on 
businesses overall?
    Ms. Ferro. Well, Senator Scott, the first step in the 
rulemaking process actually will be just what you are 
describing, the analysis component.
    With regard to financial responsibility limits or I should 
say minimums for the commercial vehicle industry, truck and 
bus, those limits--the minimums were set by Congress 30 years 
ago and prevail today. The minimum is still $750,000 for a 
trucking company. It goes up depending on if you are carrying 
passengers as a passenger carrier or carrying hazardous 
materials as a trucking company, but again, the minimum is 
$750,000 for your basic trucking provider.
    When Congress introduced those minimums, it was done in the 
context of deregulation and with an expressed appreciation for 
the impact that risk-based insurance might have on safety 
behaviors from their customers. In other words, if you minimize 
risk, you are likely to be a good cover, and you are going to 
have more reasonable rates, and I think it is probably 
practiced the same on the private side.
    So, in those 30 years, there has been no change in those 
minimum levels. At the same time, the premium rates have 
actually not changed either. They have actually softened a bit. 
Consumer Price Index, Medical Price Index, all of those 
components have gone up significantly.
    So, through MAP-21, Congress directed the agency to 
analyze, to look at, and report back to Congress on those 
minimum levels of insurance, if they were adequate, and provide 
recommendations, and then look every 4 years at those minimums, 
starting with the report you just referenced.
    In our analysis, we recognize that for all the factors I 
just identified, it is appropriate for the agency at this time 
to press forward on an anticipated or--it is called an 
``ANPRM,'' it is a something proposed rulemaking, and I am 
forgetting the term--sorry--advanced notice of proposed 
rulemaking.
    So that we can ask the audience of insurance providers, the 
litigation world, medical, stakeholders from industry, and the 
victim side, all to weigh in on and provide us data and 
information to determine what those next steps should be before 
moving on to a notice of proposed rulemaking. So, the first 
step will be an ANPRM within the next 30 to 60 days.
    Senator Scott. Thank you, ma'am. Mr. Osiecki, let me turn 
to you, basically with the same question, different stream of 
consciousness, as we think through--as we analyze the 
information on risk versus reward, so we are talking about 
carrots and sticks.
    You create a stick that says if you raise the thresholds 
the companies will become more prudent and more responsible, 
their drivers, but my assumption is that is already happening.
    I would love to hear your perspective on the impact of 
higher limits on (a) the business system itself, and (b) 
whether or not that would be an impediment to more incidents.
    Mr. Osiecki. Thank you, Senator. I guess I would like to 
start off by reiterating the Volpe study, the Volpe 
Transportation Systems Center study that FMCSA sponsored and 
recently put out, did indeed highlight that 99.9 percent of the 
crashes and costs of those crashes for which trucks were 
responsible for, the 30 percent that the Major highlighted 
earlier, are covered under the existing limits.
    So, 99.9 percent. There is only one-tenth of one percent 
that are not covered. So, the question really becomes what is 
our mission in raising the limits. Is there a link to safety? I 
will tell you that there is almost a dearth or void of research 
that links insurance limits, minimum insurance limits, to 
safety outcomes.
    Now, getting to the part of your question about business 
impacts and the market, the market will clearly be impacted 
dramatically if the limits are upped dramatically. If it goes 
from $750,000 to $1 million, maybe not so much. Some are 
talking about $750,000 minimum to perhaps $4 million or even 
higher.
    That will dramatically change the cost of insurance. It 
will dramatically change the number of players in the truck 
insurance marketplace, of which there are only a handful to 
begin with.
    So, it really becomes a very difficult question for the 
industry to deal with, particularly if there is no link to 
improved safety outcomes. There is a lot more to be said on 
that, but I guess we are heartened by the fact that the first 
step will be an advanced notice of proposed rulemaking as 
opposed to a proposed rule.
    Senator Scott. A final question, Mr. Osiecki, on the issue 
of traffic enforcement activities versus roadside inspections, 
and what will move us in the right direction. I would like to 
hear your comments on what are the types of programs or 
initiatives that you feel would be most effective at saving 
lives on our Nation's highways.
    At the end of the day, as we have said, the lifeblood of 
our economy really is in those vehicles. As we see the 
lifeblood of our economy moving through those vehicles and at 
the same time we are looking for ways to reduce casualties and 
catastrophic occurrences in an attempt to save more lives, help 
me see a path forward, and if you are aware of any other 
programs or initiatives that might be helpful.
    Mr. Osiecki. It is really about getting the biggest bang 
for your safety buck, and the safety buck is Federal dollars, 
state dollars, and industry dollars. In terms of the traffic 
enforcement activity versus roadside inspection activity, the 
MCSAP program, the motor carrier safety assistance program, is 
about a $200 million per year Federal/state grant program, and 
the vast majority of that money goes toward roadside vehicle 
inspections, focused on vehicle related defects and components, 
as I mentioned earlier.
    Now, there is a driver component to that. That driver 
component, typically paperwork, license, and so forth, so there 
is a driver piece. Let me be clear.
    But in terms of the actual benefit, traffic enforcement, 
according to FMCSA's own analysis, is at least four times more 
effective. Traffic enforcement is stopping a commercial driver 
for speeding, or an unsafe lane change, those types of unsafe 
behaviors.
    If that is four and a half times more effective than 
roadside vehicle inspections, why are we spending 90 percent of 
our MCSAP dollars on roadside inspections. It really should be 
a different balance. I am not here to tell you what the balance 
should be, but we do feel strongly that the balance should be 
more effective--more balanced toward the more effective 
countermeasure, that is traffic enforcement.
    Senator Scott. Thank you. Mr. Chairman, appreciate the 
time.
    Senator Blumenthal. Thanks, Senator Scott. I have a few 
follow-up questions. First of all, I was surprised to see in 
your testimony, Ms. Ferro, that there is no test now for sleep 
apnea; is that correct?
    Ms. Ferro. Yes, sir. There is no requirement that a driver 
be tested for sleep apnea to hold a CDL; that is correct.
    Senator Blumenthal. Should there not be one?
    Ms. Ferro. The process of assessing a driver's 
qualifications, medical qualifications, for holding a CDL, is 
something that we call the ``DOT physical.'' That happens at a 
minimum every 2 years, sometimes more frequently, depending on 
the driver's health condition.
    Over the years, the agency, working with our medical review 
board and expert panel, medical panels, that they have 
appointed or I should say asked for feedback from, we have 
consistently identified key elements within the guidance to be 
looking at when they are carrying out--a medical examiner is 
carrying out the DOT physical.
    That includes respiratory conditions, and that brings me 
back to obstructive sleep apnea, which is considered among the 
respiratory conditions that a medical examiner is expected to 
assess.
    If in that medical examiner's line of practice, their 
protocols help them identify that a driver warrants further 
screening, then those medical examiners will likely refer that 
driver for further screening.
    It is not a requirement today. The requirement is that the 
medical examiner ensure that driver meets the qualifications to 
be safe and alert behind the wheel.
    Senator Blumenthal. Well, you have given me a very full 
answer, but I am asking you----
    Ms. Ferro. Should it be.
    Senator Blumenthal.--as to whether it should be required? 
Frankly, I would think it is kind of basic. I am saying it as a 
layman, not as an expert. I would be interested in other expert 
views.
    Ms. Ferro. Right.
    Senator Blumenthal. Given the history of some crashes, and 
those----
    Ms. Ferro. Fatigue.
    Senator Blumenthal. Those include railroad crashes, I would 
think it should be part of whatever medical certificate is 
required.
    Ms. Ferro. Our medical review board and safety advisory 
committee would recommend the same. Consequently, we will be, 
adhering to congressional mandate, taking the next steps to 
develop a rulemaking on obstructive sleep apnea starting with a 
notice that asks a series of questions to gather additional 
data and assess whether a rulemaking is the right next step, 
but it can only be done through a rulemaking.
    Senator Blumenthal. Do any of our witnesses disagree with 
the proposition that sleep apnea ought to be tested before 
someone is permitted to drive commercially?
    [No response.]
    Senator Blumenthal. The record will show there is no 
objection or no disagreement.
    Let me ask you, because I think you have made some very 
good points, Mr. Osiecki, about speed limits and electronic 
logging devices. We do not have a representative of the 
National Highway Traffic Safety Administration here, but your 
organization has petitioned for a rulemaking in that area.
    Mr. Osiecki. Yes.
    Senator Blumenthal. Has there been a response? Again, I 
would agree with you that there ought to be.
    Mr. Osiecki. Yes, Mr. Chairman. In 2010, NHTSA responded to 
our petition as well as to the petition of another safety 
advocacy group. There were two of us in 2006 that petitioned. 
They said they would go forward with a rulemaking. That 
rulemaking was originally anticipated to occur in 2012, and 
unfortunately, it has not yet been proposed.
    Now to be fair, it is our understanding that it is being 
worked on and it is being worked on in conjunction with FMCSA, 
I believe, and perhaps the administrator could comment.
    So, it is moving. I think in our view it is moving at a 
snail's pace. Speed is the biggest factor, causation or 
contributing factor to car and truck crashes. If we want to 
make a difference, it is kind of like the old gentleman who 
said why do you rob banks? That is where the money is. The way 
to address safety and reduce crashes, you go to where the big 
numbers are.
    Senator Blumenthal. Well, I appreciate your point. I might 
add that one of my grievances about Federal agency and Federal 
rulemaking is that it has been too laggard, too lengthy in 
time, and that pertains to a variety of Federal agencies and 
Federal rulemakings. I appreciate your raising that point.
    I might ask you also since we are on the subject of 
rulemaking, perhaps you can tell us a little bit more about 
electronic logging devices.
    Mr. Osiecki. Certainly. The electronic logging devices is, 
as it sounds, a technology that allows truck drivers to 
electronically capture their hours-of-service. They are very 
accurate for driving time limits. There is still a driver input 
or manual input into the device for when they are working but 
not driving.
    Overall, they are effective at what they do. Initially, 
they were costly. They were in the $1,000 to $1,500 range. They 
are coming down in price, which is good.
    As I testified, we would prefer to see a final regulation 
yesterday with an implementation date. It is going to take some 
time. It will still be at least three to 4 years before that 
mandate kicks in, and we would like to see incentives to drive 
the voluntary adoption, because the voluntary adoption will 
slow down the closer we get because of the potential changes in 
performance specifications.
    Senator Blumenthal. And that is a method of making sure 
that the rules, whatever the rules are, are enforced 
effectively and consistently.
    Mr. Osiecki. Yes, sir.
    Senator Blumenthal. Let me ask you, Major Palmer, I think 
you spoke very well to this point, but I just want to make sure 
I understand it. You made the point about variation in rules 
and consistency and reliability in effect in rulemaking being 
very important to enforcement. As a law enforcer myself before 
I came here for quite a few years, that point hit home to me.
    So, it seemed to me that point would argue strongly in 
favor of not rolling back or retracting rules already in effect 
while their effectiveness is under study in case they might 
have to be re-imposed again, but leaving them in effect so that 
they can continue to be enforced, so that folks on the highways 
could continue to rely on them, even as their effectiveness is 
studied.
    Am I interpreting correctly your view?
    Major Palmer. Yes, sir, Mr. Chairman, that is what we want. 
What we would prefer is not to have to deal with retraining and 
readjusting for something that could be temporary.
    You know, it is not our position to get involved in the 
choice of what the rule is. As you know, it is our job to 
enforce what is in place, and all we are asking from an 
enforcement perspective is to maintain the rule that has been 
in effect for a year until those studies are completed, and 
that way, whatever changes are going to be made can be made at 
one time.
    Senator Blumenthal. Thank you. That completes my questions. 
Senator Blunt?
    Senator Blunt. Thank you, Chairman. On the other side of 
that one year, of course, if we find out a year from now that 
it does put a lot more people on the highway at a time when the 
highway is already clogged up, that is another year of that.
    We will see how this all works out. Clearly, this is going 
to be dealt with by the House and the Senate, and Senate 
appropriations bill. We will see if it stays there.
    Mr. Osiecki, my understanding is like with just a normal 
car or truck with a sync system--I was talking to an insurance 
person about this the other day--you can connect that sync 
system to their monitoring system for the people they have 
insured, and based on your driving behavior, they will give you 
a better rate.
    So, I am assuming that if a sync system from a normal car, 
somebody at a distant location can tell if I am starting or 
stopping too fast, or if I am driving too fast, I guess that 
same information, kind of information is available if you have 
the electronic logging system.
    Mr. Osiecki. It is, Senator, and many fleets have that 
today. The safety manager, safety director, sitting at their 
computer, at their desk, get real time alerts with hard braking 
events, perhaps steering out of context events, those types of 
things. They can directly intervene with the driver through a 
message or if not, intervene with a message to stop, intervene 
with a message to pull over and contact us.
    So, that is there and there is a benefit from these 
vehicle-based technologies, and it is being used again in the 
industry fairly widespread. I would like to see it more widely 
used. They are costly, however.
    Senator Blunt. That was my other question. You mentioned 
cost. This is from the independent owner/operator out there in 
his own truck looking for work, that has always been their 
concern, that they could not quite afford to compete at that 
level of equipment, but I assume that has gotten quite a bit 
less expensive.
    Mr. Osiecki. Yes, it is kind of like the cell phone 
scenario where the cell phone cost goes down and the real cost 
is in the over the air or the monthly charge. That scenario has 
played out in trucking as well.
    Technology device costs have come down. The cost is over 
the air. Those are still real.
    Senator Blunt. Those are still real costs to the 
independent operator.
    Mr. Osiecki. Yes they are, sir.
    Senator Blunt. That would explain some of their reluctance, 
or hey look, I am a safe driver, look at my record, why should 
I have to have a logging system. I am of the view that you are, 
that if there is a way to monitor this--liability is something 
that nobody should want to just run to embrace. You want to do 
everything you can not to have that liability.
    Ms. Ferro, I think since 2003, highway fatalities involving 
trucks decreased?
    Ms. Ferro. Up through 2009, 2009 was the lowest year on 
record, and they have crept up since that time.
    Senator Blunt. They have gone up a little bit since that 
time?
    Ms. Ferro. Yes, sir.
    Senator Blunt. Do you have a reason for that? Do you know 
why that would be the case, if they would have decreased for 
six or 7 years and then they crept back up a little bit?
    Ms. Ferro. We attribute part of it to the intensifying 
traffic on our roadways. Let me preface that by saying that is 
part and parcel why we are working today to get better data 
that incorporates fleet management device data with crash data 
and incident data, so we can better analyze when crashes are 
happening, why they are happening, and the net effect of the 
range of measures that have been taken.
    But at the end of the day, economic growth and the 
intensity of pressure on the industry to deliver and the 
growing traffic volumes all, we feel, have contributed to those 
increasing crash rates.
    Senator Blunt. So, does traffic volume become a factor in 
trying to figure out your regulations for drivers, delivery and 
other things, if traffic volume is one of the concerns here?
    Ms. Ferro. How the vehicles are being operated in the 
traffic is at the source of our concern. How the driver is 
behaving, how the company is managing the equipment and the 
driver, and the other demands in the supply chain that are 
putting pressures on that driver.
    A real compounding factor in driver pressure and driver 
stress is detention time. We touched on it a little bit with 
regard to compensation. At the end of the day, the time that a 
driver is sitting is unpaid time, and it is putting pressure on 
that driver to complete the delivery of that load.
    Until we can address this detention time issue, if it is 
unpaid by the shipping industry, if it is unpaid by the 
employer, then it is free to everybody and they do not care to 
tighten it up.
    So, the impacts of that also absolutely, as our economy 
grows and detention time grows, those kinds of things do impact 
a driver's ability to be safe, because they are pressing legal 
and physical limits to get that load completed, to get on to 
their next destination.
    Senator Blunt. Do you have a sense of what the 2013 numbers 
are going to look like, in terms of fatalities?
    Ms. Ferro. In terms of fatalities? We are watching them 
closely.
    Senator Blunt. You have those numbers. You are now going 
back and trying to analyze them over the last six months?
    Ms. Ferro. And we are trying to get to the point where it 
is a robust dataset. Traditionally, the data, the crash data, 
both fatal, injury and tow away crash data that we gather, that 
is reported through the states, takes 20 to 24 months before we 
are satisfied that we have 100 percent of the crash data in.
    I have been fairly criticized by my staff in the past for 
getting out of the box too early on some of the data because it 
does change over time.
    So, we are watching. We are looking at the first six months 
of the hours-of-service rule transition between July and 
December of last year, and watching closely as to when we will 
be close to 100 percent of the data, crash data, from the 
states, which we expect will be at least another six months, 
just for that particular period.
    I will be pleased to report back. I apologize, I will not 
be here. I know the agency will be very committed to reporting 
back as we continue to monitor that.
    Senator Blunt. Now easy for you to say, right, since you 
are going----
    Ms. Ferro. Bittersweet, I might add.
    Senator Blunt. Exactly.
    [Laughter.]
    Senator Blunt. I am sure that is right. One last line of 
questions. Every transportation company has to do drug and 
alcohol testing. That is pretty broadly based, I believe, 50 
percent within the course of a year, 50 percent of their 
drivers have to be tested.
    Ms. Ferro. That is correct, 50 percent of their drivers 
need to be tested for drugs and then alcohol is 10 percent, 
randomized.
    Senator Blunt. Randomized. Then if they have results that 
are positive, there is some point where that number goes down 
to 25 percent, if it is less than 1 percent over 2 years, I 
believe it is.
    Ms. Ferro. Yes. I think you are speaking to the authority 
of the agency, if the overall rate of positive testing is 
significantly below that threshold that you identified, the 
random population size can be reduced.
    So, after 2 years of surveys, we are identifying that it is 
lower. It has continued to come down or stayed low. I want to 
say it is below an 1 percent threshold for testing positive.
    So, the agency is assessing all the different components of 
what it would mean if in fact we lowered the random population 
from 50 to 25 percent, but those are factors that are under 
review today, so it would be premature for me to comment beyond 
that. In fact, the discussion is underway.
    Senator Blunt. Mr. Osiecki, do you have anything you want 
to say about that?
    Mr. Osiecki. Senator, the trucking industry has tried 
really hard to get its drug testing positive rate below that 1 
percent. We have tried all different types of things, moving to 
various types of testing. 2011 was the first year in which our 
industry dropped below that sort of magic threshold of one 
percent. 2012, we do not yet know the data although the 
Administrator just indicated that it may be below that 
threshold again.
    That really brings the question if all of the other modes, 
FAA, Federal Railroad, Federal Transit, if they have already 
reduced their industry's random population from 50 percent to 
25 percent, why wouldn't the trucking industry be in that same 
category, particularly since this was set up as an incentive 
based program many years ago.
    So, we essentially met the incentive as I understand it, 
and we are not being rewarded, as I understand it.
    Senator Blunt. You met the incentive that was in the 
initial incentive package, that if you can keep below one 
percent for 2 years, then you have to do fewer samples, but you 
still have to report.
    Mr. Osiecki. That is correct; yes, sir.
    Senator Blunt. Well, it does seem to me that if you change 
the incentive after you go through the process, then you cannot 
expect the process to be quite as cooperative the second time.
    Whether we are evaluating what the new incentive should be 
or we are evaluating what the facts are that the second year 
produces would be something I would be very interested in, and 
I will let you respond now or for the record on that, either 
one.
    Ms. Ferro. Thank you, Senator. I will respond for the 
record, but I do want to reinforce, we are looking at all of 
those questions today, and as Mr. Osiecki indicated, we have 
not released the final number. I probably let that cat out of 
the bag, that is too late.
    Please know this is a very serious topic and we are taking 
all factors into consideration, so we will follow up more 
clearly on the record.
    [The FMCSA Response follows:]

    Pursuant to 49 CFR 382.305(f), the FMCSA Administrator's decision 
to increase or decrease the minimum annual percentage rate for 
controlled substances testing is based on the reported positive rate 
for the entire motor carrier industry. All information used for this 
determination is drawn from the controlled substances management 
information system (MIS) reports required by 49 CFR 382.403. In order 
to ensure the reliability of the data, the Administrator may obtain 
additional information or reports from employers, and may make 
appropriate modifications in calculating the industry positive rate. If 
the Administrator determines that the data received under the reporting 
requirements for two consecutive calendar years indicate that the 
positive rate is less than 1.0 percent, the minimum annual percentage 
rate for random controlled substances can be reduced from 50 percent to 
25 percent of all driver positions.
    FMCSA is currently analyzing data from 2011, 2012, and 2013 to make 
an informed decision on whether or not to maintain or lower the annual 
random controlled substances testing rate for calendar year 2015. In 
the event the FMCSA Administrator decides to change the minimum annual 
random controlled substances testing percentage rate, the Agency will 
publish notice of the change in the Federal Register. Any new testing 
rate would be effective starting January 1, 2015.

    Senator Blunt. Well, it should be, and again, if you are 
going to set an incentive for the industry to meet, and here is 
the incentive that you are trying to achieve, you cannot then 
go back later and say well, OK, you met the incentive, you met 
the requirements, we do not think that is the right reward, 
because they still are going to have to report, the question is 
how many people they have to check, and then if it goes back 
up, I assume it works the other way.
    Thank you, Chairman.
    Senator Blumenthal. Thank you, Senator Blunt, for those 
excellent questions. I want to thank the panel. Before we 
close, there are a couple of issues, and I was going to ask Ms. 
Claybrook whether you had any kind of closing comments on some 
of the issues that Senator Blunt has just raised.
    Ms. Claybrook. Well, thank you very much, Mr. Chairman. I 
would just like to mention there were no studies that supported 
the old restart provision. So, now there is concern that there 
are no studies that have evaluated the change that Senator 
Collins is trying to remove.
    In fact, she wants to study it, but if you remove those 
provisions, they are not going to be able to be studied. So, it 
is very hard to evaluate what kind of change is going to occur 
if you do not have the changes in place to study.
    So, that is the reason we support your co-sponsorship of 
the Booker amendment which says let's leave them in place, they 
have been in for a year, it is very complicated to change them 
at this moment because the industry has already started to 
implement them, and let's study them even further.
    What we do have scientific data about, however, very 
clearly, and a lot of study has been done, is on the hours-of-
service nighttime shifts, daytime shifts, and the importance of 
getting nighttime sleep. So, there is no question about that, 
as far as I know. Those studies are very, very robust and 
substantial.
    So, in our view, in the safety advocates' view, the real 
issue is that the restart should be eliminated. We think the 
whole restart concept of allowing people to restart their hours 
with only a weekend--part of a weekend off after driving 70 
hours a week is much too little.
    Further, I would say the real problem here, and it goes to 
Senator Booker's concern about the payment, the pay that the 
drivers are getting, is they are not paid overtime. They drive 
11 hours a day and can work up to 14 hours. They do not get 
paid overtime. They have an incentive to drive as fast as they 
possibly can because they are paid on the basis of the number 
of miles that they travel, so the whole system is kaflooey, if 
I can say it that way, because it has an incentive to drive 
faster and it does not protect the drivers.
    In addition, the whole issue that Ms. Ferro raised of a 
driver having to sit and wait for the freight to be loaded and 
unloaded is not paid time. Drivers can be required to wait up 
to 3 hours.
    So, you are talking about 11 hours of driving and three 
hours of waiting, and then 10 hours to sleep, and then they 
start that process all over again, up to 70 hours a week of 
work, and then they get 34 hours off.
    That is inhumane in our view. There is a large turnover 
among drivers because of low pay and difficult hours, and 
advantage is taken of the drivers.
    I would like to also just comment if I could briefly on the 
issue of 70 percent of the truck crashes are caused by the car 
drivers. The fact is that 96 percent of the time the car 
drivers are dead, and dead men do not talk.
    So, when the police come to investigate the crash, 
naturally the truck driver is going to say well, it was not my 
fault because they want to retain their jobs, and we understand 
that. The people who were involved in that crash on the other 
side, the car drivers, they are deceased or badly injured and 
are not able to comment or explain. The police do not have the 
time to do a full fledged investigation. They are moving 
traffic. Sometimes traffic is backed up for hours as a result 
of these truck crashes.
    So, the studies that have been done on this, I think, have 
been inadequate and minimal. I do not know, I think you agree 
with that.
    Ms. Ferro. Minimal; yes.
    Ms. Claybrook. Minimal. So, I think that number is not a 
number that should be used. I would like to say that I agree 
with the ATA about having more technology in vehicles, but that 
does not in any way in my view undermine the need to correct 
the hours-of-service rules.
    They are two different issues. They are both really 
important. We completely support technology improvements, but I 
will say the technology is costly for the smaller independent 
truckers, and they do not like them and they oppose them.
    The final thing I would like to comment on, if you do not 
mind one more minute, is the insurance. The insurance number of 
$750,000 is totally inadequate for a major truck crash, and 
insurance is designed to protect the people who are harmed. It 
is not designed necessarily to assure there is going to be more 
safety. There are other things that can be done to do that, as 
we have discussed at this hearing.
    Insurance should be at least brought up to inflation 
numbers, which would bring it up to several million. One of the 
problems is that a lot of truck companies, the big truck 
companies, do have more insurance, which is great, but smaller 
companies do not, and so if you happen to be hit by a small 
truck company, you are never going to get the kind of 
compensation you deserve.
    With Mexican trucks coming into play, they only have to 
meet our minimum rules, which is $750,000, and you will never 
be able to get more than that, if there is a major truck crash 
caused by a Mexican truck.
    So, I think the rules need to be changed and the minimum 
insurance level should be substantially increased to several 
million, four or five million.
    Senator Blumenthal. Thank you. We are going to allow the 
record to remain open. I know that some of our witnesses may 
want to respond to points that have been made by other members 
of the panel.
    We are going to keep the record open for a week--I am 
sorry, 2 weeks. The Judiciary Committee is a week. I guess 
lawyers can talk quicker or write quicker. Maybe they do not 
have as much to say. That is not true, definitely.
    So, thank you very, very much. It has been an excellent 
panel. I want to thank my colleagues, particularly Senator 
Blunt, for their really excellent participation and their 
differing points of view on this panel and among us as 
colleagues, but I think what we have in common is the goal of 
increasing safety on our roads, and we have explored some areas 
where I think we have very definitely common ground, and where 
the Federal Government can play a more constructive role.
    Again, thank you so much and I look forward to working with 
every one of our members of the panel in exploring and 
advancing these areas. Thank you. The hearing is adjourned.
    [Whereupon, at 5:04 p.m., the hearing was adjourned.]
                            A P P E N D I X

Response to Written Questions Submitted by Hon. John D. Rockefeller IV 
                         to Hon. Anne S. Ferro
    Question 1. During the hearing, the American Trucking Associations 
argued that states should be focusing more of their MCSAP resources on 
traffic enforcement instead of roadside inspections. Do you agree with 
this statement? If not, please explain why.
    Answer. As an Agency, we would not agree with this argument. 
Currently, there are approximately 500,000 law enforcement officers 
nationwide who conduct traffic enforcement on the Nation's highways. 
Only about 12,000 of these officers are qualified to conduct 
inspections on commercial motor vehicles. As a result, it is imperative 
that these resources, funded through the Motor Carrier Safety 
Assistance Program (MCSAP), are used for this purpose. Data from MCSAP 
officers conducting inspection demonstration that 20 percent of the 
trucks operating on our highways have a mechanical condition so severe 
that the vehicle must be placed immediately out-of-service. We must 
maintain a strong inspection presence with the certified officers while 
encouraging states to use their other highway safety resources to 
conduct traffic enforcement. To achieve this end, FMCSA is working with 
the International Association of Chiefs of Police (IACP) to encourage 
more law enforcement to conduct traffic enforcement and to develop and 
deploy training aimed at getting law enforcement qualified and 
comfortable pulling over a commercial motor vehicle for a traffic 
enforcement stop.
    In addition, flexibility within the MCSAP program already exists. 
FMCSA's MCSAP program permits the states to request the use of more 
MCSAP funding for traffic enforcement if the state can document a 
problem that needs this solution.

    Question 2. The American Trucking Associations (ATA) support 
changes that would stop enforcement of current hours of service (HOS) 
rules. Does all of the trucking industry support ATA's position? What 
have other trucking companies said about the rules? What administrative 
steps can you take to address these concerns?
    Answer. Based on discussions between the senior leadership of FMCSA 
and the ATA on May 8, 2014, the ATA's primary concerns about the HOS 
rule are the 2013 changes to the 34-hour restart provision. 
Specifically, ATA expressed concerns about limiting the use of the 34-
hour restart to once every 168 hours, and requiring that the restart 
include two nighttime periods between 1:00 and 5:00 am.
    FMCSA does not believe that all segments of the industry support 
the ATA's position because the Agency estimated that the changes to the 
34-hour restart impacted approximately 15 percent of drivers. Many of 
these drivers work the most intensive schedules and prior to July 1, 
2013, they could average more than 80 hours of work per week. No other 
segment of the transportation industry is allowed to work such grueling 
schedules. With the implementation of the rules on July 1, 2013, the 
average work week for these drivers was limited to approximately 70 
hours.
    Other segments of the industry are concerned primarily about the 
December 2011 final rule requirement for the 30-minute rest break 
during the work day. For certain segments (e.g., livestock, and 
carriers transporting specific types of freight for the Departments of 
Defense and Energy) that are not covered by the short-haul exceptions 
to the 30-minute break rule, the Agency has granted limited 2-year 
exemptions based on its authority under 49 U.S.C. 31135.
    On December 16, 2014, the Congress enacted the Consolidated and 
Further Continuing Appropriations Act of 2015, which contained a 
provision that suspended enforcement of certain provisions of the 34-
hour restart. FMCSA issued a notice in the Federal Register on December 
17--effective the date of the law's enactment--suspending the 
requirements regarding the restart of a driver's 60- or 70-hour limit 
with which drivers were required to comply beginning July 1, 2013. The 
restart provisions have no force or effect from the date of enactment 
of the Appropriations Act through the period of suspension, and are 
replaced with the previous restart provisions that were in effect on 
June 30, 2013. FMCSA notified motor carriers, commercial drivers, State 
Motor Carrier Safety Assistance Program grant recipients and other law 
enforcement personnel of these immediate enforcement changes.

    Question 3. How do the HOS regulations for truckers differ from 
other modes of transportation (i.e., rail and aviation)?
    Answer. It's difficult to compare the modes because the Federal 
Aviation Administration (FAA) and Federal Rail Administration (FRA) 
both have monthly limits and FAA has annual limits. Neither has a 
``restart'' per se.

----------------------------------------------------------------------------------------------------------------
                                                            Restart or Time Off-
                    On-Duty/Driving or     Weekly Limits      Duty Required per   Monthly Limits   Yearly Limits
                    Flight Time Limits                              week
----------------------------------------------------------------------------------------------------------------
FAA*                9-14 Flight Duty    60 FDP/168          10 hours before FDP/  100 hrs Flight/ 1,000 flight
                     Period (FDP)/8-9                        Eight uninterrupted   190 FDP         time
                     flight                                  sleep**
----------------------------------------------------------------------------------------------------------------
FRA/Freight         12/12 -must have    Requires time off   48 hours after 6      276 hours on    None
                     10 hours off-duty   after 6             days on duty/72       duty
                     in previous 24      consecutive days    hours after 7 days
                     hour period         on-duty             on duty***
----------------------------------------------------------------------------------------------------------------
FMCSA               14/11               60/7 or 70/8        34-hour restart       None            None
                                                             every 168 hours
                                                             with two nighttime
                                                             periods
----------------------------------------------------------------------------------------------------------------
* FAA may approve alternative fatigue management programs
** Previous rule required 24 hours off per 7 day period
*** 49 U.S.C. Sec.  21103 allows employees to work a seventh consecutive day if they must do so in order to
  return to their home terminal

    Question 4. Administrator Ferro, as you know, the Department is 
currently conducting an extensive truck size and weight study. As part 
of that study, DOT is looking at whether adding weight to a truck could 
cause the truck equipment such as brakes or tires or suspensions to 
wear out faster and thereby make the heavier trucks more dangerous. 
That seems like a very important safety factor and I know the law 
enforcement community has cited this as one of its major concerns. It 
is my understanding that CVSA recently completed a joint data 
collection effort with FMCSA to see if there is any correlation between 
the weight of a truck and out of service violations due to bad brakes 
or other equipment problems. Can you tell us the results of this 
effort? Do you believe this to be a serious safety issue?
    Answer. FMCSA has been working cooperatively with both the 
Commercial Vehicle Safety Alliance (CVSA) and the Federal Highway 
Administration (FHWA) in a Heavy Vehicle Data Collection Effort. This 
3-year data gathering activity was initiated by CVSA in January 2012 
and data collection will continue through January 15, 2015. The effort 
is focused on gathering Level 1 vehicle inspection data on commercial 
straight trucks and tractor-semitrailer combination vehicles. 
Preliminary analysis conducted at the 30-month point indicates that the 
vehicle out-of-service rate for vehicles that had been issued weight 
citations is higher than the national average for all vehicles, and a 
complete analysis will be conducted at the conclusion of the data 
collection period. FMCSA believes that commercial trucks need to be 
operated and maintained in a safe condition at all times, which 
includes proper inspection, repair, and maintenance of all vehicle 
braking systems. As a data driven Agency, we will obviously take an 
objective view of the result of this research before making a 
declarative statement on truck size and weights.
                                 ______
                                 
 Response to Written Question Submitted by Hon. Richard Blumenthal to 
                           Hon. Anne S. Ferro
    Question. Truck driver fatigue is a serious problem in the 
transportation sector and is too often the cause of horrific crashes 
and needless fatalities. The Federal Motor Carrier Safety 
Administration's (FMCSA) hours of service regulations help to ensure 
that truck drivers have an opportunity to get adequate rest and are 
less tired when they get behind the wheel, thus preventing dangerous 
fatigue-related trucking accidents on our roads and highways. FMCSA 
recently instituted revised hours of service regulations that became 
effective on July 1, 2013. The new rules include a number of important 
safety provisions, but some have recently been working to stop 
enforcement of the specific changes.
    The new regulations require that after hitting the limit on hours 
in a week, a driver must rest for 34 consecutive hours--or ``re-
start''--and this time period has two conditions: (a) it must include 
at least two consecutive periods from 1:00 a.m. to 5:00 a.m.--time when 
the circadian rhythm demands rest most; and (b) it can only be taken 
after a full week (or 168 hours from the beginning of the driver's last 
re-start). Many have claimed that preventing enforcement of these two 
provisions would be a ``small'' and ``reasonable'' change to the 
current safety regimen.
    If the new rules were changed and these two provisions were 
effectively repealed, how would safety on our roads and highways be 
compromised? How many more hours in a seven-day week would a driver be 
able to drive than under the current system? How many more hours in a 
month would a driver be able to drive than under the current system? 
How many more hours in a calendar year would a driver be able to drive 
than under the current system?
    What other information should Congress consider as changes to the 
new regulations are debated? What problems could arise if Congress 
changes the rules through legislation instead of allowing FMCSA to 
address these issues through the regulatory process?
    Those working to stop enforcement of the new safety provisions have 
claimed that the new rules will prevent truck drivers from driving 
during nighttime hours and will lead to an increase in the number of 
truck drivers on the road during morning hours. Do the new hours of 
service regulations prevent truck drivers from driving during nighttime 
hours? Have the new regulations led to an increase in highway traffic 
during morning hours? If all drivers affected by the new rules began 
driving after 5:00 a.m., how would daytime traffic congestion on our 
roads be affected? How would nighttime traffic on our roads be 
affected?
    Some claim that the provisions in the new rules were implemented 
before proper research, data and analysis were conducted on their 
potential impact. What research did FMCSA conduct in support of these 
changes? What positive safety impacts has FMCSA discovered since the 
rules became effective? What further research and analysis is FMCSA 
conducting to evaluate the ongoing effectiveness of the new rules? What 
data does FMCSA rely on to carry out these analyses? What challenges, 
if any, does FMCSA face in obtaining data that could help in evaluating 
the new rules?
    The ``re-start'' concept was first instituted in hours of service 
regulations that were made effective in 2003. If the changes to the 
hours of service rules that were recently made effective in 2013, i.e., 
the two consecutive 1:00 to 5:00 a.m. rest periods and the 168-hour 
waiting period between re-starts, are scaled back, then the hours of 
service regulations will essentially return to where they were in 2003. 
What scientific research and analysis were conducted before the re-
start provision was first instituted in 2003? What specific research 
and analysis were conducted to ensure that daytime congestion did not 
increase after the re-start became effective? What specific research 
and analysis were conducted to ensure that daytime fatalities and 
injuries did not increase?
    Answer. FMCSA acknowledges that the 2013 change in the restart 
provision of the hours of service (HOS) rule affected night-time 
drivers primarily with the 1:00- 5:00 a.m. requirement. However, the 
rule did not force nighttime drivers to shift their schedules to 
daytime operations other than satisfying the two nighttime off-duty 
periods. The rule did not prevent carriers and drivers from setting 
their own schedules nor did it restrict drivers from being on the road 
during any time of the day. The impact on daytime driving is difficult 
to estimate because there are no baseline (i.e., pre-2013) data against 
which to measure the current level of daytime driving, which is not 
really known. The information about daytime driving and traffic 
congestion are more anecdotal than statistical. Although the Agency has 
heard criticism that the new rule discriminated against nighttime 
drivers and forced them to drive during the day and in prime rush 
hours, we are not aware of any evidence to support this claim.
    In assessing the impact of the 2013 changes in the HOS rule, the 
Agency estimated that only 15 percent of interstate drivers would be 
required to change their work schedules to comply with the new 
requirements. Our information indicates that this group relied 
routinely on the use of the 34-hour restart to work in excess of 80 
hours per week. Only those drivers who were working more than 70 hours 
per week are affected by having their work limited to an average of 70 
hours per week, which is still nearly double the national standard of a 
40-hour work week.
    In our regulatory analysis, the Agency determined that the changes 
to the hours of service rule would provide $280 million in safety 
benefits from fewer crashes, with 19 lives saved per year. And the rule 
provides $350 million (primary estimate discounted at 7 percent) in 
savings from improved driver health. The benefits of the rule are not 
speculative. They have been validated through long-term scientific 
studies of the relationship between increased sleep (for sleep-deprived 
groups, like truck drivers) and increased life expectancy. Allowing 
FMCSA to address this issue through the regulatory process would allow 
a scientific, data-driven outcome that considers the views of all 
relevant stakeholders.
    Prior to finalizing the 2013 rule, FMCSA held six public listening 
sessions, an online question and answer forum and carefully considered 
approximately 21,000 comments that were also submitted from drivers, 
carriers, and industry associations.
    The 2011 final rule lists 80 sources of scientific research and 
data considered by the Agency and the Regulatory Impact Analysis cited 
nearly 50 scientific sources. All of this was on top of hundreds of 
studies regarding fatigue and hours of work that were considered in 
past HOS rulemakings. Additionally, the Agency ordered the conducting 
of a third-party naturalistic field study that measured fatigue among 
CMV drivers. The study concluded the current 34-hour restart provision 
is more effective at combatting fatigue than the previous version. In 
the study, researchers measured sleep, reaction time, subjective 
sleepiness and driving performance, finding that drivers who began 
their work week with just one nighttime period of rest, as compared to 
the two nights in the updated 34-hour restart break exhibit the 
following conditions:

  <bullet> More lapses of attention, especially at night;

  <bullet> Greater sleepiness, especially toward the end of their duty 
        periods; and

  <bullet> Increased lane deviation in the morning, afternoon, and at 
        night.

    Despite this research, on December 16, 2014, the Congress enacted 
the Consolidated and Further Continuing Appropriations Act of 2015, 
which contained a provision that suspended enforcement of the 34-hour 
restart. FMCSA issued a notice in the Federal Register on December 17--
effective the date of the law's enactment--suspending the requirements 
regarding the restart of a driver's 60- or 70-hour limit with which 
drivers were required to comply beginning July 1, 2013. The restart 
provisions have no force or effect from the date of enactment of the 
Appropriations Act through the period of suspension, and are replaced 
with the previous restart provisions that were in effect on June 30, 
2013. FMCSA notified motor carriers, commercial drivers, State Motor 
Carrier Safety Assistance Program grant recipients and other law 
enforcement personnel of these immediate enforcement changes. For 
further information see FMCSA's Federal Register notice: 
www.fmcsa.dot.gov/regulations/hours-service/hours-service-drivers.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. John Thune to 
                           Hon. Anne S. Ferro
    Question 1. In your evaluation of the potential impacts of the 2011 
Hours of Service rules, which specific metrics or studies did the 
Federal Motor Carrier Safety Administration (FMCSA) use to assess the 
impacts of daytime driving due to the schedule shifts caused by the 
restart provisions?
    Answer. In assessing the impact of changes in the hours of service 
rule, the Agency estimated the percentage of interstate drivers that 
would be required to make changes to their work schedules in order to 
comply with the new requirements. The Agency estimated that the changes 
to the 34-hour restart would impact approximately 15 percent of 
interstate drivers. Our information indicated that this group routinely 
relied upon the use of the 34-hour restart to work in excess of 80 
hours per week. The changes to the 34-hour restart forced them to 
reduce their average work week to approximately 70 hours. FMCSA 
acknowledges that the change in the restart provision primarily affects 
night-time drivers with the 1:00 a.m.-5:00 a.m. requirement. However, 
the rule does not force nighttime drivers to shift their schedules to 
daytime operations other than satisfying the two nighttime periods off-
duty. The rule does not prevent carriers and drivers from setting their 
own schedules, nor does it restrict drivers from being on the road 
during any time of the day. The impact on daytime driving is difficult 
to estimate because there are no baseline (i.e., pre-2013) data against 
which to measure the current level of daytime driving, which is not 
really known. Based on information provided to us by industry and 
others during development of the HOS rule, the information about 
daytime driving is more anecdotal than statistical.

    Question 2. Please provide a detailed status update on the 
Government Accountability Office (GAO) recommendations provided in the 
GAO report entitled ``Modifying the Compliance, Safety, Accountability 
Program Would Improve the Ability to Identify High Risk Carriers.'' 
When does FMCSA anticipate closing out these recommendations?
    Answer. FMCSA responded to the GAO report on April 3, 2014, and 
explained the Agency's significant concerns regarding its findings and 
proposed metrics. FMCSA disagrees with the GAO recommendation that the 
Agency should ``Revise the SMS methodology to better account for 
limitations in drawing comparisons of safety performance across 
carriers.'' The U.S. Department of Transportation (DOT) has significant 
concerns and unresolved disputes regarding GAO's findings and analysis 
metrics, and DOT previously responded to GAO regarding its report. Most 
notably, the data sufficiency level that GAO recommends for SMS would 
limit FMCSA to overseeing just the largest motor carriers, leaving 
approximately 90 percent of the motor carrier industry outside of the 
Agency's monitoring and enforcement programs.
    In addition, GAO's metric focuses on those carriers that have 
already had a crash. The FMCSA uses SMS to prioritize its enforcement 
resources and proactively intervene early and quickly to identify 
unsafe compliance patterns before crashes occur. The assumption that a 
motor carrier that has no crashes during a limited observation period 
also has no crash risk, irrespective of demonstrated poor on-road 
performance and safety compliance across multiple inspections, is 
incorrect. The GAO's analysis runs contrary to recommendations given to 
the Agency by the National Transportation Safety Board, which has urged 
the Agency to take significant action on motor carriers identified by 
SMS as having unsafe compliance patterns before a crash takes place.
    A number of independent reports have confirmed the effectiveness of 
SMS, including reports by the University of Michigan Transportation 
Research Institute, the American Transportation Research Institute, and 
FMCSA's own analysis of SMS. These studies validate that SMS is 
reliable for its stated purpose and objective of prioritizing carriers 
for interventions. Most importantly, since FMCSA's implementation of 
SMS in December 2010, overall violation rates have decreased by 14 
percent and driver violation rates have decreased by 17 percent, the 
most dramatic decreases observed in over a decade.
    FMCSA remains committed to considering further changes to SMS 
provided such changes improve the Agency's ability to proactively 
identify unsafe motor carriers for interventions before a crash. 
Recently, the Agency made significant changes to SMS's public display 
in response to stakeholder feedback. This new version, released on 
August 4, 2014, consolidates information from multiple sites into an 
easy-to-use interface, clarifies the relationship of Behavior Analysis 
and Safety Improvement Categories (BASIC) to crash risk, and increases 
focus on SMS as a prioritization tool.
    Regarding GAO's second recommendation on FMCSA's safety fitness 
determination (SFD), a notice of proposed rulemaking (NPRM) is 
currently under development--scheduled for publication in early 2015. 
GAO recommended that the Agency ensure that any determination of a 
carrier's safety fitness account for limitations in the data. FMCSA 
concurred with the GAO recommendation, which was consistent with the 
Agency's publicly-stated position. As a result, the SFD NPRM will 
reflect the requirement for sufficient data.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Deb Fischer to 
                           Hon. Anne S. Ferro
    Question 1. I have heard from Nebraska truckers who are concerned 
about the CSA program. In our June hearing, Senator Thune asked you 
about the GAO and the OIG reports and how FMCSA is implementing the 
recommended changes to the CSA program. You said that you were 
``utilizing the recommendations from both agencies in continuing to 
improve the CSA program.'' Can you give us a more specific status 
update on implementing these changes?
    Answer. FMCSA responded to the GAO report on April 3, 2014, and 
explained the Agency's significant concerns regarding its findings and 
proposed metrics. FMCSA disagrees with the GAO recommendation that the 
Agency should ``Revise the SMS methodology to better account for 
limitations in drawing comparisons of safety performance across 
carriers.'' The methodology suggested by the GAO would result in a 
prioritization scheme that assesses the safety risks of only 10 percent 
of the industry while leaving the Agency with no prioritization scheme 
for the majority--90 percent--of active interstate carriers. The GAO 
methodology is reactive and inconsistent with recommendations from NTSB 
in that GAO prioritizes carriers that have had crashes, rather than 
proactive, by identifying carriers that are at an increased risk of 
having a crash by virtue of their pattern of safety violations observed 
during roadside inspections.
    FMCSA remains committed to considering further changes to SMS 
provided such changes improve the Agency's ability to proactively 
identify unsafe motor carriers for interventions before a crash. 
Recently, the Agency made significant changes to SMS' public display in 
response to stakeholder feedback. This new version, released on August 
4, 2014, consolidates information from multiple sites into an easy to 
use interface, clarifies the relationship of Behavior Analysis and 
Safety Improvement Categories (BASIC) to crash risk, and increases 
focus on SMS as a prioritization tool.
    Regarding GAO's second recommendation on FMCSA's safety fitness 
determination (SFD), a notice of proposed rulemaking (NPRM) is 
currently under development--scheduled for publication in early 2015. 
GAO recommended that the Agency ensure that any determination of a 
carrier's safety fitness account for limitations in the data. FMCSA 
concurred with the GAO recommendation, which was consistent with the 
Agency's publicly-stated position. As a result, the SFD NPRM will 
reflect the requirement for sufficient data.
    With regard to the OIG report, FMCSA responded to the Office of the 
Inspector General on February 27, 2014, concurring with all 6 
recommendations. Since issuance of the report, the Agency has 
officially closed the following four recommendations with documented 
action fulfilling the intent of the recommendations:

  <bullet> MH-2014-032-A02--Implement Process for Deactivating DOT 
        Numbers--Closed 4/09/2014--In March 2014, FMCSA began 
        deactivating USDOT numbers of carriers and intermodal equipment 
        providers that did not complete their biennial update by the 
        filing deadline.

  <bullet> MH-2014-032-C01--Update Carrier Safety Measurement System 
        (CSMS) Requirements Document--Closed 8/15/2014--FMCSA provided 
        an updated document.

  <bullet> MH-2014-032-C02--Develop and Implement Process for Managing 
        CSMS System Documentation--Closed 7/30/2014--FMCSA provided 
        documentation on the process for managing the CSMS System.

  <bullet> MH-2014-032-C03--Develop and Implement Configuration 
        Management Policy--Closed 7/28/2014--FMCSA provided a 
        Configuration Management policy, dated May 6, 2014, which 
        included change management and testing.

    FMCSA continues its work on the remaining two recommendations; 
their status is described below:

  <bullet> MH-2014-032-A01--Issue Updated DataQs Guidance - FMCSA is 
        preparing to issue its updated DataQs guidance in the Fall of 
        2014 to reflect implementation of its new adjudicated citations 
        policy that became effective on August 23, 2014.

  <bullet> MH-2014-032-B01--Develop Comprehensive Plan to fully 
        implement CSA Program in remaining States--In advance of the 
        final phase of a national CSA rollout slated for 2015, on June 
        5, 2014, the Agency launched a Continuous Improvement 
        Initiative: (1) to gather information and conduct analysis on 
        how the existing program elements are working, especially CSA 
        Prioritization and Interventions, and (2) to recommend 
        modifications to coincide with the final phase of the national 
        rollout that align various information technology system 
        releases with other FMCSA initiatives. Under this effort, FMCSA 
        is also considering input from the other sources: Office of 
        Inspector General, Government Accountability Office, the 
        National Transportation Safety Board, an independent peer 
        evaluator, the Federal Aviation Administration, and the Motor 
        Carrier Safety Advisory Committee.

    Question 2. Regarding your truck safety grant program--the Motor 
Carrier Safety Assistance Program--can you explain why traffic 
enforcement inspections are more effective than roadside vehicle 
inspection at reducing crashes?
    Answer. An inspection conducted as a result of traffic enforcement 
includes focused attention on observed vehicle deficiencies and driver 
behaviors. Therefore, it is expected that it would be more effective in 
identifying problems and requiring correction before a crash can occur. 
This has been confirmed through the Agency's effectiveness studies. 
Additionally, when an inspection occurs because of traffic enforcement 
for a high risk behavior or condition--such as speeding--this has been 
shown to have an even greater effect on the reduction of crashes.

    Question 2a. Can you also detail why traffic enforcement 
inspections have gone down by 40 percent over the last 4 years given 
their effectiveness in relation to vehicle inspections? What is FMCSA 
doing in the MCSAP program to reverse that trend?
    Answer. SAFETEA-LU provided states the authority to conduct traffic 
enforcement activities without accompanying inspections. Based on this, 
FMCSA began encouraging states to conduct more traffic enforcement 
activities without necessarily conducting the accompanying inspection 
based on the knowledge that the most important step was stopping the 
unsafe behavior or condition. As a result, the Agency now has a force 
multiplier of 500,000 law enforcement officers who are stopping unsafe 
vehicles and drivers to supplement the 14,000 officers who are 
certified to conduct comprehensive driver and vehicle inspections. As a 
result, the number of unsafe vehicles and drivers that are stopped as 
part of the national commercial motor vehicle enforcement program has 
grown significantly. FMCSA is working with states to capture the non-
inspection traffic enforcement data, so that it can be included in 
future reporting and analysis. This will more accurately reflect the 
activities conducted by states.
    FMCSA also makes traffic enforcement activities a specific element 
of the MCSAP High Priority grant program and in FY 2013 awarded funds 
to support over 250,000 traffic contacts by State and local law 
enforcement agencies. To support this effort, FMCSA has been producing 
training videos for non-MCSAP officers to increase their skills and 
knowledge for conducting traffic enforcement stops on trucks.
                                 ______
                                 
Response to Written Questions Submitted by Hon. John D. Rockefeller IV 
                         to Major David Palmer
    Question 1. During the hearing, the American Trucking Associations 
argued that states should be focusing more of their resources on 
traffic enforcement instead of roadside inspections. Do you agree with 
this statement? If not, please explain why.
    Answer. This is a complicated issue that cannot be answered with a 
simple yes or no. We agree that traffic enforcement is a critical piece 
of each State's commercial vehicle safety program. However, it is just 
that, a piece. A State's commercial vehicle safety program is comprised 
of a number of aspects, including roadside inspections, traffic 
enforcement on commercial vehicles, compliance reviews, safety audits, 
targeted strike forces, educational activities and even traffic 
enforcement on non-commercial vehicles--the private citizens operating 
dangerously around commercial vehicles. The appropriate level for each 
activity will likely vary from state to state and will change over time 
within any given state.
    States need more flexibility in how they spend their resources, not 
more restrictive parameters. Rather than prescribing what percentage 
must be spent on traffic enforcement versus roadside inspections alone, 
Congress and FMCSA should focus on setting broad parameters, program 
elements, goals, and expected outcomes for a program. Then, we should 
use a State's knowledge and expertise through their Commercial Vehicle 
Safety Plan as the mechanism for monitoring and evaluation to ensure 
the crash reduction targets are being met. Simply saying states should 
focus more on traffic enforcement ignores the complexity and diversity 
of each state's CMV safety program.

    Question 2. Do you agree that crash investigations and their 
subsequent reporting is often times poorly conducted, and consequently 
can serve as an unreliable source of data for determining crash 
causation?
    Answer. No, we do not believe crash investigations and reporting is 
being done poorly. However, we do agree that, in their current form, 
they are an unreliable source of data for determining crash causation 
and fault. The unreliability does not come from poor or faulty 
investigations and reporting from the states, but rather from the 
variability in how crashes are reported and what is reported state to 
state. States have different policies and protocols in terms of what is 
required to be part of the report, which results in inconsistencies in 
the data, when trying to compare from one jurisdiction to the next. The 
larger issue here is the fact that most crashes do not get investigated 
or reported by law enforcement official(s) who are CVSA Certified or 
have been trained to investigate commercial vehicle crashes. This 
exacerbates the uniformity conundrum. Lastly, in many states the 
investigating officer does not determine fault in the crash, they 
report the facts, and in Texas' case, the factors believed to have 
contributed to the crash. The determination of fault is left to be 
determined by the insurance companies and/or the courts.

    Question 3. Major Palmer, during your testimony, you mentioned the 
enforcement challenges associated with the changes to the hours of 
service rules proposed in the Senate THUD Appropriations bill. Could 
you elaborate on those concerns?
    Answer. We see a number of challenges associated with the proposed 
temporary suspension of a portion of the current hours of service (HOS) 
rules. Legislating temporary changes to the HOS rules creates 
significant uniformity and consistency problems across the country. The 
impact of such an approach will create unnecessary upheaval for the 
states and cause significant operational and budgetary impacts on their 
enforcement efforts.
    The HOS regulations are already complicated to comprehend and 
enforce and any change requires the states to retrain their inspectors. 
With approximately 13,000 CVSA-certified inspectors in the field, 
organizing and delivering training in all 50 states is a significant 
task. Each state is structured differently, and the resources needed to 
develop and deliver training are significant. It would also require the 
expenditure of unplanned resources, which impacts on State budgets. Add 
to this any information technology (IT) changes, such as software 
modifications, and additional training to accommodate rule changes 
increases the resource commitment. In addition, temporarily suspending 
enforcement of a regulation takes inspection personnel away from their 
critical enforcement duties. Equally concerning, we could go through 
all of this for a temporary change that could very well result in no 
permanent change to the regulations after the review is complete.
    Constant change causes confusion for both industry and enforcement. 
Compliance and the determination thereof are nearly impossible because 
the rules have changed so often over the last 10 years, and have become 
so complicated that it is exceptionally difficult to keep pace with the 
changes. This constant back and forth has also resulted in a number of 
narrow interpretations on exceptions and exemptions, further 
complicating enforcement and undermining uniformity.
    We need to be data driven and fact based in our decision making. To 
this end, CVSA supports a comprehensive study on the safety and 
operational impacts of the HOS regulations, during which the current 
rules should remain in place. Once this analysis has been completed, 
only then would it be appropriate to consider any changes or 
adjustments through the rulemaking process. The rules are designed to 
help keep all drivers safe, both commercial and other road users, and 
it is our job to protect them.
    Furthermore, to our knowledge, there is not a safety-related, 
science-based justification that has been presented for changing the 
current HOS rules. We are not aware of a comprehensive analysis of the 
safety impacts of the current regulations, nor has there been any 
analysis comparing the existing regulations versus the previous 
regulations. While we agree that regulations should be written with 
industry needs in mind, the fact remains that they are safety 
regulations, not efficiency regulations and changes should be made 
based on a demonstrated need and clear, science based data. While the 
Alliance opposes any efforts to temporarily suspend enforcement, CVSA 
supports calls from industry to evaluate the rules to determine if 
changes are necessary or warranted.
    There is one final challenge that is more administrative in nature. 
Technically, states do not enforce the Federal Motor Carrier Safety 
Regulations (FMCSRs). Instead, they enforce their own State laws and, 
as part of the MCSAP program, the states agree to make their own rules 
mirror the Federal ones. States are given up to three years to adopt 
changes made to the FMCSRs. This is because the states adopt the 
changes through different mechanisms and, depending on the method, time 
is necessary. For example, states that adopt through legislation have 
to wait until the next State legislative cycle to bring the matter up. 
It's difficult to determine how a temporary change that is intended to 
be immediate will work in practice, given the process necessary for the 
states to adopt changes to the Federal rules.

    Question 4. The Administration has proposed a consolidation of the 
grant programs. Can you tell us more about the administrative hurdles 
within the MCSAP grant process?
    Answer. There are number of administrative challenges with the 
current MCSAP grant process, which are outlined in detail in our 
written testimony. In summary, the process is overly prescriptive, with 
insufficient accountability requirements placed on FMCSA. The two most 
significant challenges are the unpredictability of the program and the 
micromanagement by FMCSA.
    States continue to be frustrated with the inconsistency, year to 
year, region to region, and state to state. FMCSA is constantly 
revamping the process, perhaps in an attempt to improve it. However, 
the end result is confusion and unclear expectations for the states. 
Without consistency, the states cannot properly plan for their annual 
Commercial Vehicle Safety Plan (CVSP) and grant application submission. 
Formatting requirements change year to year, material that was 
acceptable one fiscal year is no longer acceptable the next, the 
timeline for the grants process changes frequently, etc. Often, the 
results of a grant application depend more on who is reviewing the 
application, rather than the content. Grant applications are not all 
reviewed by the same panel(s), resulting in inconsistencies from one 
grant request to another, complicating the process for states. All this 
results in constant upheaval for the states, and they end up diverting 
much needed resources away from other efforts, as they are constantly 
adapting, redoing, and adjusting their process to meet the ever 
changing needs of FMCSA.
    In addition, funding disbursement is unreliable, making it 
difficult for states to plan. There are a number of factors that 
contribute to these delays and result in complications for the states. 
The annual delays in the Federal budget and appropriations processes 
are one contributing factor. The Federal fiscal year begins October 1, 
and many grant programs are set to that date. However, Congress rarely 
completes their funding bills by this date, delaying the disbursement 
of funds to the states. Even more frequently now, Congress relies on 
temporary continuing resolutions, which results in states receiving 
their funds late, and in installments. This unpredictable, piecemeal 
approach to funding makes planning and management of State programs 
difficult. This issue is further complicated by the fact that many 
states do not follow the Federal fiscal calendar (most start July 1), 
complicating the reporting and tracking process. States also believe 
that once funds are available, the grant review and approval process 
takes far too long, further delaying receipt of funds for safety 
programs.
    In addition to the challenges caused by inconsistency, there is a 
lack of transparency and accountability within the MCSAP grant process 
when it comes to FMCSA. When applying for Federal funds, states are 
given strict deadlines and parameters they must meet in order to 
qualify and receive funds. However, there are no established deadlines 
for FMCSA, in terms of their grant review process. CVSA recommends 
setting grant application review deadlines for FMCSA, possibly modeled 
on the State and Community Highway Safety Formula Grant Program, 
commonly referred to as the 402 grants, administered by the National 
Highway Traffic Safety Administration (NHTSA). The 402 grant program 
has a clear timeline in place and using a similar model would, at least 
for the Basic MCSAP grants, ensure that once funding is authorized by 
Congress, the agency is prepared to disburse the funds immediately, 
helping to reduce delays in funding disbursement.

    Question 5. Major Palmer, in your testimony, you mentioned IT 
needs. What steps are necessary to improve data collection and 
transmission? What benefits would that have?
    Answer. Uniform, timely and accurate data is the cornerstone of the 
MCSAP. Enforcement Personnel, along with State and Federal agencies, 
use information on a motor carrier's past performance to help 
prioritize motor carriers for roadside inspections and compliance 
reviews. Performance data from the commercial motor vehicle industry is 
used to identify trends and problem areas, and to craft enforcement and 
education initiatives to target specific safety problems. Data is not 
only used to evaluate whether or not enforcement is being conducted 
uniformly, but also to determine whether or not a particular safety 
program or concept is successful. Data is used to determine whether 
enforcement funds are being used in the most efficient, effective 
manner possible. In order to effectively and efficiently perform these 
activities, the states and the Federal Government must be able to rely 
on the data compiled in the various systems to be as accurate and as 
uniform as possible, in order to make comparisons. As technology 
continues to advance, we will become even more reliant on the data 
being inputted into various systems. Because of this, it is critical 
that the data is being processed and transmitted accurately.
    Currently, however, redundant, overlapping information technology 
(IT) systems and outdated software applications result in 
inconsistencies in the data being collected, undermining the safety 
programs and strategies being built upon them. These data challenges 
hinder the inspection process and create extra, unnecessary work for 
industry and enforcement alike.
    As an example, the Motor Carrier Management Information System 
(MCMIS) is the main system for which all the data collected from State 
and Federal agencies for FMCSA is housed, including inspection, crash, 
compliance reviews, safety audits, carrier information and history and 
numerous other data sets. Other programs, such as SAFER, Query Central, 
and State CVIEW systems, as well as the Compliance, Safety, 
Accountability (CSA) program, extract the data from MCMIS to run their 
programs. Developed in the 1980s, MCMIS is almost 30 years old. As the 
program ages, it becomes harder and more expensive to make software and 
program changes. The system can simply no longer meet State and Federal 
data needs.
    In addition to relying on outdated, insufficient systems, FMCSA has 
become too focused on new software development and is distracted by too 
many competing priorities. As a result, updates and improvements to the 
primary data collection and management programs on which everything 
rests are constantly delayed and the states are forced to use outdated 
and cumbersome legacy systems.
    All this undermines safety--for example, a driver's license could 
have been suspended. However, because of system incompatibility, the 
Commercial Driver's License Information System (CDLIS) may show one 
status, while the Nlets system, used by law enforcement, may show a 
different status. Depending on which system is accurate and which is 
accessed, it's possible that an unqualified driver, whose license has 
been suspended, will be stopped, inspected, and then allowed to 
continue driving.
    Simply put, FMCSA's IT program lacks focus and direction. Were 
FMCSA to focus on setting parameters and functional specifications, 
rather than software development, the program would improve 
tremendously. FMCSA should be managing the system and software 
development process, rather than doing the actual programming. The 
Agency needs to clearly identify challenges and solutions, as well as 
address State needs, and establish a clear path forward to meet those 
needs. FMCSA must take a step back and completely reevaluate its 
development process and how it prioritizes IT projects.
    CVSA believes it is necessary for Congress to call for an 
independent study of the Agency's IT and data collection systems. The 
study should include an evaluation of the efficacy of the existing 
systems and programs and their interaction. It should identify 
redundancies and explore the feasibility of consolidating data 
collection and processing systems. The study should evaluate the 
ability of the programs and systems to meet the needs of FMCSA, both at 
headquarters and in the State offices, as well as equally the needs of 
the states themselves. The study should investigate improving any and 
all user interfaces. The study should take into account the systems' 
and programs' adaptability, in order to make necessary future changes 
in an easier, timely, and more cost efficient manner. In addition, the 
study should explore the necessity and feasibility of increasing the 
Agency's IT budget, to bring it in line with other Federal programs.
    Once completed, FMCSA will have a clear path forward and can begin 
implementing the recommendations developed in the report. The result 
will be better data quality and improved use of that data by both 
enforcement as well as the regulated industry. It will improve safety 
and efficiency in the field. States and FMCSA will have current and 
reliable data to help make decisions and industry will have a greater 
level of confidence in the data and the programs that are built upon 
it.

    Question 6. As you know, the Department is currently conducting an 
extensive truck size and weight study. As part of that study, DOT is 
looking at whether adding weight to a truck could cause the truck 
equipment such as brakes or tires or suspensions to wear out faster and 
thereby make the heavier trucks more dangerous. That seems like a very 
important safety factor and I know the law enforcement community has 
cited this as one of its major concerns. It is my understanding that 
CVSA recently completed a joint data collection effort with FMCSA to 
see if there is any correlation between the weight of a truck and out 
of service violations due to bad brakes or other equipment problems. 
Can you tell us the results of this effort? Do you believe this to be a 
serious safety issue?
    Answer. In recent years, there has been a significant amount of 
interest by many in industry to advocate in the U.S. Congress for 
increasing the legal weight limits for trucks, and to a lesser extent, 
for changes to truck size limits. As a result of this increased level 
of interest, many questions have arisen. With CVSA's commitment to 
commercial motor vehicle safety and enforcement, it is important for 
CVSA to take a leadership role in helping to shape the policy debate on 
what issues are to be considered for changes currently being 
contemplated to truck size and weight policy in the United States. To 
help reach this goal, and after a review of available literature 
indicated safety data was lacking, CVSA's Executive Committee 
instructed their Size & Weight Committee to work with DOT officials to 
develop a safety data collection program. The Heavy Vehicle Data 
Collection Effort is one means with which we believe the Alliance can 
further inform the debate on this issue.
    The data collection effort, which began in January 2012, is 
designed to collect safety data from roadside inspections on vehicles 
exceeding certain weight levels. The goal is to gather data that will 
help us determine what impact, if any, heavier vehicle weights have on 
a vehicle's structural components, motor carrier safety violations, and 
overall safety. By gathering this data, the Alliance will be able to 
get a sense for whether or not there are any correlations between 
higher vehicle weights and specific motor carrier safety violations, 
particularly those with out-of-service conditions. CVSA partnered with 
the Federal Highway Administration and the Federal Motor Carrier Safety 
Administration on the effort, with the agencies agreeing to conduct the 
data analysis.
    In order to participate in the study, CVSA asked that inspectors 
conduct their inspection activities per their standard operating 
procedures. When inspectors identify a vehicle that is over the 
allowable axle, axle group, or gross vehicle weight or if the vehicle 
is operating under a special weight permit, the project guidance asked 
that they flag the inspection report for inclusion in the study. The 
project asked that inspectors distinguish between permitted vehicles 
(e.g., operating legally) and those overweight illegally, in order to 
better understand the data.
    Initially approved for one year, the study been extended twice, and 
is now set to run through January of 2015. Participation in the study 
is voluntary and is open to U.S. jurisdictions able and willing to 
participate. CVSA encouraged all member jurisdictions to consider 
participating in the study in order to produce an adequate data sample. 
By the end of the second full year, 30 states were participating in the 
study, having conducted nearly 10,000 inspections under the study. The 
majority of the inspected vehicles under the study were non-permitted 
combination vehicles, which also represent a majority of the vehicles 
operating on Interstate highways.
    The data collected suggests a correlation between vehicle equipment 
violations and overweight vehicles. After two years, vehicles included 
in the study had an out of service rate of 36.63 percent, well above 
the national average of about 20 percent. Not surprisingly, brake 
violations accounted for the largest portion of the violations 
identified as part of the study, followed by alignment and tire issues. 
These types of violations increase the likelihood of a vehicle not 
being able to stop in a timely manner, or not having full control of a 
vehicle in the event of an emergency stop or maneuver, especially in 
inclement weather.
    The data collected also suggests a correlation between vehicle 
defects, particularly related to braking systems, and weight, and 
therefore safety. As more force is required to stop or slow a vehicle 
in the same distance and time as the weight of the vehicle increases, 
it is important that the vehicle components, particularly the brakes, 
be in proper working order to reduce the potential for crashes. Again, 
braking defects were the most common type of violation cited under the 
study, which suggests that heavy vehicles do tend to create additional 
wear on braking components.
    The study will continue through January of 2015, at which point 
CVSA will determine what next steps are most appropriate. DOT is 
currently working on assembling the final two year report, which we 
will provide, once completed.
                                 ______
                                 
Response to Written Questions Submitted by Hon. John D. Rockefeller IV 
                     to William G. ``Jack'' Dawson
    Question 1. Some have argued that drivers get used to working at 
night and the 2 rest periods of 1am to 5am are actually disruptive to 
those drivers. Do you have any practical experience driving at night? 
What effect have nighttime rest periods had on you?
    Answer. In my current position as a trainer for UPS, my work takes 
place largely at night which means I typically sleep during the day, 
but on my days off I switch to a night time sleep schedule because I 
find that it leaves me more rested than my daytime sleep patterns.
    Additionally, as I stated in my testimony, when I am not acting as 
a trainer, I am subject to duty as a driver in a group called the 
``extra board.'' I am required to be available to answer the phone at 
midnight, 5am, 10am, 1pm, 6pm, and 8pm should I be needed to complete a 
run. Because of the erratic nature of the extra board, a regular 
schedule does not really exist for drivers. The one tool we have at our 
disposal to combat the type of exhaustion that causes accidents is the 
hours-of-service regulations. Allowing drivers to have two rest periods 
from 1am to 5am where they can sleep at home in their own bed instead 
of their cab is not unreasonable and helps promote rest during one's 
natural circadian rhythm.

    Question 2. You mentioned in your statement that some Teamster 
members are subject to the 34-hour restart and some are not, and that 
you, in fact, are subject to the restart. What has been your experience 
with it? Do you think it provides sufficient rest?
    Answer. While I know that there have been efforts in Congress to 
roll back the 34-hour restart, I believe these efforts are misguided. 
The 34-hour restart causes minimal disruption to a drivers work week as 
we are still able to work up to 60 hours in 7 days or 70 hours in 8 
days but we are given the opportunity to take a day and a half off 
every week when we need it.
    While it would be preferable to have a longer period of rest 
available as truck driving is a stressful and exhausting job, the 
regulations are effective in their current form. Any opportunity you 
have to be at home with family instead of on the road helps you 
recuperate from the cumulative fatigue created by driving long hours on 
America's increasingly congested roadways.

    Question 3. You mentioned that prior to working at UPS, you drove 
for a private carrier and often experienced detention time while 
waiting for a trailer to be loaded or unloaded, and that detention time 
is not as prevalent in the unionized less-than-truckload sector. Can 
you explain why that is the case?
    Answer. When I worked for a non-union carrier, during load up I was 
paid $1 per 1,000 pounds with loads typically ranging from 6 to 20 
tons. I often waited up to 12 hours to receive a load which meant that 
for my detention time, I was frequently paid between $1 and $3.33 per 
hour, well under minimum wage. However, detention time under a union 
contract is paid at or considerably above minimum wage so the shipper 
or receiver paying for that time has an incentive to keep detention 
times low.

    Question 4. Recent reports show that the trucking industry is 
facing an increasingly large shortage of drivers. What are some of the 
reasons for this shortage?
    Answer. I think in much of the industry, the issue is a pay 
shortage rather than a driver shortage--if you pay people enough, there 
will be people willing to perform the job. The other issue is that you 
have a tough job with plenty of disadvantages and very few perks. As a 
driver, we often work 70 hour weeks which is nearly twice the average 
American work week but our compensation does not reflect this. 
Likewise, we are often away from home for extended periods of time 
making family life difficult. Moreover, the job is demanding and we are 
constantly maneuvering our rigs to avoid accidents. There are many jobs 
in which the pay is equal to ours but doesn't require as much time, 
training, or responsibility. When you factor in the pay for all that 
you have to do, the job isn't very desirable. Commercial driving also 
comes with its own set of hazards. In 2012, according to FMCSA, in 
crashes involving large trucks, 697 occupants of those trucks were 
killed (the highest number since 2007).
    From my perspective, unlike much of the industry, UPS does not have 
as much of a problem attracting applicants because UPS is the top of 
the industry in terms of pay. However, UPS is also the most rigorous in 
their training program which presents other hiring challenges. The 
number of road drivers at the UPS freight facility in Dallas, TX where 
I work is 156. In the past 10 years, our facility has hired only 5 
people, in the last 8 weeks, however, UPS has set out to fill 20 new 
positions. So far, we have hired 30-35 people at this point. About 15 
of those hires no longer work for UPS. Of that 15, half have not made 
it through the safety training and the other half were let go because 
they didn't want to do the work. Even with reducing the age and 
experience requirements, UPS freight is having trouble attracting 
dedicated, qualified drivers. The commitment UPS makes to safety 
training may seem tedious and unattractive to hirees but it is 
necessary for keeping our roads safe.

    Question 5. You have previously driven twin-28 foot trailers. Do 
you have concerns with allowing even longer twin-33 foot trailers on 
the road? If so, why?
    Answer. I am fortunate that I have never had to drive twin 33's as 
they are prohibited in Texas, but driving twin 28's is difficult enough 
to control in traffic. As a driver, I am constantly practicing safety 
techniques to keep me from colliding with other vehicles. When you add 
an extra ten feet to the truck, your stopping distance increases as 
does your blind spot which makes preventing accidents all the more 
difficult.
    Moreover, the roads were not built to accommodate bigger, heavier 
trucks--adding to the size and weight of the trucks increases wear and 
tear on roads. Then, too, entrance and exit ramps on America's highways 
are not long enough to accommodate the increased trailer lengths. This 
can create dangerous situations when these larger, heavier trucks are 
attempting to get up to speed and merge onto highways.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. John Thune to 
  Commercial Vehicle Safety Alliance, on behalf of Major David Palmer
    Question 1. We have heard that states face significant 
administrative challenges in obtaining and administering Motor Carrier 
Safety Assistance Program (MCSAP) grant funds. Can you provide examples 
of these challenges?
    Answer. There are a number of challenges associated with 
administering the MCSAP program, which as you know supplements State 
funds invested in commercial motor vehicle (CMV) safety and 
enforcement. There is excessive red tape and process, micromanagement 
of funds, inconsistencies in the process, and a lack of reliability in 
terms of the funding schedule.
    The red tape and unnecessary process has steadily increased over 
the past few years. The grant application process itself is cumbersome 
and involves many layers of review. However, one of the biggest 
concerns is the inconsistency. Every year the process changes, what's 
required of the states changes, what is deemed acceptable in the plan 
or an eligible expense under any given program can change. Approved 
expenses even vary depending on who reviews the grant applications, 
meaning that an expense approved in one state would be rejected in 
another. It's impossible to properly plan for, and the states end up 
reinventing the wheel each year with their application and spending 
inordinate amounts of time and resources administering the grants. It's 
to the point now where some states simply do not apply for some grants 
because it's not worth the energy required or the unnecessary and 
unreasonable scrutiny. Unfortunately, states are turning away 
potentially lifesaving Federal assistance.
    As Texas examples of micromanagement and a lack of understanding of 
state enforcement requirements and practices, the Federal Motor Carrier 
Safety Administration (FMCSA) determined standard issue Tasers and long 
guns, rifles and shotguns, issued to our grant funded commercial
    vehicle enforcement (CVE) troopers are not eligible expenditures 
under any FMCSA designated grants. It is quite perplexing, and 
frustrating, that FMCSA chooses not to fund all of the required 
equipment necessary for MCSAP or Border Enforcement Program funded CVE 
officers, even though they will fund the trooper's required side arm 
(hand gun). Additionally, FMCSA has refused to fund portable breath 
alcohol testing (PBT) devices under our Border Enforcement Program 
grant even though one of their own regulations, 49 CFR Sec. 392.5, 
provides various restrictions and prohibition on alcohol use when 
operating a CMV. Finally, although less significant but clearly 
representative of many of the states' concerns, FMCSA questioned why 
our MCSAP Grants captain needed a cellular phone as part of his duties. 
Unfortunately, the mere question reflects FMCSA's lack of 
understanding, and points directly to the micromanagement of a State's 
CMV program, which required unnecessary additional justification.
    Another major concern states have with the MCSAP program is the 
constant delay in funding disbursement. There are a number of factors 
that contribute to these delays and result in complications for the 
states. The annual delays in the Federal budget and appropriations 
processes are one contributing factor. The Federal fiscal year begins 
October 1, and many grant programs are set to that date. However, 
Congress rarely completes their funding bills by this date, delaying 
the disbursement of funds to the states. Even more frequently now, 
Congress relies on temporary continuing resolutions, which results in 
states receiving their funds late, and in installments. This 
unpredictable, piecemeal approach to funding makes planning and 
management of State programs difficult. This issue is further 
complicated by the fact that many states do not follow the Federal 
fiscal calendar (most start July 1), complicating the reporting and 
tracking process. States also believe that once funds are available, 
the grant review and approval process takes far too long, further 
delaying receipt of funds for safety programs. As a result, states 
often receive their funds well into the time-frame of the grant and are 
not able to spend the appropriated funds responsibly before the grant 
expires, forcing the states to return much needed funding that was 
dedicated for enforcement and inspection activities as identified in 
their Commercial Vehicle Safety Plan (CVSP).
    While a reasonable amount of oversight is, of course, necessary and 
appropriate, a manageable, consistent and uniform program is essential. 
There are a number of changes that could be made that would alleviate 
the burden on states and free up time for FMCSA as well. We make 
several recommendations in our written testimony. In addition, the 
Commercial Vehicle Safety Alliance (CVSA) is currently working with 
FMCSA to find additional solutions to these challenges and looks 
forward to working with the Committee to ensure that these changes take 
place, allowing the states to focus on doing the work of the grant 
programs, rather than administering them.

    Question 2. In your written testimony you note that there are ``a 
number of policies and practices that complicate the [MCSAP] program, 
undermining uniformity and consistency, and detracting from the 
efficiency'' of the program. Can you provide examples of guidance or 
policy documents that create confusion and possible suggestion on how 
they can be fixed?
    Answer. This is a critical issue that gets very little attention. 
The foundation of an effective safety program is quality, uniform, and 
consistent enforcement activities. As stated in my testimony, if an 
inspector does not understand the regulations, he/she cannot 
effectively enforce them. States and industry need clear, concise and 
enforceable regulations. Challenges include inconsistent and outdated 
regulations, complications that come with exemptions, and changes to 
the rules that do not take into account the impacts to the states and 
enforcement.
    New regulations, coupled with changes to the industry and 
technological advancements can result in inconsistent, outdated, and 
redundant regulatory language. With each year come additional 
requirements from Congress, aimed at advancing CMV safety. In addition, 
FMCSA receives and responds to petitions for changes to the Federal 
Motor Carrier Safety Regulations (FMCSRs) from the CMV community. As 
Congress and FMCSA work to improve CMV safety, unintentional 
inconsistencies can slowly work their way into the regulatory 
framework. These inconsistencies can lead to confusion among both the 
regulated and enforcement communities.
    Further complicating the matter is the fact that, technically, 
states do not enforce the FMCSRs. Instead, they enforce their own State 
laws and, as part of the MCSAP program, the states agree to make their 
own rules mirror the Federal ones. States are given up to three years 
to adopt changes made to the FMCSRs. This is because the states adopt 
the changes through different mechanisms and, depending on the method, 
time is necessary. For example, states that adopt through legislation 
have to wait until the next State legislative cycle to bring the matter 
up.
    Interpretations and regulatory guidance can also create challenges. 
Essentially, when issues arise in the field that need to be addressed 
quickly, FMCSA issues an interpretation or guidance or policy memo to 
let inspectors know what the short term solution is. It's important 
that the agency be able to do this, because the rulemaking process is a 
long one. These documents are generally intended to address technical 
errors in published rules or to clarify vague regulatory language 
within the safety regulations. As these interpretations, guidance 
documents and memos are issued, the goal is to ultimately ensure the 
regulatory language is then brought up to date. However, the number of 
full rulemakings that can make it through the agency in any given year 
is limited by staff and funding, and a number of higher profile rules 
tend to push simple technical changes down in the queue. As a result, 
disconnects have developed between written regulations, regulatory 
guidance and interpretations, leaving industry and enforcement 
wondering which position is the ``correct'' one, resulting in 
inconsistent enforcement.
    For example, there is inconsistency in the regulations regarding 
when a driver whose license has been suspended should be disqualified 
by an inspector. The original regulation (FMCSR Sec. 383.51) states 
that a driver whose license has been suspended must be disqualified, 
regardless of the reason. However, later, FMCSA added an interpretation 
(FMCSR Sec. 383.51--Question 6), indicating that the agency was in the 
process of undergoing a rulemaking (FMCSA-00-7382) to change this, so 
that only those drivers whose licenses have been suspended for a safety 
related reason should be disqualified. The rule was completed in 2002, 
and the definition of ``disqualification'' was updated in FMCSR 
Sec. 383.5. However, the corresponding sections in FMCSR Sec. 383 and 
Sec. 391 were not updated, and still contain interpretations that 
reference a rule that was completed more than a decade ago. This has 
resulted in inconsistencies in the enforcement of driver 
disqualifications.
    To address this issue, CVSA supports requiring FMCSA to conduct a 
full review of the FMCSRs every five years, in collaboration with CVSA 
and the affected industry, geared towards reducing, enhancing, and 
streamlining the regulations, eliminating outdated or duplicative 
regulations, clarifying those that need adjustment, etc.
    Exemptions are another way that enforcement is complicated. 
Exemptions can, at times, compromise safety, and they always complicate 
enforcement. We recognize that there may be instances when exemptions 
could be appropriate and not compromise safety. In those instances, 49 
USC Sec. 31315(b) already provides a mechanism for those in industry to 
obtain an exemption through FMCSA. This process includes providing for 
an equivalent level of safety, requiring that the exemption ``would 
likely achieve a level of safety that is equivalent to, or greater 
than, the level that would be achieved absent such exemption.'' In 
addition, exemptions obtained through this process are limited to a 
maximum of two years (subject to renewal), which provides oversight to 
ensure that safety is not compromised, as well as an opportunity to 
eliminate exemptions that have not maintained an equivalent level of 
safety. This is the proper model.
    In contrast, exemptions obtained through legislation do not always 
include safety considerations and are difficult to remove once 
established. Because a process exists for industry to pursue exemptions 
through an administrative process, CVSA opposes the inclusion of 
exemptions from Federal safety regulations in legislation. At the very 
least, when exemptions are included in legislation, CVSA supports 
requiring the inclusion of a ``safety clause'' as a part of any 
exemption statutorily enacted, similar to that in 49 USC Sec. 31315(b), 
providing for an equivalent level of safety, as well as language that 
would allow for the elimination of the exemption if an equivalent level 
of safety cannot be demonstrated.
    Regulations must also be enforceable. Regardless of the intent of a 
new rule or requirement, if there is not a way to enforce it roadside, 
it is not going to be an effective regulation. The current electronic 
logging device (ELD) rulemaking is an example of a good concept that, 
if not executed properly, will not have its intended results. There has 
been a significant amount of attention paid to ensuring that the new 
regulations take into account the needs of industry, in order to ease 
the burden, but very little time spent on how the enforcement community 
will access the devices and incorporate them into the inspection 
process. If inspectors cannot easily and reliably retrieve data from 
ELDs at roadside the devices are of little value. The ELD rulemaking 
has the potential to improve hours of service (HOS) compliance and 
enforcement, but only if the inspectors are given the tools they need 
to properly use the devices. This fact must be a consideration in the 
development of the Final Rule.
    Far too often, the impact to the enforcement community is not taken 
into consideration. The ongoing effort to temporarily defund a portion 
of the HOS rule is a good example. The HOS requirements are first and 
foremost safety regulations, not efficiency or productivity 
regulations. However, we strongly agree that the regulations must be 
written in a manner that meets the needs of the trucking industry as 
well. But pushing the burden from industry to the enforcement community 
is not a responsible solution. A temporary suspension of a portion of 
the regulations will require that we retrain all 13,000 CVSA-certified 
inspectors, which is no small feat. In addition, while they're being 
retrained, for the second time in as many years on the HOS rules, they 
cannot be out in the field. Retraining would also require the use of 
additional resources that had been slated for other expenses, not to 
mention the cost of updating software and other administrative 
activities associated with changes in regulation.
    In addition, constant change causes confusion for both industry and 
enforcement. Compliance and the determination thereof are nearly 
impossible because the rules have changed so often over the last 10 
years, and have become so complicated that no one can keep pace with 
the changes. This constant back and forth also has resulted in a number 
of narrow interpretations on exceptions and exemptions, further 
complicating enforcement and undermining uniformity.
    CVSA has no objection to examining the regulations and making sure 
the right rules are in place, we only ask that any changes to current 
regulations be conducted after the research has been completed and not 
before.

    Question 3. The Commercial Vehicle Safety Alliance (CVSA) supports 
increasing the funding cap on MCSAP grant funds to provide additional 
traffic enforcement activities to address safety concerns including 
aggressive driving or speeding. Do you believe these activities are 
more effective uses of state safety dollars than roadside inspections?
    Answer. Traffic enforcement is a critical component in any State's 
comprehensive CMV enforcement program. Each State's program is 
constructed, in collaboration with FMCSA, to meet a State's individual 
needs and includes things like roadside inspections, weigh station 
inspections, compliance reviews, safety audits, and yes, traffic 
enforcement on both CMVs and non-CMVs. There is no one solution to the 
Nation's traffic safety challenge. While reasonable Federal oversight 
and guidance is important, each state has individual needs and 
challenges that are only known and understood by them, and therefore 
can only be addressed by that state.
    Furthermore, it should be noted that in the data cited by the 
American Trucking Associations in their testimony, the traffic 
enforcement being referred to is being conducted in conjunction with a 
roadside inspection. We are not aware of any analysis that has been 
done to determine how much value each activity brings individually when 
they are being conducted together.
    We are not opposed to states conducting more traffic enforcement 
activities if they believe that is a strategy that will work to drive 
down crashes in their state. As I mentioned in my testimony, another 
important point is there is a lot of traffic enforcement activity on 
commercial vehicles that currently is not being accounted for in the 
FMCSA statistics. This is because a roadside inspection does not 
accompany many of the traffic infractions cited by law enforcement, the 
MCSAP, appropriately, does not require this information to be made 
available to FMCSA.
    Also, a note of clarification regarding the Alliance's 
recommendation related to increasing the cap on MCSAP grant funds to 
provide additional traffic enforcement activities. This recommendation 
does not pertain to traffic enforcement on CMVs, instead, it is 
specific to the amount of traffic enforcement a state can do on non-
CMVs. The current program caps the amount states can spend on traffic 
enforcement on personal vehicles at 5 percent. CVSA is seeking an 
increase in that cap, to allow states who choose to do so to spend up 
to 10 percent of their Basic MCSAP funds targeting individuals who 
drive unsafely around CMVs, recognizing that, often, it is the drivers 
operating around the CMVs that create dangerous conditions and cause 
crashes.
    In Texas, we are constantly evaluating our programs and making 
adjustments based on the needs we see in our state and I know my 
colleagues in the other states do the same. Our purpose is to reduce 
crashes and fatalities and get the dangerous motor carriers, vehicles 
and drivers off the road and we are committed to doing that. In order 
to do it effectively, states need more flexibility to create CMV 
enforcement programs that suit their own unique needs, not more 
prescriptive requirements from FMCSA. CVSA's recommendation to increase 
the non-CMV traffic enforcement cap is part of a larger argument for 
more flexibility for the states. CVSA opposes any efforts to dictate to 
the states what portion of their MCSAP funds must be spent on any 
particular activity.

    Question 4. The Compliance, Safety, Accountability (CSA) program 
provides inspection and safety data about carriers to the Federal Motor 
Carrier Safety Administration. Can you please describe how individual 
safety enforcement organizations use the data to enhance safety? Do you 
have concerns about the reliability of the data or the absence of data 
for many carriers?
    Answer. The goal of the roadside inspection program is to target 
high risk carriers and get dangerous vehicles and carriers off the 
road. CSA was designed to serve as a screening tool for enforcement, to 
better target time and resources on carriers that are more likely to 
have safety issues. However, it is merely one tool in the toolbox, so 
to speak, that enforcement uses to identify which vehicles they need to 
inspect or what carriers to visit for a compliance review. To that end, 
it is a useful tool. It provides inspectors and investigators with a 
snap shot of the motor carrier's performance. Other factors including 
observed driver behavior, such as speeding or changing lanes without a 
signal, visual vehicle defects, such as missing signage or a visibly 
flat tire on the vehicle, contribute to an inspector's decision to stop 
a vehicle. In addition, inspector experience factors in, meaning that 
an inspector's interaction with a particular carrier might factor into 
their decision to pull a vehicle aside for inspection. If, for example, 
the inspector knows from experience that a certain company has a 
history of hours of service violations, while another motor carrier has 
a proven safety track record and rarely demonstrates problems, the 
inspector is more likely to focus on the former carrier.
    While there are indeed data sufficiency issues, because there are a 
number of factors that go into an inspector's selection decision, those 
issues are not a major concern for the enforcement community. However, 
work should continue to improve the amount of data in the system.
    Finally, on the subject of data reliability, CVSA does not believe 
that there is a data reliability issue. The data being collected 
roadside is, to a great extent, uniform and credible data. FMCSA's own 
reviews of the states' data quality performance routinely put most 
states in the ``green'' category. Further, the data being collected is 
not being challenged at a high rate. In fact, inspection data is barely 
being challenged at all. From 2010 through June of 2013, of the 12.5 
million inspections conducted, less than 1 percent were challenged 
through the DataQs process. This demonstrates that, with few 
exceptions, the violations being documented roadside are accurate.
                                 ______
                                 
     Response to Written Question Submitted by Hon. John Thune to 
                            David J. Osiecki
    Question. In your written testimony you note that Compliance, 
Safety, Accountability data does not provide a strong statistical 
correlation between the score and future crash risk. How can the 
Federal Motor Carrier Safety Administration improve its data set and 
methodology?
    Answer. ATA's many concerns with FMCSA's Compliance, Safety, 
Accountability program can be broadly categorized as follows: data 
sufficiency, system accuracy, and crash accountability.
    Data sufficiency: Every study conducted on CSA to date has 
recognized the dearth of data used to measure motor carriers. CSA 
currently has enough data to score 18 percent of motor carriers in at 
least one Behavior Analysis & Safety Improvement Category (BASIC). Even 
fewer are scored in most categories and very few in all categories. 
This creates vast discrepancies in the way motor carriers with scores 
are compared to those without.
    System accuracy: Many organizations have studied this relationship 
and all have come to similar conclusions: while some BASIC scores 
correlate closely to crash risk, other exhibit weak, negative, or 
indiscernible relationships. This is a departure from the intent of the 
program. Throughout the CSA methodology are references stating that the 
intent of the system is to identify behavior that leads to crashes. 
With some BASICs, this is impossible.
    This inaccuracy is the result of the fundamental methodological 
dysfunction which pervades the model. It begins with flawed assumptions 
regarding the relationship between regulatory violations and crash 
risk, continues with concerns about the veracity of the data being 
provided to FMCSA by its state partners and ends with the unaccounted 
for regional enforcement disparities which can have significant impact 
on motor carriers scores depending on the region in which the motor 
carrier operates.
    Furthermore, even in categories that exhibit a positive correlation 
to crash risk (on average), thousands of exceptions exist. 
Specifically, many motor carriers have poor BASIC scores but low crash 
rates. Unfortunately, these otherwise safe carriers are being 
erroneously labeled as unsafe. Conversely, and perhaps more 
importantly, unsafe carriers may have a poor safety culture cloaked by 
good BASIC scores (i.e., good scores but high crash rates).
    Crash Accountability: Currently, CSA collects, analyzes and 
displays all motor carrier accidents, regardless of fault or 
preventability. This is counter-intuitive. If a driver for a motor 
carrier did not cause an accident and could have done nothing to 
prevent it then it is clearly not indicative of a company's safety 
culture and should not be used to measure safety or compliance.
    In other words, non-preventable crashes should not be used to 
target fleets and fleets as more likely to cause crashes.
    ATA has been focused on providing appropriate, pragmatic 
suggestions for improvement of CSA. Below is a listing of ideas ATA 
feels will create a more effective and equitable safety measurement 
system.

  1.  Acquire more data: FMCSA must take a strategic approach to 
        gathering data on a greater percentage of the industry. 
        Moreover, the agency must work with its law enforcement 
        partners to move resources from the interstate highway system 
        and other areas where fleets are inspected repeatedly, to those 
        areas where they are not. Doing so will help gather data on 
        more fleets, especially those whose safety performance is 
        unmeasured.

  2.  Measure safety performance based on relative risk of crash 
        involvement: In several categories carriers scores do not bear 
        a positive statistical relationship to crash risk. In fact, 
        FMCSA cannot demonstrate a statistical relationship between the 
        vast majority of violations used to score carriers and crashes. 
        The agency defends this practice saying they are measures of 
        ``compliance.'' Since the highest priority should be on 
        preventing crashes and saving lives, the system should focus on 
        violations that have a statistical correlation to crash risk. 
        Further, the goal should be to identify fleets that are most 
        likely to be involved in a future crash.

  3.  Adjust the methodology to account for regional enforcement 
        disparity: Where a motor carrier operates can have as big an 
        impact on an SMS scores as how a motor carrier operates. While 
        ATA would agree that state law enforcement agencies should 
        maintain the prerogative to focus on regulations that address 
        the unique challenges of their state, doing so creates 
        unfairness in SMS. Motor carrier scores should be normalized 
        based on a carrier's operational presence in a particular 
        state, as measured by millions of miles traveled through 
        violation weighting. For example, violations could be weighted 
        to account for any disproportionate use in a particular state, 
        based on national averages.

  4.  Create dynamic peer groups: CSA is a system that scores motor 
        carriers relative to their peers as measured by exposure (e.g., 
        size of fleet or number of inspections). However, when a motor 
        carrier exposure measure changes, the resulting shift in 
        ``safety event'' (peer) group can produce drastic swings in CSA 
        percentile scores. This is not because the fleet's performance 
        has changed necessarily, just that the point of reference has 
        changed to a different group of ``peers.'' This can be a 
        significant problem for motor carriers who operate near a peer 
        group threshold. To correct this problem and provide more 
        meaningful scores, FMCSA should implement a system that 
        compares motor carriers only to those with relatively similar 
        numbers of inspections instead of assigning them a group based 
        on arbitrarily designated static bounds. Rather than comparing 
        a fleet against others with up to 100 inspections (101-200, and 
        so on), it should always compare the fleet against others that 
        have, for example, between 10 more and 10 fewer inspections. 
        Doing so will ensure a more reliable point of reference.

  5.  Remove crashes not caused by the motor carrier: FMCSA should 
        remove from the system those crashes that a motor carrier did 
        not cause or could not have prevented. Moreover, these crashes 
        should not be displayed in the system nor used to measure 
        carrier performance.

  6.  Remove CSA scores from public view: Until the aforementioned 
        changes can be made and all SMS BASIC scores can reliably 
        predict the crash risk of individual motor carriers relative to 
        those of similar operations, CSA scores should be removed from 
        public view.

                                  [all]
                                  
</pre></body></html>
